<html>
<title> - SAFEGUARDING OUR FUTURE: BUILDING A NATIONWIDE NETWORK FOR FIRST RESPONDERS</title>
<body><pre>[Senate Hearing 112-166]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-166

   SAFEGUARDING OUR FUTURE: BUILDING A NATIONWIDE NETWORK FOR FIRST 
                               RESPONDERS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>









                  U.S. GOVERNMENT PRINTING OFFICE
71-532 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
MARK WARNER, Virginia                PATRICK J. TOOMEY, Pennsylvania
MARK BEGICH, Alaska                  MARCO RUBIO, Florida
                                     KELLY AYOTTE, New Hampshire
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 16, 2011................................     1
Statement of Senator Rockefeller.................................     1
    Prepared statement of Hon. Charles E. Schumer, U.S. Senator 
      from New York..............................................     6
Statement of Senator Hutchison...................................     3
Statement of Senator Boozman.....................................    28
Statement of Senator Warner......................................    28
    Prepared statement...........................................    28
Statement of Senator Udall.......................................    32
Statement of Senator Thune.......................................    32
Statement of Senator Blunt.......................................    36
Statement of Senator Klobuchar...................................    37

                               Witnesses

Hon. Peter T. King, Chairman, Committee on Homeland Security, 
  U.S. House of Representatives..................................     4
Hon. Raymond W. Kelly, Police Commissioner, City of New York.....     7
    Prepared statement...........................................     9
Hon. Jack Markell, Governor, State of Delaware and Member, 
  Executive Committee, National Governors Association............    11
    Prepared statement...........................................    13
Al H. Gillespie, Chief, North Las Vegas Fire Department and First 
  Vice President, International Association of Fire Chiefs.......    15
    Prepared statement...........................................    17
Joseph L. Hanna, President, Directions...........................    19
    Prepared statement...........................................    21

                                Appendix

Hon. Olympia J. Snowe, U.S. Senator from Maine, prepared 
  statement......................................................    45
Response to written questions submitted to Hon. Raymond W. Kelly 
  by:
    Hon. Claire McCaskill........................................    46
    Hon. Olympia J. Snowe........................................    48
Response to written questions submitted to Hon. Jack Markell by:
    Hon. Claire McCaskill........................................    53
    Hon. Olympia J. Snowe........................................    54
Response to written questions submitted to Chief Al H. Gillespie 
  by:
    Hon. Claire McCaskill........................................    57
    Hon. Olympia J. Snowe........................................    59
Response to written questions submitted to Joseph L. Hanna by:
    Hon. Claire McCaskill........................................    65
    Hon. Olympia J. Snowe........................................    66

 
                        SAFEGUARDING OUR FUTURE:
                     BUILDING A NATIONWIDE NETWORK
                          FOR FIRST RESPONDERS

                              ----------                              


                      WEDNESDAY, FEBRUARY 16, 2011

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Good morning, everyone.
    This hearing comes to order.
    My Vice Chair, Senator Kay Bailey Hutchison from Texas, is 
here, and there are some others who are not would be my general 
impression. But you know what? I do not care.
    [Laughter.]
    The Chairman. You are here. We are here and we have a great 
subject to discuss.
    The 10th anniversary of 9/11 is very quickly coming up in 
the fall. Despite the passage of time and of the horror, the 
pain, and the deep sadness that marks that day, nothing really 
has faded from our national consciousness. That is part of our 
eternal time clock, what went on during that day and what 
people did during that day and what the nation lost and what 
the nation gained that day. And I think that is all appropriate 
because these are wounds that, even if they heal, they always 
will cause us pain. That is as it should be. We grow as a 
nation. We deepen as a nation, and we come to understand more 
what people do and can do and will do.
    Although strides have been made across the country in 
interoperability, mostly in big cities, we are still far from 
where we need to be. Although strides have been made, we have 
so much more to do. More importantly, tragedy does not know 
boundaries. Besides New York or Washington, emergencies occur 
every day in urban and rural communities all across the 
country. We do not hear about them. We do not read about them 
unless it is a Virginia Tech type of event, but they happen all 
the time. We live with them, and we should not have to live 
with them. Whether it is terrorism or a tornado or a hurricane 
or a brush fire, one thing is universally true, when an 
emergency happens, who do we rely on? We rely on first 
responders like police, fire fighters, and public safety 
officials of all kinds to keep us from harm.
    Far too often, we talk about the important role that these 
brave first responders play, but then we turn around and we 
fail to give them the tools they need to do their job. So we 
are full of praise, but we are not full of help. We are trying 
to redress that situation.
    I think it is long past time that we really do something 
strong about this, and it turns out that we can do it with a 
whole lot of funding left over for deficit reduction because of 
the voluntary nature of the auction.
    So that is what today's hearing is about, and it is what 
led me to introduce and to fight hard for the Public Safety 
Spectrum and Wireless Innovation Act. The legislation does two 
things.
    First, it sets aside 10 megahertz of spectrum known as the 
D Block to public safety to support a nationwide interoperable 
wireless broadband network that will help keep us safe.
    Second, it gives the Federal Communications Commission the 
authority to hold incentive auctions based on a voluntary 
return of spectrum. And that word ``voluntary'' turns out to be 
a very, very important word. These auctions, in turn, will 
provide funding to support the construction and maintenance of 
public safety networks, and they will free up additional 
spectrum for innovative commercial uses.
    In short, the bill marries resources for first responders 
with good commercial spectrum policy. It can keep us safe and 
help our economy grow.
    That is why this legislative union has the support of every 
major public safety organization across the country. I am proud 
that virtually every public safety officer in my great state of 
West Virginia has stood up and recognized how essential this 
bill really is for strengthening their ability to do their 
jobs. They may not be dealing with twin towers, but they are 
dealing with their equivalent of twin towers every day and they 
never know when it will come upon them. In fact, I am 
especially proud of the good work that we have done on the 
legislation across our State, and I have had very useful 
conversations with first responders in two counties that you 
have never heard of, Jackson County and Wood County, about how 
this bill would make their work safer.
    Across the country, I have also gotten strong statements of 
support from governors and mayors. And now we have the full and 
unambiguous support of the Administration. It was a tad slow in 
coming, but it is here. It is full-force.
    There are some people who argue that we simply want to sell 
the valuable resource to the highest bidder. I forcefully 
reject that, though I have said repeatedly that I will work 
with anyone who seeks to make sure that our public safety 
officials have the resources they need to communicate so they 
can do their jobs and protect our people.
    But let me also clarify one thing. This effort is about 
saving lives. And to those who say we cannot afford this now, I 
say we can afford in no way not to do it. We have to do it and 
we have to do it now. The moment is right and everybody is here 
and this has great momentum.
    But if this is not compelling enough, it is important for 
you to know this and important for the world to know this. This 
legislation pays for itself many times over. According to the 
Administration and industry, incentive auctions will bring in 
revenue well above what funding public safety requires, leaving 
billions--and I mean $20-plus billions--over for deficit 
reduction or for whatever people want to have happen. So this 
is a win-win-win from my point of view.
    In closing, let me say that we have an opportunity right 
now to provide our public safety officials with spectrum they 
need to communicate when tragedy strikes. And with incentive 
auctions, we can pair this with funding. Some people are not 
wild about this idea, and we respect their points of view but 
their points of view do not measure up to the facts of what we 
are dealing with here. They do not realize that if we have a 
voluntary spectrum auction for those who feel they can do that, 
we pick up a ton of money, far more than you would need for not 
just deploying your interoperability but maintaining the 
system, building it out, deploying it, and maintaining it.
    To my colleagues, I say let us seize this moment. This is 
the right thing to do. This is not a left thing to do. It is 
just the right thing to do. So let us do something historical. 
Let us do it together, and let us do it starting with this 
hearing today.
    I will have to say this is my highest legislative priority 
for this committee. I say that happily, unabashedly, and 
proudly. We will work to get this done before our nation 
reaches the 10th anniversary of September 11th, which is coming 
upon us quickly. It comes upon us much more quickly than we do 
legislation in the U.S. Congress. So the earlier we start, the 
better it is.
    I thank our witnesses for joining us today, and I will 
introduce them, but first Kay Bailey Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    I think you have pointed out a lot of the reasons for 
addressing this issue. We have all heard too many stories of 
our police, fire, and medical personnel who cannot communicate 
during emergencies, sometimes even resorting to handwritten 
notes passed across piles of rubble. When school children are 
walking to school with cutting-edge smart phones capable of 
video conferencing and high speed Internet connections, our 
first responders should have more than walkie-talkies and notes 
across rubble. Oftentimes we see that even the equipment they 
have is not interoperable.
    So this is the time to act. And you have been a leader, Mr. 
Chairman, on this issue and I think you have shown that 
commitment this morning.
    I said last September that I can support your proposal to 
allocate the spectrum known as the D Block to public safety. 
However, I do have some concerns about how your legislation 
would fund the deployment of the public safety network and 
whether we could work together to combine the public safety 
allocation with some of my priorities in the wireless area to 
drive innovation, investment, and job growth.
    I have drafted a comprehensive spectrum bill, the Wireless 
Innovation Spectrum Enhancement Act, WISE Act, to be called, 
that I hope you will consider. My bill would allocate the D 
Block to public safety, as well as provide a stable funding 
stream through a combination of grants and zero interest loans 
financed by auction revenue to build a public safety network. 
Funds would also be specifically targeted to rural and high-
cost areas where so many communities do not have access to 
wireless networks. This is important in every state that has 
rural communities and smaller communities to get the public 
safety broadband network in place and deployed.
    In addition to ensuring our first responders will have 
access to communications systems they need, my bill will 
generate billions in new revenue to help pay down the federal 
deficit. It will also spur more efficient and transparent use 
of government spectrum, encouraging the Government to use less 
of its spectrum allotment so that some airwaves that today are 
unused or underutilized can be repurposed for higher use.
    Last, my proposal will drive investment, innovation, and 
job creation by significantly increasing the spectrum available 
for commercial broadband use. This is necessary to maintain the 
United States' position at the forefront of the wireless world.
    So, Mr. Chairman, I hope that we can combine your priority 
and your approach with mine and do something that I think would 
be a win all the way around, from public safety spectrum to 
paying for it and adding to the commercial capabilities to use 
broadband. Thank you.
    The Chairman. We always do.
    Senator Hutchison. Thank you very much.
    The Chairman. I want to apologize to the other witnesses, 
but Senator Hutchison and I have to be on the floor to manage 
an aviation bill at 11 o'clock. I think we can be late, but I 
do not think it is a good idea.
    So I want to introduce Congressman Peter King from New 
York. He has been a longtime advocate for handing the D Block 
to public safety. He is Chairman of the House Homeland Security 
Committee. By having him kick off the dialogue, I just think it 
sets the tone. He is going to make an introduction. But I must 
say that I am very honored that you are here, sir. The floor is 
yours.

    STATEMENT OF HON. PETER T. KING, CHAIRMAN, COMMITTEE ON 
        HOMELAND SECURITY, U.S. HOUSE OF REPRESENTATIVES

    Mr. King. Thank you, Chairman Rockefeller, Ranking Member 
Hutchison, Senators.
    First of all, it is a great opportunity to be here. I want 
to thank you for extending the invitation to me. As a fellow 
New Yorker, Senator Rockefeller, I know you took a wrong turn 
once and ended up in West Virginia, but we still miss you in 
New York and we wish we had you back. But in any event, it is 
great to be here and it is good to see my good friend, Senator 
Toomey. I knew him when he worked across the street. It is good 
to see you, Pat. Thank you.
    Mr. Chairman, ten years after the September 11 attacks, our 
first responders still suffer from a lack of interoperable 
communications.
    By the way, I identify myself completely with everything 
said by you and Senator Hutchison. Whatever differences there 
are I hope can be resolved as we go forward. Some of the 
underlying motivation I agree with completely.
    The current situation is simply unacceptable. We have spent 
billions of dollars to upgrade communication systems, but we 
still lack interoperability. For instance, at Penn Station in 
New York, police officers are unable to consistently use their 
communications equipment even when they are only 100 yards away 
from one another due to interference.
    Now, back in 2004, six and a half years ago, the 9/11 
Commission report with Congressman Hamilton and Governor Kean, 
recommended that the Congress should support legislation to 
provide for the expedited and increased assignment of radio 
spectrum for public safety purposes. Six and a half years later 
it still has not been done. And for far too long the spectrum 
has been allocated to public safety in a piecemeal approach.
    We need to implement a new plan for solving our nation's 
public safety interoperable communications problem, one that 
ensures first responders have the latest technology to get the 
job done and to save lives. We need to support a plan that will 
provide public safety agencies enough contiguous spectrum to 
enable the conversions of voice, video, and data communications 
on one network, and this network must have enough capacity and 
speed to allow public safety the ability use the latest 
equipment and applications to do their job in a secure 
environment.
    That is why, along with Ranking Member Thompson of the 
Homeland Security Committee in the House, I have introduced the 
bipartisan Broadband for First Responders Act, H.R. 607. This 
is the companion to the bill of Senator Lieberman and Senator 
McCain, very close to yours as well, and I look forward to 
working with you, Senator McCain, Senator Lieberman, and 
Senator Hutchison and as many people as we can on a bipartisan 
basis.
    By allocating D Block to public safety and providing 
sufficient funding, we can finally give the brave men and women 
of our law enforcement community, fire service, EMTs the 
communications resources that they require and need and which 
we as the public require and need as we live in very, very 
dangerous times, whether we are talking about natural disasters 
or the constant peril of terrorist attack. Just last week, 
Secretary Napolitano said that the terror threat is as high now 
as it has been since September 11, 2001. So this is a real, 
real and present challenge, danger, and threat to our nation, 
and I believe legislation of this type is absolutely essential.
    Now, my main purpose, Chairman Rockefeller, in being here 
today is to introduce New York Police Commissioner Ray Kelly 
who has truly been a leader. He is here today. There are men 
from law enforcement, men from the fire service, men who 
literally put their lives on the line every day to protect us 
and need the very, very best. Commissioner Kelly has been--
probably no one has been more of a leader, not just a local 
leader but a national leader, since September 11. The New York 
City Police Department has 1,000 police officers dedicated to 
fighting terrorism. That is 1,000 police officers. They have an 
intelligence division, a counter-terrorism division. They have 
people focused on interoperability. At every stage and every 
level of the fight against terrorism, the NYPD has been there 
before September 11 but especially since Commissioner Kelly 
came back as Commissioner in January of 2002. We in New York 
live every day with the constant specter of another attack. We 
have been attacked twice, and since Commissioner Kelly has been 
commissioner, we have stopped 11 other attacks against the City 
of New York. So we realize firsthand the danger.
    But we have no monopoly on threats. We have no monopoly on 
death. And that is why I am supporting this legislation in a 
bipartisan way, why I look forward to working with you, and why 
it is really my privilege to introduce Commissioner Kelly to 
you today. He and Chief Dobbs from the NYPD have just been 
constant and consistent in urging passage of legislation such 
as this. So I am proud that Commissioner Kelly is here today. 
He will, as always, do a tremendous job in laying out what the 
reality on the ground is and what has to be done.
    So as Congressman Toomey used to say and I still say, I 
thank you for allowing me to testify and yield back the balance 
of my time. Thank you, Senator Rockefeller.
    The Chairman. Thank you very much.
    We will have the panel come forward, and as they are doing 
that, I want to point out that our three members here today are 
all new members to the Committee. So I think that reflects very 
well on them and less well on the rest of our colleagues.
    [Laughter.]
    Mr. King. I am not going to get involved in that, Senator.
    [Laughter.]
    The Chairman. Well, it is busy.
    I also ask unanimous consent to enter Senator Schumer's 
statement in the record. He wanted to be here to support the 
bill and to support Commissioner Kelly but had, as they say, a 
prior engagement. He is a very busy man.
    Mr. King. I know.
    [The prepared statement of Senator Schumer follows:]

            Prepared Statement of Hon. Charles E. Schumer, 
                       U.S. Senator from New York
    I am sorry I could not be with everyone before the Committee today, 
but I would like to thank the distinguished Chairman, Senator 
Rockefeller, for holding this hearing, and his leadership in authoring 
this important legislation, the Public Safety Spectrum and Wireless 
Innovation Act.
    I would like to recognize New York City's Police Commissioner Ray 
Kelly who is testifying today for his tireless work in keeping New York 
City safe and secure. We are all in his debt. He is one of our nation's 
preeminent experts on national security, and his endorsement of this 
legislation speaks volumes about its wisdom.
    As we all know this year will mark the tenth anniversary of the 
attacks of September 11. As we continue to endeavor to understand the 
reality of a post-9/11 world, it is imperative that we learn from that 
tragedy. The 9/11 Commission's report, which highlighted our gaps in 
preparedness for any future attack, has been a principal roadmap for 
moving forward. A key recommendation of the 9/11 Commission was to 
increase the assignment of radio spectrum for public safety purposes.
    The Chairman's bill responds directly to that Commission's 
recommendations and advances the cause of safety. For that reason, I am 
proud to join him and my colleagues, Senators Cardin, Harkin, 
Lautenberg, Klobuchar, Gillibrand, and Nelson, as a co-sponsor of the 
Public Safety Spectrum and Wireless Innovation Act.
    This bill is an essential step in propelling our first responders 
into the twenty-first century. The bill establishes a framework for the 
development of a nationwide wireless broadband network for public 
safety. By allocating this 10 megahertz of spectrum, or the D Block, to 
public safety we are in fact facilitating applications ranging from 
location-aware real-time services to multimedia command control 
capability. This technology could help a firefighter map out the most 
effective entry points of a burning building or ensure that police are 
able to effectively communicate in a perilous situation.
    We owe it to the American people to do everything we can, not only 
to prevent any other attack, but also to equip our first responders 
with the tools they need to do their important work. And that means 
passing the Public Safety Spectrum and Wireless Innovation Act.
    I encourage the Commerce Committee to swiftly mark-up this 
important bill in order to ensure that it is passed into law before the 
tenth anniversary of 9/11.

    The Chairman. Could the panel come forward, please?
    Congressman, we thank you very much.
    Mr. King. Thank you, Senator. Thank you very much.
    The Chairman. So our panel is New York City Police 
Commissioner Ray Kelly, who has been introduced; Delaware 
Governor Jack Markell. He is on the Executive Committee of the 
National Governors Association, NGA. He has a long history. And 
I believe one of your first jobs, sir, was working for Nextel, 
whose former founder failed to show up this morning.
    Governor Markell. I am looking for him.
    [Laughter.]
    The Chairman. Yes. But he would be sitting in about that 
third seat there from the end. So you can imagine him.
    Also, Al Gillespie, Chief of the North Las Vegas Fire 
Department and First Vice President of the International 
Association of Fire Chiefs. That group has been a longtime 
supporter of this legislation. And obviously his testimony will 
be important.
    Also, Mr. Joe Hanna, President of Directions. He is the 
former President of the Association of Public Safety 
Communications Officials, and he is also a former Richardson, 
Texas police captain.
    So we welcome all of you, and I would ask Commissioner 
Kelly to begin.

              STATEMENT OF HON. RAYMOND W. KELLY, 
             POLICE COMMISSIONER, CITY OF NEW YORK

    Mr. Kelly. Thank you very much, Mr. Chairman, Senator 
Hutchison, members of the Committee.
    I also want to thank Congressman King for that very 
generous introduction and for his rock-solid support of law 
enforcement and fire safety issues in New York City. And in the 
interest of full disclosure, I must say that Congressman King's 
father was a lieutenant in the New York City Police Department.
    Let me begin by expressing my gratitude for this bipartisan 
effort on behalf of public safety. Thanks to the leadership of 
Senator Rockefeller, Congressman King, Senator Hutchison, and 
so many other Members of Congress on both sides of the aisle, 
we are closer than ever to providing our nation's first 
responders with the tool that they desperately need: a 
nationwide broadband network dedicated to public safety. It was 
extremely encouraging to see President Obama expressing his 
firm support for this initiative last week.
    I come to Washington today as the head of a police 
department that will benefit enormously from this technology. I 
consider it essential to the future of our mission. I know this 
view is shared by law enforcement agencies and fire 
departments, large and small, urban and rural, across the 
country.
    That is because our existing communications systems are 
fast becoming obsolete. Like virtually all other public safety 
organizations, the New York City Police Department relies 
principally on the use of two-way voice radios to communicate 
with responding officers and direct them to the scene. However, 
this technology is extremely limited. We cannot use it to 
exchange electronic data. And although we have made progress on 
local radio interoperability, the lack of a common radio 
spectrum prevents us from establishing a truly seamless 
nationwide system for all first responders.
    Today a 16-year-old with a smart phone has a more advanced 
communications capability than a police officer or deputy 
carrying a radio. Given the technology that is available and 
the complexity of the threat that we face, this is 
unacceptable. It will only change if we succeed in building a 
nationwide broadband network to a mission-critical grade of 
service.
    In New York City, this would enable the NYPD to fully 
leverage the powerful technology that we use in our Real Time 
Crime Center. This is a state-of-the-art computer facility we 
opened at our headquarters in 2005. It is supported by a 
massive database containing billions of public and private 
records. We have made this database searchable with the latest 
software. Around the clock, crime center detectives take calls 
from investigators in the field looking to follow up on various 
leads they obtained: a partial license plate, a seemingly 
untraceable cell phone number, a nickname, or even a tattoo. 
They conduct instant, on-the-spot searches, something that 
previously took days of calling, faxing between agencies, and 
combing through paper files.
    We are also about to launch a facial recognition unit 
within the Real Time Crime Center. It will use digital 
technology to match video images of people at crime scenes to 
mug shots that are on file.
    With a dedicated broadband network, we would be able to 
push this information out to tens of thousands of officers on 
patrol. For example, an officer using a handheld device 
operating on this network could receive detailed information 
before he or she arrives at the location. This would include 
who lives there, whether or not the police have been there 
before and why, and if any of the occupants has an outstanding 
warrant, an order of protection, or a firearms license.
    Such a network could also provide officers with an 
immediate, digital snapshot of anyone they detain. It would 
give them the suspect's address, prior arrest history, and 
other critical details. The officer would be able to take 
electronic fingerprints at the scene and compare them 
instantaneously with those in local, state, and federal 
databases. This kind of situational awareness is vital to the 
safety of officers and members of the public. And it represents 
the next generation of law enforcement communications.
    But we cannot get there without a safe, secure, and 
effective broadband network over which to deliver this 
information, one that is built and run to public safety 
specifications and one that we can control. We know from past 
experience that we cannot totally depend on systems run by the 
private sector. They are too susceptible to failure in a 
crisis. On September 11th and after the 2009 crash of a 
commercial jetliner in the Hudson River, cell phone networks 
were deluged and police and fire communications over them 
became virtually impossible.
    That is a grave concern in light of the threat that we face 
from terrorism. The New York City Police Department trains 
every day to prepare for large-scale disasters. But we need a 
network that will support a multi-agency response and all of 
the technology we use to keep our city safe.
    To give you one example, as part of our response to the 
attempted car bombing in Times Square last May, we deployed a 
robot to inspect the vehicle. As is the case with all of our 
robots, it was controlled by its operator through a thin, fiber 
optic cable. Our need to maneuver around fire hoses and other 
obstacles on the street increased the risk that the cable would 
be run over and severed. If that had happened, we would have 
lost control of the robot. With an adequate broadband network 
in place, we would not have to worry about that. We could 
control robots wirelessly, thereby removing these risks.
    It would also make it easier and safer to conduct complex 
operations involving more than one robot, say, if we found a 
secondary device at a bomb scene. With wireless, broadband 
technology, we would not have to be concerned about managing 
multiple cables. We could also share the video feeds from our 
robots with the federal government and other law enforcement 
agencies in real time.
    Right now, these capacities do not exist. But they will if 
we build this network.
    Every public safety agency in the nation supports this 
effort. That is why I urge Congress in the strongest possible 
terms to allocate the D Block directly to public safety and to 
ensure funding for this vital resource. We need adequate 
bandwidth, network control, and a higher standard of 
reliability and survivability that only a public safety network 
can provide. Together with our partners from across the 
country, the New York City Police Department looks forward to 
the day when we can share a broadband capability that delivers 
voice, video, and data on a dedicated wireless network. For the 
sake of the security of cities and towns throughout our Nation, 
I sincerely hope we see that day soon.
    Thank you very much for inviting me, Mr. Chairman.
    [The prepared statement of Mr. Kelly follows:]

             Prepared Statement of Hon. Raymond W. Kelly, 
                 Police Commissioner, City of New York
    Good morning, Chairman Rockefeller, Senator Hutchison, members of 
the Committee. Thank you for this opportunity to testify.
    Let me begin by expressing my gratitude for this bipartisan effort 
on behalf of public safety. Thanks to the leadership of Senator 
Rockefeller, Congressman King, and Members of Congress on both sides of 
the aisle, we are closer than ever to providing our Nation's first 
responders with a tool they desperately need: a nationwide broadband 
network dedicated to public safety. It was extremely encouraging to see 
President Obama expressing his firm support for this initiative last 
week.
    I come to Washington today as the head of a police department that 
will benefit enormously from this technology. I consider it essential 
to the future of our mission. I know this view is shared by law 
enforcement agencies and fire departments, large and small, urban and 
rural across this country.
    That's because our existing communications systems are fast 
becoming obsolete. Like virtually all other public safety 
organizations, the New York City Police Department relies principally 
on the use of two-way voice radios to communicate with responding 
officers and direct them to a scene. However, this technology is 
extremely limited. We cannot use it to exchange electronic data. And 
although we have made progress on local radio interoperability, the 
lack of a common radio spectrum prevents us from establishing a truly 
seamless nationwide system for all first responders.
    Today, a 16-year-old with a smart phone has a more advanced 
communications capability than a police officer or deputy carrying a 
radio. Given the technology that is available, and the complexity of 
the threat we face, that is unacceptable. It will only change if we 
succeed in building a nationwide broadband network to a mission-
critical grade of service.
    In New York City, this would enable the NYPD to fully leverage the 
powerful technology that we use in our Real Time Crime Center. This is 
a state-of-the art computer facility we opened at our headquarters in 
2005. It is supported by a massive database containing billions of 
public and private records. We've made this database searchable with 
the latest software. Around the clock, crime center detectives take 
calls from investigators in the field, looking to follow up on various 
leads they've obtained: a partial license plate, a seemingly 
untraceable cell phone number, a nickname or even a tattoo. They 
conduct instant, on the spot searches, something that previously took 
days of calling, faxing between agencies, and combing through paper 
files.
    We're also about to launch a facial recognition unit within the 
Real Time Crime Center. It will use digital technology to match video 
images of people at crime scenes to mug shots on file.
    With a dedicated broadband network, we would be able to push this 
information out to tens of thousands of officers on patrol. For 
example, an officer using a handheld device operating on this network 
could receive detailed information before he or she arrives at a 
location. This would include who lives there; whether or not the police 
have been there before and why; and if any of the occupants has an 
outstanding warrant, an order of protection, or a firearms license.
    Such a network could also provide officers with an immediate, 
digital snapshot of anyone they detain. It would give them the 
suspect's address, prior arrest history, and other critical details. 
The officer would be able to take electronic fingerprints at the scene 
and compare them instantaneously with those in local, state, and 
federal databases. This kind of situational awareness is vital to the 
safety of the officers and members of the public. And it represents the 
next generation of law enforcement communications.
    But we can't get there without a safe, secure, and effective 
broadband network over which to deliver this information, one that is 
built and run to public safety specifications, and one that we can 
control. We know from past experience that we can't depend on systems 
run by the private sector. They are too susceptible to failure in a 
crisis. On September 11 and after the 2009 crash of a commercial jet in 
the Hudson River, cell phone networks were deluged and police and fire 
communications over them became virtually impossible.
    That's a grave concern in light of the threat we face from 
terrorism. The New York City Police Department trains every day to 
prepare for large-scale disasters. But we need a network that will 
support a multi-agency response and all of the technology we use to 
keep the city safe.
    To give you one example, as part of our response to the attempted 
car bombing in Times Square last May, we deployed a robot to inspect 
the vehicle. As is the case with all of our robots, it was controlled 
by its operator through a thin, fiber-optic cable. Our need to maneuver 
around fire hoses and other obstacles on the street increased the risk 
that the cable would be run over and severed. If that had happened, we 
would have lost control of the robot.
    With an adequate broadband network in place, we wouldn't have to 
worry about that. We could control robots wirelessly, thereby removing 
these risks.
    It would also make it easier and safer to conduct complex 
operations involving more than one robot--say if we found a secondary 
device at a bomb scene. With wireless, broadband technology, we 
wouldn't have to be concerned about managing multiple cables. We could 
also share the video feeds from our robots with the Federal Government 
and other law enforcement agencies in real time.
    Right now, these capacities do not exist. But they will if we build 
this network.
    Every public safety agency in the nation supports this effort. That 
is why I urge Congress in the strongest possible terms to allocate the 
D Block directly to public safety, and to ensure funding for this vital 
resource. We need adequate bandwidth, network control, and the higher 
standard of reliability and survivability that only a public safety 
network can provide. Together with our partners from across the 
country, the New York City Police Department looks forward to the day 
when we can share a broadband capability that delivers voice, video, 
and data on a dedicated wireless network. For the sake of the security 
of cities and towns throughout our nation, I sincerely hope we see that 
day soon.
    Thank you again for this chance to testify. I would be pleased to 
answer any of your questions.

    The Chairman. Thank you very much, Commissioner. We are 
honored that you are here. You have a very excellent national 
reputation.
    Mr. Kelly. Thank you, sir.
    The Chairman. The Governor of Delaware, Jack Markell, is 
our next witness. We welcome you, sir.

           STATEMENT OF HON. JACK MARKELL, GOVERNOR,

  STATE OF DELAWARE AND MEMBER, EXECUTIVE COMMITTEE, NATIONAL 
                     GOVERNORS ASSOCIATION

    Governor Markell. Thank you, Chairman Rockefeller and 
Senator Hutchison, members of the Committee. My name is Jack 
Markell. I am the Governor of the State of Delaware.
    And before I start, I would like to thank the men and women 
behind me from public safety and law enforcement, first 
responders, and certainly especially those who are behind me 
from Delaware. I am grateful to them.
    It is a privilege to testify today on behalf of my fellow 
governors and also on behalf of the National Governors 
Association in favor of reallocating the 700 megahertz D Block 
spectrum to public safety. Governors are committed to working 
with you and with our federal partners to develop a nationwide 
broadband network for first responders.
    And I especially appreciate the opportunity to testify on 
this particular issue. As you noted, before my political 
career, I actually spent years acquiring the spectrum that led 
to the nationwide network that became Nextel.
    Senator Rockefeller, as you know, it is not always easy to 
reach consensus among governors, but when the FCC proposed 
auctioning the D Block for commercial use and then giving 
priority access to public safety for a fee, governors, 
legislators, county officials, and mayors joined with police 
and fire chiefs to say no. In our opinion, if we are to build 
the system that our first responders need and our citizens 
expect, we have got to begin by making the reallocation of the 
D Block the cornerstone of our efforts to develop and to deploy 
a nationwide interoperable broadband network.
    Now, as Governor, I am fortunate to lead a state that has 
prioritized interoperable communications. Since the attacks of 
September 11th, we have worked diligently in Delaware to 
address interoperability by installing a statewide 800 
megahertz narrow-band radio system that is used by all of the 
public safety agencies within our state. And when we did so, we 
became one of the first states to operate a truly interoperable 
public safety communications system. But unfortunately, due to 
the narrow bandwidth, this system does not have the capability 
to provide the robust exchange of broadband data.
    And this is where the opportunity to reallocate the D Block 
becomes so critical. Instead of a limited, piecemeal system, we 
have the chance to build a system to allow all first responders 
to share mission-critical video, to download building plans, to 
track personnel and equipment in real time. And in fact, if 
done correctly, the build-out of a nationwide interoperable 
system could save states like ours millions of dollars. This is 
because instead of spending taxpayer money to upgrade an old 
system, we could invest and leverage our dollars to join a 21st 
century system that will reliably provide our first responders 
with the critical information that they need to save lives.
    Now, as you know, the development of such a system is 
dependent upon three things. First is access to sufficient and 
dedicated spectrum for public safety. Second is a funding 
mechanism to construct, manage, and maintain the network, and 
third, clear governance guidelines to ensure nationwide 
coverage and interoperability. Efforts to address one issue 
without solving the others will only lead to us meeting again 
10 years from now to ask why we still do not have interoperable 
communications.
    Fortunately, Mr. Chairman, your bill, S. 28, the Public 
Safety Spectrum and Broadband Innovation Act, takes advantage 
of this unique opportunity to move us forward, and by 
reallocating the D Block to public safety, first responders 
will, for the first time, have sufficient, contiguous broadband 
spectrum to support a nationwide system.
    S. 28 also addresses the funding question by establishing a 
funding source for construction and operation of the network. 
And as states continue to face budget gaps after several years 
of unprecedented revenue declines, federal funding to support 
network construction and maintenance will help ensure its 
timely development and nationwide deployment.
    I should also note that the reallocation of spectrum will 
provide state and local governments greater flexibility to 
innovate in the development and administration of the network, 
to achieve economies of scale, to utilize public/private 
partnerships to reduce the costs of construction and to reduce 
the costs of maintaining the network.
    And finally, your bill addresses key governance issues 
necessary to maintain nationwide interoperability. For example, 
while the bill maintains flexibility for local areas to begin 
network construction ahead of the state, the legislation also 
would ensure that any advance network deployments are 
coordinated throughout the state and region. And this 
coordination will be critical to facilitating interoperability 
and coordination between existing voice communication systems 
and the new public safety broadband network. It will also help 
ensure that rural areas are included in the nationwide network 
in a timely manner.
    So the development of an interoperable broadband network 
for public safety is essential for enhancing the ability of 
first responders to protect our citizens and to respond to 
emergencies, and the cornerstone of such a network is dedicated 
spectrum and specifically the reallocation of the D Block to 
public safety.
    Governors greatly appreciate the support and work of this 
committee and the fact that S. 28 takes advantage of this one-
time opportunity to avoid the mistakes of the past by 
allocating appropriate contiguous spectrum to support the 
safety and security of our country.
    So on behalf of the National Governors Association, I want 
to thank you for the opportunity to testify on this critical 
issue. We governors are committed to working with you and our 
federal partners to develop, to build, and to deploy a 
nationwide interoperable broadband system for first responders. 
Thank you.
    [The prepared statement of Governor Markell follows:]

 Prepared Statement of Hon. Jack Markell, Governor, State of Delaware 
    and Member, Executive Committee, National Governors Association
    Chairman Rockefeller, Ranking Member Hutchison and distinguished 
members of the Committee, my name is Jack Markell, Governor of the 
state of Delaware and a member of the National Governors Association's 
(NGA) Executive Committee. I appreciate the opportunity to appear 
before you today to discuss the importance of a nationwide broadband 
network for our first responders.
    For more than a year Governors have called for the reallocation of 
D Block spectrum to public safety to serve as the cornerstone of 
efforts to develop and deploy a nationwide, interoperable broadband 
system. It is with great pleasure that I testify today to lend 
Governors' support for the solutions presented by S. 28, the ``Public 
Safety Spectrum and Wireless Innovation Act,'' introduced by Senator 
Rockefeller.
Overview
    As Governor, I am responsible for the safety and security of our 
citizens and must ensure that our public safety agencies can respond to 
any and all emergencies that may arise. Whether the event is a 
terrorist attack, a hurricane, chemical spill or bridge collapse, 
Delaware's first responders must be able to communicate seamlessly with 
each other and with the public at a moment's notice.
    To do so requires a communications network with sufficient capacity 
to allow firefighters, police officers and emergency medical personnel 
to share video, building plans, and the location of personnel and 
equipment in real time. In short, they must have access to the 
technology that today's teenagers have at their fingertips.
    Almost 10 years after the terrorist attacks of September 11 and 
despite a great deal of national attention to first responders' 
communications needs, we continue to lack a nationwide network that can 
provide these capabilities to first responders.
S. 28, The Public Safety Spectrum and Wireless Innovation Act
    The nation's Governors believe the development of an interoperable 
broadband network for public safety is essential to enhancing the 
ability of first responders to save lives and protect property.
    Development of such a system is dependent upon three things: first, 
access to sufficient and dedicated spectrum; second, a funding 
mechanism to construct, manage and maintain the network; and third, 
clear governance guidelines to ensure nationwide coverage and 
interoperability. Efforts to address one issue without solving or 
supporting a solution for the others will only hinder progress toward 
reliable and interoperable communications.
    Since the attacks of September 11, 2001, Delaware has worked 
diligently to address interoperability by installing a statewide 800 
MHz narrowband radio system that is used by all public safety agencies 
within the state. In doing so, Delaware became one of the first states 
to operate a truly interoperable public safety communications system. 
Unfortunately, due to narrow bandwidth, this system does not have the 
capability to provide for the exchange of robust broadband data.
    S. 28, the ``Public Safety Spectrum and Wireless Innovation Act'', 
would take advantage of the unique opportunity to dedicate sufficient 
contiguous broadband spectrum to first responder communications by 
reallocating the 700 MHz D Block spectrum to public safety, 
establishing a funding source for construction and operation of the 
network and addressing key governance issues necessary to ensure 
nationwide interoperability.
Spectrum Allocation
    The chance to allocate the 700 MHz D Block spectrum to public 
safety represents an unparalleled opportunity to develop a robust, 
modern and reliable nationwide interoperable broadband network.
    Past efforts to develop and maintain interoperable communications 
across the country have been hindered by the Federal Communications 
Commission's (FCC) allocation of small sections of spectrum across 
different frequency bands for public safety use--none of which are 
large enough to consolidate communications into a single segment of 
spectrum. Since devices operating on different frequencies cannot talk 
to each other, public safety agencies have sometimes been forced to 
install two or more radios in each response vehicle to ensure 
neighboring agencies can communicate.
    This solution is not only cumbersome but costly. With state and 
local budgets that support public safety under continuing strain for 
the foreseeable future, it is time to improve the efficiency and cost 
effectiveness of critical public services, including first responder 
communications.
    Without access to the D Block, however, state and local governments 
will again be forced to maintain multiple communications networks to 
ensure the brave men and women who protect the public and respond to 
emergencies can talk to each other.
    On the other hand, by combining the D Block with the existing 10 
MHz of adjacent public safety spectrum, public safety communications 
could eventually be migrated from other spectrum bands to allow for 
more streamlined, efficient and cost-effective communications systems.
    While the migration of voice systems to broadband should be 
explored for potential future consolidation, please note that this 
cannot happen overnight. The narrowband spectrum is currently used by 
state and local governments for existing or developing interoperable 
voice communications systems that cannot be migrated to broadband until 
the technology has been further developed.
    As you know, current law requires the FCC to auction the 700 MHz D 
Block. The FCC plans to auction the D Block for commercial purposes and 
provide public safety with roaming and priority access on other 700 MHz 
broadband networks for a fee. This will simply not work.
    As demonstrated repeatedly during recent disasters, excessive 
demand can clog commercial systems and prevent users from accessing the 
network. First responders require more reliable access, especially 
during times of emergency. It is simply unacceptable for first 
responders to be forced to wait for access when lives are at stake.
    In contrast, S. 28 is based on the core principle that public 
safety communications are simply too important to be placed in other 
hands. By adding the D Block to the existing Block of 10 MHz, and by 
providing funding mechanisms, Congress will ensure that public safety 
controls the design and construction of network facilities sufficient 
to meet their exacting standards of performance. No commercial operator 
builds to meet those same standards. This is not to say that commercial 
providers should not be involved. Public safety should explore the real 
potential of working constructively with the private sector to meet its 
needs.
Funding
    Just as sufficient spectrum is critical to the success of the 
nationwide network, so too is a sufficient funding source to ensure 
that the network is constructed in a timely manner throughout the 
country and that these systems can then be managed, upgraded and 
maintained as necessary.
    Regardless of whether it is built on 10 or 20 MHz of spectrum, 
construction of a nationwide network will be a costly endeavor. As 
states continue to face budget gaps after several years of 
unprecedented declines, Federal funding to support network construction 
and maintenance will help ensure its timely development and nationwide 
deployment.
    S. 28 would address these funding challenges through the 
establishment of grant programs for construction and maintenance. These 
grants would be fully funded through future auctions of spectrum and 
could provide billions of dollars in financial support for a critical 
national public safety asset.
    In addition, much like real estate, the D Block is a valuable 
asset. If reallocated to public safety, this additional spectrum could 
allow state and local government greater flexibility to innovate in the 
development and administration of the network. For example, commercial 
wireless operators will continue to spend billions of dollars deploying 
broadband facilities that mirror those that public safety will 
construct and operate. Constructive and innovative partnerships with 
commercial operators might achieve economies of scale and allow sharing 
of construction and operating costs to the benefit of both parties. By 
putting public safety in control of the spectrum, the playing field is 
leveled to enable such beneficial arrangements.
Governance
    Finally, in addition to the spectrum and funding issues I 
mentioned, establishing clear governance guidelines for the network 
will be critical to ensuring nationwide coverage and interoperability.
    S. 28 recognizes the importance of the coordinated development of 
the public safety network by requiring the FCC to establish technical 
and operational requirements and by authorizing states to oversee the 
issuance of requests for proposals related to the network.
    While maintaining flexibility for local areas to begin network 
construction ahead of the state, the legislation would ensure that any 
advanced network deployments are coordinated throughout the state or 
region. This will facilitate interoperability and coordination between 
existing voice communications systems, such as land mobile radio, and 
the public safety broadband network. It will also help ensure that 
rural areas are included in the nationwide network in a timely manner.
Conclusion
    The development of an interoperable broadband network for public 
safety is essential for enhancing the ability of first responders to 
protect our citizens from harm and respond to requests for emergency 
assistance. The cornerstone of such a network is dedicated spectrum; 
specifically, the reallocation of the 700 MHz D Block to public safety.
    Governors greatly appreciate the support of this committee and the 
introduction of S. 28. We also appreciate the President's support and 
his commitment to reallocating the D Block to public safety.
    By reallocating the D Block to public safety, S. 28, the ``Public 
Safety Spectrum and Wireless Innovation Act,'' would ensure that the 
nation takes advantage of this one time opportunity to avoid the 
mistakes of the past and allocate appropriate contiguous spectrum to 
support the safety and security of our country.
    On behalf of the National Governors Association, thank you for the 
opportunity to testify. I encourage this committee to work closely with 
Governors as you consider the legislation and to report it favorably to 
the Senate as soon as possible.

    The Chairman. I thank you, sir.
    Chief Gillespie?

      STATEMENT OF AL H. GILLESPIE, CHIEF, NORTH LAS VEGAS

           FIRE DEPARTMENT AND FIRST VICE PRESIDENT,

            INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

    Mr. Gillespie. Good morning, Chairman Rockefeller and 
Ranking Minority Member Hutchison, and the honorable members of 
the Committee. I am Al Gillespie, the Fire Chief for the City 
of North Las Vegas, Nevada, and the First Vice President of the 
International Association of Fire Chiefs, the IAFC, on whose 
behalf I appear.
    My testimony today is in support of S. 28. A top priority 
for all public safety, police, fire, and EMS, is to build a 
nationwide public safety wireless interoperable broadband 
network. This urgent need is recognized in many studies such as 
the 9/11 Commission and Hurricane Katrina reports. Mr. 
Chairman, S. 28, the legislation you introduced, will allow 
public safety to realize its nationwide communications goal by 
providing both the spectrum and the funding which is required.
    This bill also has the support of the Public Safety 
Alliance, an organization of nine national public safety 
organizations, including the IAFC, and with the support of a 
diverse range of entities from both the public and private 
sectors. Our goal is supported by the seven national 
organizations representing state, county, and local 
governments, as well as many of the leading technology 
integrators, telecommunication carriers, and equipment 
manufacturers.
    We are very appreciative of the recently announced support 
from the Obama administration. The President's budget announced 
earlier this week contains provisions for allocation of the D 
Block to public safety and methods for funding. We look forward 
to working with the administration, as well as Congress, to 
make possible a nationwide public safety broadband network, 
bringing public safety communications into the 21st century to 
better serve America's citizens.
    Over the past 50 years, America's domestic defenders have 
been allocated thin slices of spectrum in each new band as it 
became available. That is why today we have over 55,000 public 
safety agencies each operating their own mission-critical radio 
system over six or more different bands. This makes our goal of 
interoperability both difficult and expensive.
    After numerous major events and other significant 
disasters, it is clear that a new model is necessary: a 
national architecture for public safety wireless 
communications. To achieve a nationwide public safety wireless, 
interoperable, broadband network, key elements need to be in 
place.
    The network must have sufficient capacity to achieve a 
national public safety broadband network, connectivity coast to 
coast, border to border, 10 megahertz of D Block spectrum, 
currently slated for FCC auction, must be added to the current 
10 megahertz of spectrum licensed to public safety in order to 
build out a 20 megahertz network. The currently licensed public 
safety spectrum abuts the D Block and is perfect for public 
safety. Only with this particular spectrum configuration and 
none other can public safety be assured that it will have the 
ability to build the network it needs now and into the future. 
S. 28 will accomplish this one-time opportunity to get it 
right.
    Public safety must control the network. Local control of 
the network by public safety agencies is critical. Utilizing a 
single technology with sufficient spectrum will ensure 
nationwide interoperability and allow us to effectively manage 
day-to-day operations, as well as any major incident.
    The network must be mission-critical at the onset. Key 
elements of mission-critical are: the network must be hardened 
to public safety requirements; the public safety mission-
critical voice network must have the ability to broadcast and 
receive one-to-one and one-to-many and the ability to broadcast 
and receive without the network infrastructure being operative; 
and the network must have backup capabilities in the event of 
network loss and at public safety requirements.
    There are numerous examples and applications for possible 
fire and emergency medical services. For example, live video 
feed to provide instantaneous situational awareness for mass 
casualty incidents like the Tucson shooting, major hazardous 
materials spills, and real-time situational awareness to 
incident commanders, as well as elected officials and other 
decisionmakers.
    In the area of emergency medical services, we envision 
digital imaging, portable EKG's, portable ultrasounds, and 
field blood work with direct links to the hospital's emergency 
department. This would put a virtual physician in the back of 
an ambulance with an emergency medical technician to expedite 
the proper lifesaving treatment. This will be especially 
critical in rural areas where transit time to the hospital is 
longer. These types of applications for fire and EMS are only 
possible with broadband capability.
    And funding is important for the build-out of a public 
safety broadband network. State and local government budgets 
are challenged. The broadband network needed by public safety 
cannot be built without federal funding support. S. 28 
recognizes this fact and offers a solution.
    Mr. Chairman, the IAFC and the public safety support S. 28. 
The bill provides public safety with what it needs to begin the 
task of building out a nationwide public safety broadband 
network. The 10th anniversary of the tragic events of September 
11, 2001 will be marked in about seven months. Thus, we 
urgently need to move forward on a plan to develop the 
envisioned public safety broadband network communications. We 
thank you for your personal attention and leadership on this 
issue and will continue to work with you and the Committee to 
assure prompt passage.
    I will be available for questions.
    [The prepared statement of Mr. Gillespie follows:]

  Prepared Statement of Al H. Gillespie, Chief, North Las Vegas Fire 
Department and First Vice President, International Association of Fire 
                                 Chiefs
    Good morning Chairman Rockefeller and Ranking Minority Member 
Hutchison. I am Al Gillespie, Chief of the North Las Vegas Fire 
Department and First Vice President of the International Association of 
Fire Chiefs (IAFC) on whose behalf I appear. The International 
Association of Fire Chiefs represents the leadership of over 1.2 
million firefighters and emergency responders. IAFC members are the 
world's leading experts in firefighting, emergency medical services, 
terrorism response, hazardous materials spills, natural disasters, 
search and rescue, and public safety policy. Since 1873, the IAFC has 
provided a forum for its members to exchange ideas and uncover the 
latest products and services available to first responders.
    My testimony today is in support of S. 28 (the Public Safety 
Spectrum and Wireless Innovation Act). A top priority for all public 
safety--law enforcement, fire and emergency medical services--is to 
build a nationwide, public safety, wireless, interoperable, broadband 
network. This urgent need is recognized in many studies such as the 9/
11 Commission and Hurricane Katrina reports. Mr. Chairman, S. 28, the 
legislation you introduced, will allow public safety to realize its 
nationwide communications goal by providing both the spectrum and 
funding which is required. This bill also has the support of the Public 
Safety Alliance, an organization of nine national public safety 
organizations, including the IAFC, and with the support of a diverse 
range of entities from both the public and private sector. Indeed, our 
goal is supported by the seven national organizations representing 
state, county and local government, as well as many of the leading 
technology integrators, telecommunications carriers and equipment 
manufacturers.
    We are very appreciative of the recently announced support from the 
Obama administration. The President's Budget, announced earlier this 
week, contains provisions for allocation of the D Block to public 
safety and methods for funding. We look forward to working with the 
administration as well as Congress to make possible a nationwide public 
safety broadband network bringing public safety communications into the 
21st century to better serve America's citizens.
    Over the past fifty years, America's domestic defenders have been 
allocated thin slices of spectrum in each new band as it became 
available. That is why, today, we have over 55,000 public safety 
agencies each operating their own mission critical radio system over 
six or more different bands. This makes our goal of interoperability 
both difficult and expensive. After numerous major events and other 
significant disasters, it is clear that a new model is necessary: a 
national architecture for public safety wireless communications. To 
achieve a nationwide, public safety, wireless, interoperable, broadband 
network, key elements need to be in place.
    The network must have sufficient capacity. To achieve a nationwide 
public safety broadband network--connectivity coast to coast, border to 
border--10 MHz of D Block spectrum, currently slated for FCC auction, 
must be added to the current 10 MHz of spectrum licensed to Public 
Safety in order to build out a 20 MHz network. The currently licensed 
public safety spectrum abuts the D Block and is perfect for public 
safety. Only with this particular spectrum configuration, and none 
other, can public safety be assured that it will have the ability to 
build the network it needs now and into the future. S. 28 will 
accomplish this onetime opportunity to get it right.
    Public safety must control the network. Local control of the 
network by public safety agencies is critical. Utilizing a single 
technology with sufficient spectrum will ensure nationwide 
interoperability and allow us to effectively manage day to day 
operations, as well as any major incident. We cannot have commercial 
providers deciding what is or is not an emergency and what is the 
priority. Public safety transmissions have to go through without delay. 
A ``no service'' signal is not an acceptable element of emergency 
operations. The lives of firefighters, the lives of medics, the lives 
of law enforcement officers depend on this. It is our responsibility.
    Public safety expects to work with others and enter into public-
private partnerships. We will work with state, county and local 
governmental agencies, Federal partners, utilities and others who 
respond to emergency incidents. But, public safety must have control 
over the operation of the network in real time. It cannot rely on 
commercial operators to provide its critical governance needs. Network 
control will give public safety assurance that it will have full, 
preemptive priority over its spectrum on a when-needed basis.
    The network must be mission critical at the outset. In the 
beginning, this system will handle only data and video. At some future 
time--years away--we believe there will be a transition to mission 
critical voice. We all need to take a long term view--to start out with 
sufficient spectrum so that we will have the ability to migrate to 
mission critical voice. This will happen when the technology is 
developed, public safety has confidence in it, and its cost is 
affordable. Here are the key elements of ``mission-critical:''

  <bullet> The network must be hardened to public safety requirements. 
        This means towers must be able to withstand the elements that 
        might disable them. Towers in hurricane-prone areas and tornado 
        alleys must be designed accordingly. Back up electrical power 
        must be available 24/7. Redundancy is necessary.

  <bullet> The public safety mission critical voice network must have 
        the ability to broadcast and receive ``one-to-one'' and ``one-
        to-many'' and the ability to broadcast and receive without the 
        network infrastructure being operative. This is called ``talk 
        around'' mode--also known as simplex. This is a command and 
        control imperative. You know well that we operate under 
        extremely hazardous conditions. If the network, for any reason, 
        cannot provide connectivity, then we need the capability to 
        communicate without the network. This means communicating in 
        the simplex mode. This is the essence of public safety 
        communications.

  <bullet> The network must have back up capabilities in the event of 
        network loss and at a public safety standard. We envision 
        satellite capability for the network to be available when a 
        tower is disabled or other crippling malfunction. Satellites 
        also can cover remote areas that do not have towers. Our 
        mission is geography-oriented whereas commercial carriers are 
        concerned with population.

    Funding is important for the build-out of a public safety broadband 
network. State and local government budgets are challenged. The 
broadband network needed by public safety cannot be built without 
Federal funding support. S. 28 recognizes this fact and offers a 
solution. And, this network, much like current 700 and 800 MHz Land 
Mobile Radio (LMR) systems, must also be accessible to Federal public 
safety users nationwide as well as ``second responders,'' such as 
utilities and highway agencies. Both a Construction Fund and a 
Maintenance and Operation Fund will be created and authorized to a 
maximum of $11 billion for both funds. These funds will provide 
matching grant programs at the U.S. Department of Commerce to build the 
network and at the FCC to operate and maintain the network. The bill 
will fund the Construction Fund by auctioning, at a minimum, 25 
megahertz of contiguous spectrum at frequencies located between 1675 
MHz and 1710 MHz.
    It is important to recognize how this public safety broadband 
network will revolutionize the fire and emergency medical services. 
Examples of applications include: live video to provide instantaneous 
situational awareness for mass casualty incidents (e.g., Tucson 
shootings), major hazardous materials spills, and real time situational 
awareness to incident command as well as elected officials and other 
decisionmakers. In the area of emergency medical services we envision 
digital imaging, portable EKGs, portable ultrasounds, field blood work 
with a direct link to the hospital's emergency department. This would 
put a virtual physician in the back of the ambulance with the Emergency 
Medical Technician to expedite the proper life saving treatment. This 
will be especially critical in rural areas where transit time to the 
hospital is longer. These types of applications for fire and EMS are 
only possible with broadband capability.
    Mr. Chairman, the IAFC and public safety support S. 28. This bill 
provides public safety with what it needs to begin the task of building 
out a nationwide public safety broadband network. S. 28 is the vehicle 
for finally securing this critical asset, and we look forward to 
continuing to work with you and your colleagues in the Senate to 
further refine this legislation in order to enact the best possible 
bill into law. The 10th anniversary of the tragic events of September 
11, 2001 will be marked in about 7 months. Thus, we urgently need to 
move forward on a plan to develop the envisioned public safety 
broadband communications network. We thank you for your personal 
attention and leadership on this issue and will continue to work with 
you and the Committee to assure prompt passage. I am available to 
respond to any questions you may have.

    The Chairman. Thank you, Chief, very much.
    And we turn now to Mr. Hanna.

      STATEMENT OF JOSEPH L. HANNA, PRESIDENT, DIRECTIONS

    Mr. Hanna. Chairman Rockefeller and Vice Chairman 
Hutchison, and members of the Committee, I appreciate the 
opportunity to be here today to testify on this significant 
piece of legislation. But I am sorry about my voice. This is 
the day my cold has to settle in here.
    As Senator Rockefeller mentioned, I currently serve as 
President of Directions, which is a public safety-focused 
wireless communications practice. For the last six years, I 
have focused almost full time to the issue of this very topic 
today about a national broadband network.
    The comments I am making today are solely my views and 
should not be construed to represent any of my clients or any 
past affiliations I have had. So I am just speaking from my 
experience in the field here.
    Again, Senator, I would like to thank you for your 
leadership on this critical issue. It is, as folks have noted, 
well time that we move down the road to get this thing done.
    I think everybody in this room agrees that our first 
responders should have all the tools they need to serve the 
public, including access to state-of-the-art wireless broadband 
communications. We fail to agree, however, on the fact that 
there are two paths that can provide public safety with the 
wireless broadband services that they need and that they 
deserve. Congress has provided public safety with 24 megahertz 
of spectrum in the 700 megahertz band. If prudently used, this 
allocation can provide public safety entities with the capacity 
they require for their day-to-day needs. Using that capacity in 
connection with commercial spectrum in the 700 megahertz band, 
as proposed in the FCC's National Broadband Plan, will give 
public safety the bandwidth necessary in situations in which 
the public safety allocation may become overloaded.
    The difference between S. 28's recommendation to reallocate 
the D Block to public safety and that of the paradigm 
envisioned in the National Broadband Plan is that the LTE 
platform, which is now standardized as the interoperable 
vehicle for a public safety network, already provides for a 
seamless, priority-accessible mechanism that can be triggered 
in the event of an overload of the baseline public safety 
network.
    Equally as important, partnering with commercial entities, 
a cornerstone of the National Broadband Plan, will allow first 
responders to take advantage of both reductions in the cost of 
building the core network while taking advantage of the 
benefits of commercial networks and the economies of scale that 
we have already heard mentioned that will allow for terminal 
products that are needed by first responders.
    Core communication capabilities for the public safety 
broadband network should be centered around a dedicated public 
safety grade broadband network, and it should recognize no 
distinction between urban, rural, and suburban boundaries. I 
believe my fellow panelists and I also agree that the 
widespread financial crises that are facing America's cities, 
counties, and states throughout the nation will not allow 
America to realize implementation of this dedicated public 
safety network without a massive infusion of federal funds. 
Unlike my fellow panelists, however, I do not believe that 
first responders need to be the licensee for all the spectrum 
that they need to use.
    I commend Senator Rockefeller for your inclusion of the 
language in S. 28 that will help public safety use the spectrum 
they do have presently allocated through flexible use in the 
700 megahertz band. We currently have 12 megahertz of narrow 
band spectrum in that band, and there are jurisdictions that 
have indicated that they have no desire to implement narrow 
band technologies. As they have indicated, it is a somewhat 
archaic technology. So to not be able to use that spectrum in 
an aggregated form has a massive potential to leave a large 
volume of this critical spectrum lying fallow in some parts of 
the country.
    I think the greatest flaw in the reallocation of the D 
Block to public safety, in lieu of the current law and the 
proposal in the broadband plan, would be the unintended 
consequences of creating an island technology, a band class 14 
subset that only first responders will use. With no commercial 
economies of scale, public safety will again find itself held 
hostage by a limited number of providers resulting in the same 
low-demand, high-cost marketplace faced every day in the public 
safety land mobile environment.
    Additionally, budget estimates for a public safety network 
as calculated in the National Broadband Plan were based on a 
model in which the dedicated public safety network would be 
built in conjunction with a commercial rollout of their LTE 
networks. The broadband cost estimates for a stand-alone public 
safety network more than triples the cost of a shared 
deployment.
    Budget provisions in S. 28 are already somewhat below the 
cost projections made in the broadband plan's concept of a 
shared build-out. We have a shortfall in federal funds provided 
through this bill. Public safety will be faced with the 
difficult choice of determining either having to come back to 
Congress and ask for billions of additional dollars in funding 
or to choose where the network will be built and where it will 
not be built. Instead of building a bridge to nowhere, we will 
be building half a bridge, then forcing the unnecessary 
expenditures of additional billions of dollars to complete the 
bridge or leaving a substantial portion of America's first 
responders without the broadband service that they need and 
they deserve.
    While S. 28 has addressed many of the key elements needed 
to make a nationwide public safety network a reality, the 
proposed legislation misses one key element, and that is that 
of governance and the administrative structure required for the 
deploying of this initiative. If we fail to address the 
underlying issue of governance and administration at the 
beginning, we guarantee extended delays in implementation, 
massive, needless cost, and the failure to have services 
implemented nationwide in an acceptable timeframe.
    Again, Senator, I would like to thank you for the 
opportunity to speak today, and I would also be glad to answer 
any questions you may have. Thank you.
    [The prepared statement of Mr. Hanna follows:]

      Prepared Statement of Joseph L. Hanna, President, Directions
Introduction
    Good morning, Chairman Rockefeller, Vice Chairman Hutchison, and 
members of the Committee. My name is Joe Hanna and I currently serve as 
the President of Directions, a public safety focused wireless 
telecommunications consulting practice. Prior to starting this 
practice, I retired from the public safety communications and public 
policy arena after 30 years of service. Additionally, I had the 
privilege to serve on the Association of Public Safety Communications 
Officials--International, or APCO, International Board of Directors 
from 1996-2000 and served as President during the 1999-2000 period. 
Since starting my consulting practice, I have remained an active member 
of APCO, the National Emergency Numbering Association (NENA), and have 
actively participated in meetings of the National Public Safety 
Telecommunications Council (NPSTC), Federal Communications Commission 
(FCC) events related to public safety, and have had the privilege to 
speak at numerous national conferences on topics related to public 
safety wireless communications. I have served as a public safety 
advisor to the 800 MHZ Transition Administrator and currently serve as 
a Senior Fellow for the Center for Digital Government. Thank you for 
inviting me to join this distinguished panel to address the need for a 
nationwide interoperable network for first responders.
Summary
    Everyone in this room agrees that our first responders should have 
the tools they need to serve the public, including access to state-of-
the-art communications systems. We differ on the most effective path to 
get to that result. Congress provided public safety with 24 megahertz 
of spectrum in the 700 MHZ band. If prudently utilized, this allocation 
can provide public safety entities with the capacity they require for 
day-to-day needs. Using that capacity in connection with commercial 
spectrum in the 700 MHZ band, as proposed in the FCC's National 
Broadband Plan, will give public safety the bandwidth necessary for 
disaster situations. Equally as important, partnering with commercial 
entities will allow first responders to take advantage of the benefits 
of commercial networks and handsets that consumers have come to enjoy.
Public Safety Must Have a Nationwide Interoperable Network
    As I am sure that you will hear from all of the panelists, it is 
inexcusable that almost 10 years following the tragic events of 
September 11 and the carnage inflicted upon the residents of the Gulf 
Coast following Hurricane Katrina, America's first responders still 
find themselves ill equipped to communicate to the degree they need and 
deserve.
    My real estate agent can take a client to a home, take out her 
laptop computer and pull up photos of the interior of the house, tax 
records, surveys and plats, and a list of comparable values in the 
neighborhood. But a firefighter at a burning building cannot pull up a 
floor plan to aid in a search and rescue or identify known hazardous 
conditions inside the building. A pedophile in a park can sit on a 
bench with a smart phone, take photographs of vulnerable children, and 
then instantly send his pictures to other pedophiles around the world. 
But a police officer who has responded to that park to investigate this 
suspicious person cannot upload or download a photograph or scanned 
fingerprint of that person to a local, state or national database to 
help determine if this subject is indeed a known threat to the 
community.
    I believe that every member of this panel can agree on a common set 
of principles for a public safety broadband network that will best 
serve our nation. First, America's first responders deserve and require 
the same communications capabilities used every day by our real estate 
agents and junior high school students. Second, these core 
communications capabilities should be centered around a dedicated, 
public safety grade broadband network. Third, America's first 
responders need for these communication capabilities to recognize no 
distinction between urban, suburban, and rural boundaries. In fact, 
rural America may have the greatest need for high-speed data. An 
accident victim in Brewster County, Texas or Webster County, West 
Virginia bleeds just as fast as an accident victim in New York City or 
Houston, Texas. The only difference is that the time it takes to 
respond to that victim and to transport him or her to the nearest 
medical facility may be measured in hours rather than minutes. The 
deputy stopping a suspicious van on a dark highway in Hillsville, 
Virginia recognizes that his closest backup may be 20 to 30 minutes 
away. The volunteer fire fighter understands that fire burns as quickly 
in Mountain View, Arkansas as a house fire in Dallas, but the nearest 
resources will take considerably longer to respond.
Public Safety Users Need Funding and a Plan for the Efficient Use of 
        the Existing Spectrum Allocation
    I believe that every member of this distinguished panel will also 
agree that, at a minimum, there are two fundamental elements for 
providing America's first responders with the wireless broadband tools 
that we need--dedicated spectrum and funding. I assume that my fellow 
panelists will agree that the widespread financial crisis facing 
cities, counties, and states throughout the nation will not allow 
America to realize the nationwide implementation of a dedicated, public 
safety broadband network without a massive, unprecedented infusion of 
Federal funds. At a time when we are seeing major cities laying off 
substantial numbers of police officers and as fire departments are not 
able to upgrade critical equipment with more reliable or efficient 
models, communications systems far too often fall victim to these 
fiscal realities. One need look no further than the 21 jurisdictions 
that have been granted waivers by the Federal Communications Commission 
for early deployment of public safety broadband networks. Only 7 of 
these 21 jurisdictions have initiated steps to actually deploy their 
network. The remaining 14 jurisdictions have not. The difference 
between the 7 who are actively attempting to deploy and the 14 who are 
not? Funding from the Federal Government in the form of a grant from 
the Broadband Technology Opportunity Program, or BTOP.
    While I agree with the views of my fellow panelists on most issues, 
unlike them, I don't believe that first responders need be the 
licensees of all the spectrum they may need to use. Working through one 
of the most ambitious schedules imposed by the Obama administration, 
the FCC was charged with development of a National Broadband Plan. One 
key element of the National Broadband Plan was the proposal for the 
deployment of a nationwide, interoperable dedicated public safety 
wireless broadband network. The proposal was made possible through tens 
of thousands of person-hours of intensive research, interviews, and a 
thorough understanding of technical requirements needed to implement 
this network. While proposal is not perfect, I believe that the 
National Broadband Plan fundamentally ``got it right.'' In addition to 
the proposal's recognition of the need for funding, the cornerstone of 
the proposal is a dedicated public safety network utilizing the 10 
megahertz of spectrum allocated to public safety by Congress in 1997. 
Recognizing that a September 11 or Hurricane Katrina situation could 
tax the 10 megahertz allocation, the National Broadband Plan proposed 
to allow public safety to utilize the capacity of commercial wireless 
carriers on a priority basis. The fundamental assumption of the 
National Broadband Plan was that the 10 megahertz of public safety 
spectrum would be more than adequate for the day-to-day, routine needs 
of the national network. This basic assumption remains true today. The 
question is how to address spectrum needs when faced with infrequent, 
but critical events that require additional capacity.
    This question is faced every day by every public safety entity in 
the Nation. While designing and managing my communication center in 
Richardson, Texas, I had to evaluate our daily, annual, and average 
call volumes to determine the number of call takers, dispatchers, and 
support personnel. This is no different than my counterparts here at 
the table. While we all try to provide resources based on our heaviest 
need, no public safety entity can provide enough telephone trunks, 
radio channels, or personnel to handle the extreme cases such as 
September 11 and Hurricane Katrina. I could have equipped my suburban 
call center with 500 trunk lines instead of 7, but I would not have 500 
people to answer the overload of calls if faced with an event the 
magnitude of a September 11 or Hurricane Katrina. Even if I could 
produce 500 people to answer the phones, there would not be 500 first 
responders on the street to respond to the 500 calls being answered.
    While I don't believe that the reallocation of the D Block as 
proposed by S. 28 is the key to an effective first responder broadband 
network, I do strongly support another provision of the bill that will 
help public safety use the spectrum they are allocated more 
effectively. S. 28 would provide for the flexible use of the 700 MHZ 
public safety spectrum allocated for narrowband communications. While 
the overwhelming majority of public safety entities have voiced 
opposition to this concept, failure to provide this flexibility will 
result in critically needed spectrum to remain fallow in many parts of 
this Nation. New York City representatives, for example, have made 
multiple public statements that they have no desire to deploy any new 
voice systems that utilize narrowband land mobile radio, or LMR, 
technology. If New York City's position remains unchanged, the 12 MHZ 
of beachfront 700 MHZ spectrum currently assigned to them for 
narrowband technology will lie fallow in one of the most spectrum-
pressed jurisdictions in the Nation. While coordination of narrowband 
and broadband spectrum is challenging, it can be accomplished and this 
flexible use can provide additional broadband capabilities within the 
current public safety allocation.
    Public safety has multiple other spectrum resources; in particular, 
50 megahertz of spectrum in the 4.9 GHz band is well suited for many 
emerging broadband applications. Public safety cannot allow this, or 
any spectrum to lie fallow or under-used in an era in which a 
``spectrum crisis'' has been identified by the administration. While no 
one would argue that the 4.9 GHz spectrum suited for the backbone of a 
national public safety broadband network, it can certainly be used to 
put flesh on the skeleton.
LTE Technology Allows Public Safety Sharing of Commercial Networks
    The difference between current spectrum use and the paradigm 
envisioned in the National Broadband Plan is that there is a viable 
alternative for accessing spectrum needs in an overloaded broadband 
network. As you may be aware, the public safety community has embraced 
a technology known as Long Term Evolution, or LTE, as the technology of 
choice for the proposed national public safety broadband network. The 
FCC has, for justifiable cause, broken a longstanding tradition of 
technical neutrality and proposed codifying LTE as the communications 
protocol for the future public safety broadband network. While this 
choice will not only provide for the critical requirement of 
interoperability within the network, this same technology provides for 
the ability of the proposed public safety broadband to seamlessly and 
automatically tap the networks operated by commercial carriers on a 
priority basis. Those commercial networks will also be using LTE 
technology.
    Public safety has correctly specified and demanded preemptive 
capabilities that will give it priority over all users in an emergency. 
An analysis of the current LTE standards shows that this capability 
exists today. Through a mutually agreeable partnership between the 
public safety broadband network and a commercial wireless operator, 
public safety can be guaranteed automatic, seamless, access to 
additional capacity on a priority basis--with priority including the 
functional equivalent to ``ruthless preemption'' in today's circuit 
switched networks. From an operational, functional perspective, this 
process also gives public safety control of this shared spectrum, a 
requirement that public safety has identified as critical. This element 
provides the cornerstone for the National Broadband Plan's notion that 
a commercial carrier operating in the 700 MHZ D Block can bear the 
burden of building that portion of a network and reducing the building 
requirements of the public safety portion the network.
    The fly in the ointment for the shared spectrum concept is the 
willingness of current or future wireless carriers to agree to such an 
arrangement. Some national carriers have made public statements that 
they have no desire or intent to enter into a spectrum sharing 
arrangement with public safety, as they do not wish to potentially 
degrade services to their subscriber base. Their position is 
unreasonable and contrary to the public interest. Commercial users in 
an LTE world will not be totally preempted, but just put at the rear of 
the network access line. Thus, the policy question is whether 
commercial carriers--who hold their FCC licenses to serve the public 
interest--should be permitted to decline participation in a shared 
network. In an environment in which spectrum is a national resource, 
slower access to commercial applications is a relative small price for 
the needs of public safety.
A Public--Private Partnership with the D Block Licensee will Provide 
        First Responders with Significant Benefits
    The greatest flaw with Congressional reallocation of the D Block to 
public safety in lieu of the current law and the proposal in the 
National Broadband Plan, however, are the unintended consequence of 
creating an island technology--a technology that only first responders 
will use. With expenditures of billions of dollars over the past 20 
years, the shortcomings of public safety reaching interoperability 
through traditional land mobile communications is beyond debate. Quite 
simply, public safety land mobile communications has been balkanized 
into a number of technologies scattered over thousands of 
jurisdictions. With the limited market in which public safety operates, 
the technology has changed relatively little (in terms of basic 
functionality), but costs have soared. It is the norm for a single, 
portable LMR radio to cost $5,000, with some models costing 
considerably more. Contrast that with the commercial wireless market 
over its twenty-year life span, where prices for terminal products have 
decreased significantly, while the capabilities of these devices have 
developed exponentially. The difference? The scope of the marketplace.
    Current estimates for the total number of first responders range 
from two to three million users, a fragmented market divided among 
thousands of independent purchasing units. Press reports released last 
week estimates that Verizon will sell one million iPhones during their 
first week of sales. Another report noted that Samsung delivered over 
ten million units of one phone model in the last 6 months of 2010, plus 
one million tablet computers during the month of December.
    Under the National Broadband Plan, the public safety broadband 
network would have access to the 700 MHZ D Block, plus possible access 
to other 700 MHZ band commercial networks at such time that technology 
allows. On the other hand, if the D Block is reallocated to public 
safety, it is less likely that public safety entities will have access 
to commercial networks. AT 700 MHZ, equipment is expected to operate 
within designated spectrum bands, known as band classes, but not 
necessary across band classes. The current public safety and D Block 
comprise the entire band class 14. Therefore, if public safety were 
reallocated the D Block, there would be no incentive for any commercial 
operators using other band classes to include band class 14 into the 
handsets they order from manufacturers. With no commercial orders for 
use of band class 14, there is no incentive for baseband chip vendors 
to design band class 14 into their baseband chipsets. With no 
commercial economies of scale, public safety will again find itself 
held hostage by a limited number of providers, thus resulting in the 
current low demand, high cost marketplace.
    Additionally, the network budget estimates calculated by the 
National Broadband Plan were based on a model in which the dedicated 
public safety network would be built in conjunction with commercial 
deployments of their LTE networks. Co-located sites, sharing of some 
key components, and simultaneous deployment will result in reduced 
costs. These simultaneous or shared build outs would also permit public 
safety to access commercial sites where they might have elected to 
forego infrastructure deployments. As noted in the current round of 
early deployment by the City of Los Angeles, the initial public safety 
network will be built with approximately 350 sites. In that same 
geographic area, one of the Nation's four largest carriers currently 
has over 5,500 sites already in operation. Based on the reduced number 
of sites being built in the public safety network, those sites must 
work at higher power levels and will have greatly diminished cell-edge 
coverage and performance. The only viable path in this design to 
enhance coverage and performance is to add significantly more spectrum 
to the network. Commercial carriers address these same issues without 
additional spectrum by adding cell sites. Under the National Broadband 
Plan, public safety entities could take advantage of this more 
responsible strategy as well.
    Budget figures in S. 28 are already below the cost projections made 
in the National Broadband Plan's concept of a shared build out. If the 
paradigm shifts to one in which public safety builds a stand-alone 
network in the D Block, there will be additional costs of building a 
national broadband network. With a shortfall in Federal funds, public 
safety will be faced with the difficult choice of determining either 
how to ask Congress for billions of additional dollars In funding or to 
choose where the network will be built and where it will not. Instead 
of building a bridge to nowhere, we are now faced with building half a 
bridge, then forcing the unnecessary expenditure of additional billions 
of dollars to complete the bridge or leaving a substantial portion of 
America's first responders without the broadband services they deserve.
The Critical Element of Governance Must Be Addressed
    While S. 28 has addressed most of the key elements needed to make a 
nationwide, dedicated public network a reality, the proposed 
legislation misses one key element--that of the governance and 
administrative structure required for the deployment of this complex 
undertaking. The decades-long absence of a national strategy to manage 
land mobile communications within public safety has fostered the 
unacceptable lack of interoperability. While billions of local, state, 
and Federal funds have been poured into legacy land mobile voice 
communication systems, those funds have generally been allocated and 
spent with no national strategy to ensure interoperability. As complex 
as interoperability within land mobile voice systems may be, it pales 
in comparison to the complexity of broadband networks. If we fail to 
address the issue of governance and administration of this proposed 
network at the outset of this effort, we are guaranteed extended delays 
in implementation, massive needless costs, and failure to have services 
implemented nationwide in an acceptable timeframe.
    Public safety is well suited to define its operational needs, but 
has relatively little sophistication in network architecture. It is 
also unreasonable to expect any project for which billions of dollars 
are allocated can be managed by a small group of well meaning 
associations. Given the fact that we have already watched 12 years pass 
from the time that the 700 MHZ band was first allocated until it was 
made available to public safety, and, given the fact that we have been 
actively trying to take concrete steps to get broadband services in the 
hands of first responders for almost 6 years, any legislation proposed 
by this Congress should ensure the creation of a multi-disciplinary 
governance/management structure that can deliver this network to those 
that critically need it without having to wait another 6 or 12 years. 
If we fail to find an appropriate alternative to the practices of the 
past, we are doomed to repeat the failures of the past.
    To emphasize the critical nature of the role of an effective 
governance and management structure, there are 21 waivers granted by 
the FCC, 7 of which are actively in the process of deploying LTE 
systems. While there has been discussion about creating a ``network of 
networks'' within these 7 jurisdictions, each of these waiver 
jurisdictions is effectively proceeding on its own--initiating 
procurements, negotiating and implementing interoperability plans, and 
certification and compliance testing protocols Each jurisdiction will 
build and staff a network operating center to manage these complex 
centers. Without a governance structure that understands and controls 
issues such as these from the outset, the road to a nationwide 
interoperable broadband system is guaranteed to be bumpy and paved with 
expensive, redundant capabilities.
Conclusion
    I again commend Senator Rockefeller for his leadership in bringing 
awareness of this critical issue to the forefront. At the end of the 
day, my greatest fear is that this debate will linger far too long. In 
the 6-years since I helped introduce the concept of broadband to the 
public safety community, we have seen the commercial sector move 
through three generations of broadband technology. In the midst of 
high-minded policy debates and national policy discussions, it is easy 
to overlook the simple fact that broadband is not a political issue; it 
is not an ``I win, you lose'' contest, but instead, is a matter of life 
and death for our first responders on the street. We should ask 
ourselves why it took 12 years for public safety to gain access to the 
700 MHZ spectrum that it desperately needed and why it has been another 
6 years since the debate over a dedicated broadband network has 
lingered with no results. The bottom line is that there are two 
fundamental approaches that can provide the same functional product to 
the police officer, fire fighter, or EMT on the street. In one model, 
public safety can control its own destiny as it has in the narrowband 
world--a world that does not take advantage of new technology or a 
widely built network paradigm. The other option is to take advantage of 
the fundamental constructs of the National Broadband Plan that will 
allow the most prudent stewardship of both our limited spectrum 
resources and precious Federal funds.
    I appreciate your time and look forward to working with you on this 
critical issue.

    The Chairman. I thank you very much.
    As I indicated, Senator Hutchison and myself have to be on 
the floor to do the aviation bill, and you kind of care about 
aviation. But we have got them to push it back just a little 
bit. So I am going to have somebody here for me because you may 
want to go downstairs. So we will be covered. But I want to 
apologize upfront for that. We had no idea that aviation was 
going to be brought up as the first bill. I mean, I am glad it 
is, but I am not happy right now because I want to spend two 
hours with all of you.
    Let me just ask a question to the public safety witnesses 
and the Governor. Much of the debate has been about how much 
spectrum public safety needs for broadband. You have discussed 
that, each of you. Some interests maintain that public safety 
needs no more than 10 megahertz of spectrum for broadband and 
can at times of emergency be given priority access to 
commercial networks.
    I would start with you, Commissioner Kelly. In your opinion 
does this reliance exclusively on commercial networks work for 
public safety? Number two, are there fundamental differences 
between commercial and public safety networks that you could 
describe for us? Are commercial networks built to withstand 
disaster conditions? You gave one example in your testimony. 
Are there special protections needed in public safety networks 
not present in commercial networks?
    Mr. Kelly. Mr. Chairman, as I said in my prepared remarks, 
I do not think the private sector can totally guarantee 
availability when we need it. I have experienced other examples 
besides the one in my prepared statement when the system became 
overloaded. And I am told by the experts that 10 megahertz is 
simply not enough, particularly as we look down the road as 
technology becomes more complex, as the threat--certainly the 
threat in New York City as far as terrorism is not going to 
abate anytime soon. Everything that I am told by our experts is 
that we simply are not in a position to rely on the private 
sector.
    We know that they also have obligations, when there is an 
emergency, to keep citizens informed. Citizens have to be able 
to notify their loved ones in the event of a major catastrophe.
    So my sense is that your legislation or similar pieces of 
legislation in this day and age simply make common sense, and I 
would not want to have to totally rely on a private carrier or 
carriers to conduct our business.
    The Chairman. Governor?
    Governor Markell. Mr. Chairman, first of all, I would like 
to say, with Senator Warner coming in, it is a pleasure to see 
you again. Senator Warner, when the history books are written 
about the creation of the cellular and wireless industry in 
this country, you should be featured prominently. And it is 
great to see you here.
    I agree with Commissioner Kelly that the issue with relying 
on commercial systems is really one of reliability and that 
public safety has got to be able to rely on communications in 
all corners of the country when all else has failed. And that 
may not be a standard that commercial operators would build to. 
And so I agree with Commissioner Kelly.
    At the same time, I do believe that there are plenty of 
opportunities within your proposed legislation for there to be 
creative partnerships between the public and private sectors. 
And so I think as a general matter we should not be in a 
position where public safety has to rely on a private sector 
network, but I do believe that there should be and would be 
opportunities for the private sector to participate.
    The Chairman. Thank you, sir.
    Chief Gillespie?
    Mr. Gillespie. Thank you, Senator.
    I also agree that we do not believe 10 megahertz is enough. 
We respectfully disagree with our folks on the other side of 
the table of this thing. The demonstration of that has happened 
over and over throughout our country. A good example is a GETS 
phone line. You have to ask for permission and you have to be 
able to get through to get your GETS phone line to work. In 
many cases that just does not work either. So going to somebody 
and asking permission to get on their system at the time of an 
emergency is just not feasible for us.
    We certainly support a model where we have control of the 
spectrums and we work closely with public/private partnerships 
to develop and use those systems. We do not need them like 
every day like perhaps they do in New York City, but Las Vegas 
is a pretty urban area also. We have a lot of issues there, but 
there are a lot of rural areas across our country that only 
need them intermittently. So we have great opportunity to share 
with our friends in the private sector, not only to use the 
spectrum but also to build out the system.
    The Chairman. Thank you.
    Mr. Hanna?
    Mr. Hanna. Senator, I have not heard anyone yet suggest 
that we rely solely on a commercial network for the service. My 
testimony, I think, clearly stated I fully support building the 
core platform, the base platform of the 5 by 5 in a dedicated 
network.
    The notion of using commercial spectrum--I think we have to 
realize that the existing LTE standard that this network will 
be built to, as proposed by public safety, allows a different 
paradigm than we have had in the past, unlike GETS where you 
have to ask permission and flip switches to make this work. The 
existing LTE standard allows for an automatic, seamless 
migration into that shared spectrum that will give public 
safety access to that spectrum if they have reached an 
agreement with a carrier to do that.
    So I think we agree fundamentally that we need a dedicated 
core for this system to work. No question about that. I think 
there is some misunderstanding about the technology as to how 
you work in that shared environment, and the folks that did the 
National Broadband Plan understood that process and thus 
developed the share model.
    The Chairman. I thank you, sir.
    And I turn to Senator Hutchison.
    Senator Hutchison. I just have one question and it is a 
follow up really because I was going to ask the question that I 
think Mr. Gillespie just answered for himself. But it is that 
regardless of the need for the D spectrum to be allocated, 
which I think we all agree with in principle, are there not 
still places where we can have public/private partnerships 
where public safety spectrum could share with commercial users 
on an as-needed basis in exchange for the upkeep and repair of 
the system that would not have to be at public expense. I think 
you, Mr. Gillespie, said you think there are ways, particularly 
in areas where the public safety spectrum will not be needed on 
a constant basis, and that would allow for, obviously, more 
build-out and also taking some of the costs off the public 
sector for the maintaining of the equipment and technology.
    I would like to ask if there are others who would have a 
view on that as we are working through trying to write a bill 
that would meet all the needs.
    Mr. Kelly. Obviously, New York is----
    Senator Hutchison. It is different.
    Mr. Kelly.--different. We do have a great need, we believe, 
for a public sector or public safety controlled system. But, 
obviously, in other parts of the country, it is not going to be 
so. And I think the legislation, as I read it, lays out the 
very strong possibility of the excess capacity being made 
available to the private sector. So it seems only logical to me 
that there will be opportunities there and the opportunity, of 
course, also to fund part of the cost of the bill.
    Senator Hutchison. Thank you.
    Anyone else care to comment? If not, if it is basically the 
same view, then I will pass it to my colleagues.
    [No response.]
    Senator Hutchison. All right. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. All right.
    Senator Boozman?

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman.
    I guess one of my frustrations is that we all agree that 
this needs to get done and probably should have already gotten 
done in the sense of having interoperability. We live in a 
country where it is very difficult to protect ourselves against 
all the challenges that we face from a number of different 
areas, but we need to have the ability to respond once 
something happens. Again, we just are not able to do that.
    So I really do not have any questions right now. I am 
enjoying the discussion. So I will go ahead and defer to 
somebody else at this time and yield back.
    The Chairman. Thank you, sir.
    Senator Warner?

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Well, thank you, Mr. Chairman. I want to 
thank you and the ranking member for your leadership on this 
issue. I look forward to working with you to try to get this 
done.
    I do have some comments. I will submit my full comments for 
the record.
    [The prepared statement of Senator Warner follows:]

   Prepared Statement of Hon. Mark Warner, U.S. Senator from Virginia
    Thank you, Chairman Rockefeller for your work to make the issue of 
communications infrastructure for first responders a priority. This 
issue has languished for years and I am hopeful that on the eve of the 
10th anniversary of September 11, Congress may reach a bipartisan 
compromise that delivers a nationwide interoperable broadband network 
for primary use by public safety that responsibly contains costs, 
leverages commercial technology, and ends the practice of building 
communications systems that fail to deliver on promises of 
interoperability between local, state, and Federal first responders.
    I do have some serious concerns about the true cost of building a 
new network, particularly given that some are advocating for a stand-
alone network, which dramatically increases the costs. I also believe 
that Congress must do the hard work of insisting on multiple cost 
saving measures, including a complete transition of narrowband systems 
to the new broadband network within 10 years. Finally, I think Congress 
does its best work under pressure. I strongly encourage the Federal 
Communications Commission (FCC) to move forward with the Notice of 
Proposed Rulemaking regarding the auction of the D Block of 700 MHz so 
that if Congress has not reached consensus within a year, the FCC 
should auction the spectrum as is required under current law.
Costs
    I remain deeply concerned about the estimated costs of constructing 
a new network for several reasons-to say nothing of the ongoing costs 
of operating and maintaining such a network over time.
    Some of you may know that I have spent the last year working with 
our Republican colleague, Sen. Saxby Chambliss of Georgia, on long-term 
deficit reduction efforts. There are many tough choices ahead for our 
country, given the fiscal realities we face today. I have a hard time 
saying we have to make tough choices everywhere in the budget, except 
for building a new communications network.
    All the cost estimates show that if the D-block is not auctioned, 
then it becomes more expensive to build this new network and much 
harder to introduce commercial technology that meets public safety 
needs. This is because public safety only has two to three million 
users, at most. That goes up to approximately six million users if you 
include Federal users and others. That's a far cry from the 90 million 
users of the two largest commercial networks--90 million users each. 
Public safety is never going to be big enough to direct the commercial 
market in terms of technology or the network, so we need to make sure 
we insist on cost-effective devices and equipment that meet the 
legitimate needs of first responders.
    It's a disgrace that we don't have a nationwide network already. 
But let's not waste the opportunity to actually deliver a network. It 
can't happen if we rely on a system based on high-cost, proprietary 
technology that has failed every promise to reach interoperability over 
the past 30 years.
    The National Broadband Plan estimated $6.5 billion in capital 
expenditures under the best-case scenario if the D Block is auctioned 
and network deployment occurred during the 4G rollout. Unfortunately, 
we have missed that boat. Verizon rolled out its 4G deployment in 40 
cities in December 2010. It is my understanding that Verizon did not 
map its network for public safety network needs, as was originally 
discussed. AT&T has yet to deploy, but without other commercial service 
providers in 700 MHz, you just don't get the same cost savings when you 
try to deploy a network like this.
    So, the cost estimate is now $15.7 billion in cap-ex to build a 
shared network. That's expensive, but it's a much better deal than the 
upper estimates-ranging from $41 billion to at least $47 billion for a 
stand-alone network. Frankly, we're probably underestimating those 
costs if we provide funding for a network, but do little to ensure the 
money is well-spent.
    The President's budget request for FY 2012 included only $10.7 
billion for the network, and $3 billion of that was to cover the cost 
of giving away the D-block. We know that's not going to be enough at 
this point. This is also on top of the $1.5 billion we've already spent 
over the last few years for interoperable communications that never 
materialized. Some of the highlights, according to the Government 
Accountability Office (GAO) are as follows:

  <bullet> Public Safety Interoperable Communications Grant Program 
        ($968 million in FY 2007)

  <bullet> COPS Interoperable Communications Technology Grant Program 
        ($269 million from FY 2003-2006)

  <bullet> Interoperable Emergency Communications Grant Program ($200 
        million from FY 2007-2010)

  <bullet> Interoperable Communications System, after Hurricane Katrina 
        ($20 million in FY 2009)

    These numbers don't count billions in taxpayer money spent over the 
past three decades for related purposes, including state and local 
funds for the purchase of devices, because the GAO and others are 
struggling to even track where we've spent our money. For instance, 
when Virginia built the first statewide public safety network several 
years ago, we spent $5000 per device for first responders.
    All of us have already spent billions of taxpayer dollars at the 
Federal, state and local level for interoperable communications. What 
do we have to show for it?
We Need Serious Savings
    If we're going to move forward-and I think we should try-there are 
a number of cost saving measures Congress should consider. Some of the 
things we should prioritize include:

  <bullet> A new governance structure for licenses that gives the 
        states a leading role in developing regional interoperability 
        plans, mapping buildout to cover 98 percent of the population, 
        and most importantly, creating a competitive process for 
        building out the network in different parts of the country, 
        instead of relying on a limited pool of companies for buildout.

  <bullet> Only building new infrastructure where we lack it, which 
        means we should focus on rural areas. Network upgrades, 
        collocation, infrastructure sharing with the commercial sector 
        are some of the lower cost options we need to prioritize 
        wherever possible. We've already spent billions on public 
        safety communications infrastructure. We don't need to recreate 
        the wheel.

  <bullet> Permitting licensees to lease excess wireless broadband 
        capacity to the private sector to create another funding stream 
        for ongoing O&M for all public safety entities, not just big 
        cities. I'm not all that worried about the best first responder 
        technology getting to northern Virginia. I'm worried about 
        rural southwest Virginia.

  <bullet> Migrating public safety narrowband networks, including 
        Federal law enforcement, to the new broadband network within 10 
        years. I would also like to credit Rep. Peter King and Sen. 
        John McCain for including limited narrowband migration language 
        in their legislation. I think we can do better in the Senate 
        Commerce Committee. We should set up separate incentive 
        auctions for narrowband spectrum within the next 5 to 8 years, 
        as I discussed during last September's hearing. Whatever we're 
        not able to clear would be auctioned after a few years, so we 
        can create an incentive for early adopters of cost-saving 
        technology. We can use the revenues for ongoing O&M costs and 
        we'll save money by not funding two networks. We do not need 
        both a broadband network and a narrowband network in 
        perpetuity. If taxpayers aren't paying for narrowband 
        indefinitely, I have a feeling new technologies will emerge 
        much more rapidly than previously expected.

  <bullet> Supporting these efforts by requiring interoperability 
        standards for devices and network components, including funding 
        for R&D for new technologies like mission-critical voice 
        capabilities. Senator Roger Wicker and I are working on 
        bipartisan legislation--the Next-Generation Public Safety 
        Devices Act-that we believe starts this process, but there's no 
        pride here. There may be even better ways to generate 
        innovation and lower costs--I'd welcome that discussion.

    Finally, Congress has tried and failed to address this issue 
before. The politics of making tough choices on this issue are not 
easy. But I think there are Republicans and Democrats on this Committee 
who are ready to make good decisions about using limited resources. 
Congress operates best with a deadline. Let's move the NPRM on the 
auction so that if we can't reach consensus in a year, we're not stuck 
in the same place we are today.
    There are no easy choices in the current fiscal environment. I 
appreciate the amount of work the Chairman and Ranking Member have 
contributed already. I stand ready to work with the Committee on 
possible solutions as we move forward. Thank you.

    Senator Warner. First of all, I want to also welcome my 
good friend, the Governor from Delaware, and correct his one 
comment. We worked on the creation of wireless networks 
together. I made a lot of the money. He did a lot of the work.
    [Laughter.]
    Senator Warner. It was a great working relationship.
    [Laughter.]
    Senator Warner. And it is a real tribute to know Jack 
Markell to see the great progress he has made in his both 
private sector career and public sector career.
    And let me also state that I have a number of colleagues 
here from the Commonwealth of Virginia, and we have had robust 
conversations, Mr. Chairman, about this issue.
    Let me put at the front end of my comments that I share, as 
every member on this committee does and like the Senator from 
Arkansas has mentioned, we need a dedicated, fully 
interoperable public safety network that takes advantage of 
advanced technology. Now, how we get there ought to be a robust 
debate.
    And let me just add one other comment. In my previous 
tenure as Governor, we in the Commonwealth of Virginia, I think 
at that point leading in the country, put our money where our 
mouth was, north of a $400 million investment, in creating that 
interoperable network for our state law enforcement.
    And I look forward to working with the Chairman to get to 
where we need to be on S. 28, but I do want to make a couple 
comments.
    I am very concerned on the cost issue. The National 
Broadband Plan outlined that this dedicated network would cost 
about $6.5 billion if it had been done in conjunction with the 
build-out of the 4G network. That is not going to happen. The 
costs, by the time this would get rolled out even with this 
dedicated source, an estimate at about $15 billion just on 
capital expenditure. And that is based on a shared network. If 
we are not to do some level of shared network, we are probably 
talking in most estimates in a $40 billion area. And the 
President's proposal puts about $10 billion out on this.
    My concern is how do we make sure that, if we are going to 
do a D Block allocation, even if we are going to do a straight 
public safety D Block allocation, in the days when you will see 
us constantly cutting back, find the capital, particularly if 
it is coming from other spectrum reallocations or other 
spectrum auctions, to make sure that we build out a system. I 
have a concern--and I have shared this with the chairman--that 
we may build out the New Yorks, the Las Vegases, the northern 
Virginias, maybe the Charlestons and the Wheelings. But how do 
we make sure that rural communities where the cost level of 
getting that kind of full system built out is going to be put 
in place? And I really think we need to drill down on this and 
work with our partners in public safety so that we are all 
going into this with open eyes if we do a straight allocation 
of the D Block. Point number one.
    Point number two.
    And again, it is great to see the Governor here.
    We have talked about interoperability forever, and I have 
made the comment before this committee before. It is much 
easier to get Republicans and Democrats to agree than it is to 
get radio engineers to agree on actually sharing spectrum in an 
interoperable way. I am concerned. And if we look back on 
Congress's history, since 9/11, there have been five or six 
efforts already where we have tried to promote 
interoperability. And frankly, we have not gotten there. So if 
we are going to move forward with the plan, the Chairman's 
proposal, we need to, I think, even strengthen further the 
interoperability requirements.
    And when we think about governance, we need to make sure 
that our local partners and our state partners, in terms of 
collocation and in terms of build-out, all have skin in the 
game. Again, shared tower space, shared other things, terribly, 
terribly important. I know my time is about up.
    And let me just add two quick comments. I am not going to 
get to a question. I apologize. I have got other members. But I 
feel a little passionate on these issues.
    Just to stir the pot a little bit more, I believe in the 
narrow band, the notion of trying to migrate existing law 
enforcement narrow band spectrum into broadband over a defined 
period of time and if we migrate, giving some of those dollars 
back to law enforcement in terms of an operating and 
maintenance budget so that even if we get the capex done, no 
network is ever finished. There are always going to be 
upgrades, and we are going to need to make sure that there is 
some dedicated source other than coming back to Congress on a 
regular basis. I know you do not want to give up your narrow 
band, and I know you do not want to migrate. I know you want to 
look at some of your other spectrum. But if you can get a piece 
of that in terms of long-term operation and maintenance, it is 
terribly important.
    So I look forward to working with my colleagues from 
Virginia and the Chairman on getting this right. I do also 
think we ought to go ahead and start the clock ticking. This 
stuff always takes longer.
    And I do believe on basic cost structure--final comment--
that there are different needs in public safety, but technology 
is changing and the market in public safety will never approach 
a commercial market. And the cost differential is so great. We 
have got to find some ways to level that. And I think the 
chairman has got some ideas there. I think some of us have got 
some other ideas, and we have got to get this done in a timely 
way as we approach 9/11 so we can show real, tangible progress 
and not continue to avoid the hard choices that we need to 
make.
    I really thank you, Mr. Chairman, for your leadership on 
this issue.
    The Chairman. Thank you, Senator Warner.
    I simply want to apologize to you. This aviation safety, 
the whole question of how do you deal with fatigue, and all 
kinds of things, and a modern air traffic control system which 
we do not have in this country, digitalized, the only one in 
the industrialized world that does not have it. That is what we 
are debating now, and Senator Hutchison and I have to do that 
on the floor. I desperately apologize to you. We did not know 
this bill was coming up when we set this hearing. So I want to 
apologize to you.
    Senator Udall is going to stand in for me, and Senator 
Blunt are you as going to stand in?
    Senator Blunt. Yes.
    The Chairman. OK.
    Please accept my apologies and thanks.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall [presiding]. Thank you.
    I think the next in line is Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    Thank you all very much for your testimony today. It has, I 
think, been very enlightening.
    I would like to direct a question, if I might, to you, 
Chief Gillespie. In your testimony, you mentioned that public 
safety must have control over the network. I wonder if maybe 
you could talk a little bit more how you would see the 
administration of that sort of a network.
    Mr. Gillespie. Thank you, Senator. Well, at this particular 
juncture, I am going to leave the governance issues to the 
folks that have more letters behind their name than I do. I 
think it is important that we do have control of that. There 
are a number of different models out there, and I think we will 
find the right one as we wind this up. The less different 
licensures we have out there I think the better, but the 
general governance at this point--it is more important to me as 
a fire chief out on the streets to make sure that we have this 
available to us than how it is governed.
    Senator Thune. Under any circumstance, could you envision a 
public/private partnership that could manage such a network in 
a manner that meets the needs of first responders?
    Mr. Gillespie. I think we have to look at all the options 
certainly. But I have got to tell you from the public safety 
side of this thing, if we do not have the control, whether it 
be by the number of votes or by just control in general, I 
think we are always going to be at odds with when and how we 
have access to a system.
    Senator Thune. You mentioned also in your testimony and 
also in follow-up on some of the things the Senator from 
Virginia asked about--I represent a very rural State. South 
Dakota is a state that is made up of rural areas. Could you 
expand a little bit about some of the remarks that you made in 
your testimony about how this public safety broadband network 
could have positive results in rural America?
    Mr. Gillespie. Certainly. Well, first of all, I think that 
is a great opportunity for our public and private partnerships 
using facilities that are already in place and adding 
facilities as the network is built out.
    I am from the West also. I spent most of my career in 
Washington State, and I have been mobilized on a number of 
wildland type fires. So I have worked in very urban settings 
and worked in very rural and wilderness settings.
    The ability to have the information at your fingertips, as 
people talked about, that folks in the teenage years have right 
at their fingertips right now--to have that available to our 
first responders working out in remote areas like that is just 
extremely important. We know that one of our largest loss of 
lives in the fire service has been in the wilderness areas 
responding to wildland fires. If they had the technology at 
their fingertips that had the weather information, had the fire 
movement, all of that in the commander's viewpoint right now in 
real time, they might be able to better respond to those 
things.
    If we have a medical incident in a very remote area, in a 
farming community in your state or in mine, then we could have 
the ability of the responders that are responding to this 
incident to have linked in with the terminus where they are 
going to be taking these patients to the hospital, have them 
linked in all the way into the hospital because sometimes we 
are talking about not minutes but hours transporting these 
people into medical care facilities that can deal with their 
issues. And they can work with the doctors that are there, 
making sure that the doctor sees the EKG that they see, the 
condition of the patient. They could actually have a video of 
the patient as they are coming in, seeing that information 
going back and forth. The responders could have the doctor 
right there working with the team inside the hospital.
    So I think those are just a couple of quick examples where 
that would be a great opportunity for us to work that.
    Senator Thune. Mr. Hanna, I appreciate the ongoing debate 
about auctioning versus allocating the D Block to first 
responders. If the D Block is ultimately auctioned, what 
restrictions should be placed on this auction to ensure that 
first responders would have priority access in times of an 
emergency?
    Mr. Hanna. Well, I will make clear that this answer is 
definitely my opinion and certainly not representing anybody 
else.
    I think envisioned in the broadband plan--and even going 
back to the last attempt to have an auction on this spectrum, 
it was always envisioned, I believe, that there would be a hook 
in the D Block portion of this that would have a fundamental 
requirement that the D Block winner have a relationship with a 
public safety partner. To the extent that that hook goes 
outside the D Block, I mean, I think that is something that 
certainly is open for debate as well if other carriers choose 
to provide this access. But I think having that hook in the D 
Block, it certainly will impact the auction value of that 
spectrum, but that has been envisioned from day one. And it 
goes back, I say, to the last attempt we had to make this thing 
work.
    Senator Thune. My time has expired. Thank you, Mr. 
Chairman. Thank you all very much.
    Senator Udall. Thank you very much.
    Just to remind all the Committee members, the rule we are 
functioning in, in terms of order--this committee functions in 
early bird, time of arrival, regardless of party. So we are 
following that rule. So, Senator Blunt, I am going to recognize 
myself now since I am on that list and move along here.
    Thank you all very much for your testimony. I want to say 
to the Chairman--I know he is not here, but I really look 
forward to working with him on S. 28. I think it is a good, 
solid piece of legislation. It has many, many good things in 
it.
    The thing that concerns me is what was mentioned by Senator 
Warner, Senator Thune, and some of the other Senators here: 
rural areas and how we deal with rural areas. And in New 
Mexico, we are a border state, and four states are along the 
border with Mexico. You obviously have border states along the 
northern border with Canada. And what is going down on the 
border right now are things like drug smuggling, human 
trafficking, many other illegal activities that are growing 
concerns for ranchers and other residents. And so we get 
ourselves into a situation on the border, and there are drug 
cartels operating on the other side of the border. And some of 
that is flowing in. A rancher was killed recently in Arizona as 
a result of violence, I think, flowing across the border.
    So I guess what I am wondering is how we work the border 
into this situation. And my question is how should a new public 
safety network be optimized to meet the needs of those living 
along the nation's border with Mexico in light of the problems 
I mentioned? Any one of you can jump in.
    Mr. Kelly. About ten years ago, I was the U.S. Customs 
Commissioner before there was a customs and border protection. 
So I am very aware of some of the issues and concerns of the 
border communities. As a matter of fact, the problems have only 
exacerbated in ten years' time.
    I think it is sort of a classic situation, spoken about by 
the Chief before, where you have events that can happen in an 
area where multiple jurisdiction personnel could respond 
because there is no one jurisdiction that has enough personnel 
for major events. And that is where I think the benefit of this 
system comes in. It allows for sharing of information. Some of 
the examples the chief gave I think are appropriate. You can 
use aviation assets to send video back to a central command or 
share with other agencies, I think sharing of information 
between local entities and the Federal Government. We need more 
of that. I believe this is the vehicle that will enable us to 
do precisely that.
    I can think of many examples of sending forensic evidence, 
for instance, to a lab from a remote area. Chemical, 
biological, radiation detection equipment findings can be sent 
instantaneously to many partners. Any database that needs to be 
accessed can be accessed by multiple agencies. I think sharing 
is the operative word when we talk about this system, as far as 
law enforcement is concerned, and I think along the border 
sharing of information and the sharing of resources is as much 
an issue now if not more so than ever before.
    Governor Markell. Several of you have raised the issue of 
the rural states, and I think it comes up in connection with 
the border issue as well.
    One thing that I think is important for you to understand 
is, at least in the President's proposal, he suggests investing 
$5 billion for rural networks separate from public safety. But 
the reason I think that is important is because many of you 
have talked about the potential public/private partnership. 
That is a very clear place where much of the expense in 
building out a network has to do with construction of towers 
and some of that kind of infrastructure. And there is certainly 
an opportunity there for the public and private sectors to 
participate and share.
    The broader issue that has been raised a couple times--
Senator Thune brought it up again with respect to the kind of 
opportunity for public/private collaboration. The challenge is 
that the incentives are so different on the public and private 
sides. And so on the public side, we all want to make sure that 
there is build-out in all parts of the country so that your 
rural constituents can be served as well. And not surprisingly, 
the private sector folks will be more likely to build where the 
density is greatest and where the demand is going to be 
greatest, which is why I think there are tremendous 
opportunities for a public/private collaboration and 
partnership, but I also think it is very important that it is 
the public side that be overall responsible.
    Senator Udall. Thank you for those answers.
    Senator Blunt, why do we not come to you now for 
questioning?

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. All right. Well, thank you all for being 
here. I was in an Intel meeting. I wanted to be here for this 
and I do not want to recreate a lot of the discussion that has 
already happened.
    But in this whole area of the spectrum, we continue to 
think, among other things, that people who have spectrum can 
use less and less of it. And I am really wondering how much we 
need to reserve and how much we can afford to build out. I 
mean, one of the ways we would finance this, Mr. Hanna, I am 
told is that we would ask people who have been allocated 
spectrum to give up some of the spectrum they have. And what I 
am wondering is why have we allocated more spectrum to the 
private sector than we now think they may need, but we still 
think that the allocation to the public sector needs to be as 
big as we thought it needed to be a few years ago. What we do 
not want to wind up with here is a lot of allocated spectrum 
that we cannot develop. Whatever we need to do to serve the 
rural areas--I think we all understand the need to do that.
    But, Mr. Hanna, what is your sense of how we could have 
this paid for by other people giving up part of the spectrum 
that we have decided they do not need and we still think we 
need all we have allocated to the D Block for the public 
effort?
    Mr. Hanna. Senator, there has been a lot of discussion 
about incentive auctions, reclaiming spectrum, and for the most 
part, I think that the focus has been on broadcast spectrum, so 
returning spectrum from the broadcast community, not 
necessarily from--I have not seen any carriers offering up 
spectrum for public safety. So I think most of this will either 
be federally owned spectrum or the broadcast spectrum.
    Certainly through this last year, there was major 
discussion about the country has a spectrum crisis, and 
obviously people pay billions of dollars. So they see value in 
that.
    There is certainly opportunity to raise a significant 
amount of money through spectrum auctions. I think the unknown 
at this stage is exactly how much that is going to be. If we 
did it three years or four years ago, it would be one value. If 
we did it a year and a half ago, there would be a very 
different value based on what is happening in the economy. So 
to a degree, we are venturing out, committing money based on 
speculation of what we think auctions will bring in. And I 
think they will bring in a great deal of money. No question 
about that.
    Senator Blunt. Governor, in your State, have you got all of 
the public safety people now where they can communicate with 
each other from whatever the highway patrol would be, which is 
what we call it in Missouri, and I think what that is called in 
Delaware, to other areas?
    Governor Markell. We do. Right. We built one of the first 
interoperable systems. But what it does not have is the robust 
communications potential that a broadband and contiguous 
spectrum offer together. So that means everything from if a 
paramedic arrives at a scene and can literally download video 
to the doctor at the emergency room or to have a fire fighter 
walk into a building and have the plans sort of right there in 
front of him on the screen.
    So there are really two huge benefits. One has to do with 
interoperability. We are a small state. We border on Maryland, 
Pennsylvania, and New Jersey. And so right now the 
interoperability between our agencies and those states--it is 
really a patchwork.
    And Senator Warner said, I think very appropriately, that 
one of the great difficulties that this industry has had over 
time is getting radio frequency engineers to agree with each 
other in terms of a whole range of issues. And one of the 
opportunities that you have with this piece of legislation, if 
you are talking about a nationwide block, you can deal with 
some of those types of governance issues. Like the chief, I am 
going to stay away from any specific suggestions in terms of 
governance, but I think what you have is the potential to 
really ameliorate many of those potential issues by authorizing 
this in one block.
    Senator Blunt. And currently are we able to share any of 
these examples that really the three of you have given on what 
is already developed privately on the spectrum? The information 
to the emergency room. Is there some reason that cannot be sent 
now? Commissioner? Anybody that wants to answer that would be 
fine.
    I mean, we have got all these things that we would like to 
be able to do. What I am asking is is there some reason we 
cannot do those on the developed spectrum already. Are you 
blocked out of that? Is this too sensitive to send across that? 
Is there anything keeping you from doing that now as opposed on 
the D Block that is not funded and developed? Commissioner?
    Mr. Kelly. We have what we call an ICE 1 system in New York 
City that can do some of this. However, it does not penetrate 
buildings, for example. This is, obviously, a significant 
restriction for us. We want to be able to have responding 
police officers get, for instance, a bank robbery suspect. We 
want to get that picture out immediately. We cannot do that as 
yet. We are limited in terms of broadband capacity, I am told. 
And there is a whole series of initiatives that we would like 
to put in place that experts tell me we just cannot do because 
of the narrowness of the band that we have now.
    Senator Blunt. Well, I am interested in being able to do 
all those things. I am also interested in figuring out the way 
that we are most likely to be able to get that network in 
place, whether we get it in place with public money quicker or 
we get in place with private development with assured access. 
Senator Warner and I have been talking about that and others. 
It is a critically important issue. And to have all of you here 
today and to have the people backing you up in this hearing 
room is meaningful to us. But we want to have a system that we 
can use and as quick as we use it.
    Chairman I have used up my time.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar [presiding]. Thank you very much, Senator 
Blunt.
    It is good to be here with all these great and renowned 
witnesses.
    I have to tell you I am taking over the chair here from 
Senator Rockefeller who is significantly taller than me, and so 
my feet do not touch the ground, but I am trying to look 
mature.
    [Laughter.]
    Senator Klobuchar. I first wanted to just talk about why I 
am so interested in this. I head up the 9-1-1 Caucus along with 
Senator Burr. Also, my own experience with this came from my 
years as a prosecutor and two tragedies in our state.
    The first was when a police officer was killed in St. Paul, 
Minnesota, and he was killed by someone who got away. And there 
was a huge chase. And literally we had six or seven different 
radios, multiple walkie-talkies, and telephones that were 
connecting different departments and helicopters and other 
people as they chased him down. And it was simply unacceptable.
    Then you fast-forward to the tragedy of our 35W bridge 
collapse where since then we have made many upgrades especially 
in Hennepin County where I worked under the leadership of 
Sheriff McAllen. And as you know, that eight-lane bridge right 
in the middle of the Mississippi River, 55 cars in the water, 
and sadly while 13 people died, many more would have died if we 
did not have the kind of system we had in place to bring in 
emergency personnel and get people there to rescue people in 
the water. So that was a tale of things working well from an 
emergency coordination perspective.
    And that is why I am so interested in moving this along, 
and I am supportive of the work that Senator Rockefeller has 
done. I understand that the Fraternal Order of Police is now 
supporting this effort as well, and I think you will see a real 
interest in this in the Senate.
    Now, from the 911 perspective, Commissioner Kelly, I want 
to ask you about New York's Real Time Crime Center and the 
support that is offered to your investigators and how you think 
we might incorporate into a national model using some of the 
work that you have done there.
    Mr. Kelly. Well, thank you. We are very proud of our Real 
Time Crime Center. It really is the first in the country.
    We were probably the biggest user of whiteout and carbon 
paper in 2002. So we created a data warehouse and we put a lot 
of information into it. And we put on top of that data 
warehouse this Real Time Crime Center which is staffed by 
detectives 24 hours a day. And it gets information out into the 
hands of investigators when a crime happens, a murder, a 
robbery. We deal with a recidivist criminal population. So the 
quicker we can make an arrest, the more likely we are 
preventing further crimes. So we put out victimology. We put 
out 911 call information, up to 10 years of that. We have the 
history in a particular location. And it gives us the ability 
to very quickly check things such as tattoo files and 
information, both publicly available information and 
proprietary information.
    But this system that we are talking about now will enable 
us to share that, to share it on a regional basis with other 
law enforcement entities.
    Senator Klobuchar. It is the tie-in----
    Mr. Kelly. That is the tie-in with the D Block.
    Senator Klobuchar. Senator Burr and I are reintroducing the 
Next Generation 9-1-1 Preservation Act which also fits into 
this and looks at how we can have better access to all. People 
are not just calling in with their emergency calls anymore. 
They are texting. For instance, Mr. Gillespie, you can send 
blueprints to fire fighters at a building ready to go in. You 
could actually get them the blueprints to that building. And 
looking at how we can update the 911 system, and that is what 
this bill does, complements the work that is being done on the 
spectrum bill, to make sure that we are updating the 911 
system.
    Do you think that would be helpful to update some of that 
technology as well?
    Mr. Kelly. Absolutely.
    Senator Klobuchar. All right. Very good.
    Governor Markell, I have a question about Delaware's 
experience with developing a statewide public safety network 
and what insights you have to offer here in terms of how we can 
develop a national public safety network that would work 
better.
    Governor Markell. Well, I mean, it has been extraordinarily 
helpful in Delaware to have one network organized at the state 
level. As you know, neither crime nor emergencies stop at 
either the city boundary or the county boundary, and the idea 
of having everybody on one network has been tremendous.
    That being said, the idea of also being on the same network 
as neighboring states, as having the more robust communications 
capability that I mentioned earlier, we see nothing but up-side 
in the proposed legislation.
    Senator Klobuchar. Very good.
    I think Senator Warner has a second round of questions 
here.
    Senator Warner. Thank you, Madame Chairman, and I will try 
to actually get to a question this time.
    Senator Klobuchar. Maybe I should say your first round.
    [Laughter.]
    Senator Warner. Just one other quick little point, though. 
Maximum public safety devices--my estimates--would anybody 
disagree with the maximum universe of public safety devices out 
there, even with full build-out, $2 million to $3 million? 
Anybody going to disagree with that? I did not see anybody in 
the back nodding.
    We do have to recognize that we build out on the commercial 
side right now robust, interoperable, pretty darned good 
handsets on a worldwide market that have consumer prices of a 
couple hundred dollars, many, unfortunately, still in our 
public safety market. Now, there are clearly durability 
requirements that are higher. We have bought radios that cost 
$5,000 for a handset.
    I agree with Governor Markell. The D Block allocation will 
give the ability to build out a network in a truly more 
interoperable way. But that delta, unless we can find a way to 
better public/private partner, is not going to diminish 
greatly. And I do get concerned that the construction costs of 
this network are much higher than what has been built in and 
baked into the plan, and that an ongoing operating and 
maintenance piece of that is going to be continuing to upgrade 
your units.
    Let me do get to a question, though, and this is for the 
Governor and for everyone on the panel. If we were to do some 
allocation like this that did not include an auction, how do we 
make sure, for your own long-term interests, that everybody has 
got some skin in the game? And Governor, I know you cannot 
commit the Governors Association or commit your localities. But 
the notion, again as you well know better than I, of 
collocation--and every local community in Delaware and every 
local community in Virginia and in Missouri and in Minnesota 
all see their water towers and their tower sites as revenue 
sources right now. But could we work together on something 
where they will all have skin in the game? Would the public 
safety community be willing to say we will do collocation? We 
will do build-outs together. Will you do narrow band migration 
and then take some of that spectrum, and if you got a piece of 
the pie, in terms of ongoing operating, would you take--I think 
Senator Blunt has asked some of the right questions.
    But we do have spectrum in public safety that, under any 
kind of modern utilization, is not fully utilized to the 
maximum value. We have voice spectrum that could still have 
voice communications, but that could be done more efficiently. 
There are ways.
    What I guess I would ask the Governor and then the public 
safety community is will you be willing, if the Federal 
Government were to take on this enormous commitment of this 
huge construction cost build-out and give up the revenue source 
that would be generated by kind of a shared spectrum auction? 
Will you put skin in the game as well?
    Governor Markell. Well, first of all, Senator, I appreciate 
the context of the question which is, of course, states across 
the country have very difficult financial situations.
    That being said, we understand--certainly when it comes to 
public safety, I think many people would argue that protecting 
the public is at the very top of what we as governments are 
expected to do. We have demonstrated for a very long time now 
that we had skin in the game, whether it is, in the case of 
Delaware, the construction of the interoperable network over 
the last 12 or 13 years. And of course, in this business, that 
is going to require upgrades over some period of time.
    We believe that actually this program and this initiative 
could end up saving us money. I mean, first of all, the 
President's plan does allocate a significant portion, billions 
of dollars, specifically toward the build- out of this network. 
There is additional funding that goes to the rural piece. And 
again, as I mentioned earlier, we think that whether it is the 
sharing of towers or other infrastructure, that that is one 
great place for public/private partnership. But I do think that 
in the spirit of all of us trying to figure out how to pay for 
this, that the idea of some kind of public/private 
collaboration and partnership is certainly something that 
should be on the table.
    Where I have an issue is when the conversation gets flipped 
and the question is what about a private network that gives 
priority access to public users. And I think the real challenge 
there again--it is not just a matter of priority access. It is 
about where is the network going to be built out because the 
private sector has much less of an incentive to build out in 
places where there is going to be less private sector demand.
    Senator Warner. Unless the guaranty of the grant of the 
spectrum had build-out requirements in it--coverage 
requirements.
    Governor Markell. But I think again whether it is the money 
from the incentive auctions specifically focused on this 
network, whether it is funding specifically for the rural 
piece, whether it is the necessity of some kind of state 
investment--and states are going to have to, over any period of 
time, continue to have to invest in their own public safety 
networks, along potentially with some kind of private/public 
partnership--it seems to me that there are several potential 
sources.
    Senator Warner. Again, I apologize, Madame Chair, but my 
time has expired. But I would like to include the notion of 
working with local governments to make sure that siting 
locations and other things are done at the least possible price 
and cost.
    And if we could just get a quick comment from the public 
safety colleagues whether they would be willing to say that you 
would look at migration of narrow band, other kind of spectrum 
that may not be fully utilized to make sure that if some of 
that was then better deployed, if resources that came from that 
could then go back to operating or building out this D Block.
    Mr. Kelly. It simply makes sense, Senator. Sure, we would 
be willing to do that.
    In New York--a rough analogy--we have a Lower Manhattan 
coordination center where we have cameras and license plate 
readers that protect the lower part of Manhattan. In that 
facility, we have private sector stakeholders with New York 
City police officers and other government folks working 
together, working collaboratively. We are open to working with 
the private sector. They are very important to help us protect 
the city.
    We have another organization called NYPD Shield where we 
have 7,500 private sector entities that work with us.
    So we need the private sector. We know we have to work in 
partnership.
    Senator Warner. Chief, would you agree that potentially 
even reallocating, moving around some other spectrum that may 
not be used, if you are going to get some great----
    Mr. Kelly. I think if it is available, it makes sense. Yes, 
sir.
    Mr. Gillespie. Senator, obviously, we are very interested 
in the government's model and that we have full access and that 
we decide when we have access and when we need it. That 
certainly is important. As the technology becomes available to 
make some sort of migration, it would be foolish for us not to 
look at those things, obviously.
    We have a specific need not only in the fire departments 
but certainly in the police agencies around the country also 
for simplex or talk-around or one-to-many and one-to-one, those 
sorts of conversations that take place in the area you are 
talking about. We have that need and as the technology becomes 
available, certainly I think those are things we could look at.
    Senator Warner. Other existing spectrum could be looked at.
    Mr. Gillespie. I think we could look at it, certainly.
    Senator Warner. I will not put the migration of all the 
existing narrowband into broadband under a ten-year frame. You 
are not saying you are endorsing that, are you?
    Mr. Gillespie. No. No, please do not put me there.
    Senator Warner. Sorry, Madame Chair.
    Senator Klobuchar. Do you have any more questions really, 
Senator Warner?
    [Laughter.]
    Senator Klobuchar. All right.
    Senator Blunt, any closing comments? Anything?
    Senator Blunt. Well, I do think our goal here should be 
getting this system working, getting it working across the 
country, the ability to communicate within a state. As the 
governor said, these things do not know county lines or city 
lines. They also do not know state lines. But I am particularly 
concerned that we do not allocate a lot of spectrum that nobody 
can afford to develop particularly prior to exhausting every 
other avenue we might take so that we have full access to 
develop spectrum, that we understand the public safety aspect 
of that. And what I would hate to see is that five years from 
now we are still saying, OK, we have got this big block of 
allocated spectrum to public safety, but it is really 
undeveloped still because our needs are now. And as Senator 
Warner mentioned, be sure that we are maximizing the publicly 
available technology at increasingly lower cost so that we are 
seeing how much of that is transferrable to the true public 
safety that each of you and so many people in this audience 
represent.
    So I think this is a decision. We need to figure out how to 
move forward in the way that produces the best possible result 
in the short term. The medium term in this area is so hard to 
plan for because everything changes so quickly, and saying, 
well, we may need this 10 years from now or 15 years from now--
in any discussions I have had on any of these issues, none of 
the challenges have ever been anywhere near what anybody 
thought they were going to be, and the opportunities have been 
significantly greater than anybody thought they were going to 
be.
    So we want to work together and continue to talk with 
everybody that is represented here today to be sure that we get 
these tools available--at least my goal would be to get these 
tools available to you in the quickest possible way and the 
best possible way rather than continuing to reserve things that 
do not get developed. I think this hearing was an important 
part of that and, Madame Chairman, I am glad to be part of it.
    Senator Klobuchar. Well, thank you very much.
    I want to thank you, Commissioner, for your good work and, 
Governor, Chief, and Mr. Hanna, for being here. I think you see 
from the high rate of attendance, the number of Senators that 
showed up here today, there is a lot of interest in this issue. 
But I do remember us having a hearing on this--I have only been 
here 4 years--the first year I was here. And I think there is 
some impatience, which I feel, a sense of urgency on the public 
safety side that we move forward in this area.
    And I just wanted to note before I got here, I was at a 
Judiciary hearing. The issue of rural service as well was 
mentioned. It is more than just New York City, as you know. As 
you look at the region that you want to share your information 
with, Commissioner, especially some of the rural areas in our 
state have had some real issues with interoperability and 
getting the information that they need. So I am really hopeful 
by the number of people interested in this, in Senator 
Rockefeller's work. People are pledging here to work on a 
solution that we can move ahead.
    And I want to thank you all for being here and let you know 
that we will keep the record open for the next two weeks for 
submissions and questions and other things.
    With that, the hearing is adjourned. Thank you.
    [Whereupon, at 11:43 a.m., the hearing was adjourned.]
                            A P P E N D I X

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Mr. Chairman, for holding this hearing on public safety 
communication. As we all know, in less than a year we will observe the 
tenth anniversary of 9-11 and I am concerned that we haven't yet 
realized the goal of establishing a nationwide interoperable public 
safety wireless broadband communications network. Such a network is 
vital to effectively responding in times of regional or national 
emergencies because of the enhanced mission-critical services it will 
provide to first responders. This network, if properly designed and 
built, will provide greater safety and protection to all citizens and, 
because of that, is long overdue.
    The need for this network cannot be overstated but my concern is 
compounded by the ongoing debate regarding the fate of 10 megahertz 
(MHz) of 700 MHz wireless spectrum known as the ``D-Block.'' This issue 
has unfortunately overshadowed deliberation over the future of this 
critical infrastructure.
    Last fall, this committee held a hearing similar to the one today 
and it made clear the importance of public safety having enough network 
capacity to respond to emergency events. But no matter how much 
spectrum is utilized for this nationwide network, it will not be 
effective unless we also address several key areas such as adequate 
funding for the network, proper planning and governance to build and 
administer the network, and seamless coverage and interoperability to 
ensure undisrupted communications.
    I raise the last two points because the lack of interoperability 
and coverage are not necessarily remedied by additional spectrum but 
more directly associated with equipment and infrastructure deployment 
as well as planning and governance. The inability of public safety 
officials to effectively communicate with each other has been a 
constant problem it was even cited as a major problem in the 9/11 
Commission report. And the lack of nationwide service coverage, which 
precludes responders from communicating at all--is a difficulty that 
continues to plague rural areas across the country. So I hope we do not 
focus solely on one aspect such as spectrum when what is required is a 
multi-faceted approach to comprehensively address the challenges we 
face.
    We also must closely examine how we will fund the construction and 
maintenance of the wireless broadband network because the funding 
challenges that exist are compounded by the fiscal constraints our 
nation and most states face. Current law requires the Commission to 
auction the D Block but if it is directly allocated, then approximately 
$3 billion in auction revenue would be lost--these funds could be used 
to assist in the construction of this critical asset.
    Furthermore, the Commission concluded a public safety network would 
require ``a substantial investment''--with initial estimates between 
$12 and $16 billion for construction and operating costs over ten 
years, which dwarfs previous federal funding for public safety 
communications. If public safety were to rely on a stand-alone network, 
construction and operating costs would most likely exceed $30 billion 
over the same period.
    Also, no amount of spectrum and funding will be effective without 
sufficient planning. A clear example is with interoperability more than 
$7 billion of taxpayer money has been spent over the past 7 years 
without proper planning and coordination. And as a result, only 
incremental improvements have been made--many experts state it may be 
several more years before it is completely resolved. In addressing this 
issue, we must balance providing the public safety community with the 
tools and resources it needs to effectively respond to emergencies with 
our fiscal responsibilities to taxpayers to ensure their hard-earned 
money is used wisely and responsibly. And without proper planning, we 
could expend more money without improving the safety and security of 
citizens in times of emergency or putting them at risk due to 
incomplete and disparate systems.
    I would like to commend you, Mr. Chairman, for your attention to 
this critical issue but I do have some outstanding concerns about the 
current draft of the legislation, which I would like to work with you 
and your staff to address. I believe making these corrections will 
improve the legislation to ensure public safety has sufficient 
resources to build and operate this critical asset effectively.
    I have been calling for comprehensive spectrum reform for almost 
two years. Last Congress, Senator Kerry and I introduced comprehensive 
spectrum legislation to modernize our nation's spectrum planning, 
management, and coordination activities and fix fundamental 
deficiencies that exist. It is my intent to reintroduce this 
legislation or some variation of it this Congress to continue to 
advance the legislative discourse on spectrum reform.
    The problem we are facing is growing demand for spectrum by both 
non-federal and federal users in order to enhance the services provided 
to consumers and citizens. To meet the ever-increasing demand, users 
have to utilize existing spectrum more efficiently and we also have to 
develop more robust spectrum management models that involve sharing and 
reuse of this finite resource. Because it is not just public safety 
that is calling for more spectrum, it is the wireless industry, 
utilities, and numerous government agencies. So I hope we will have an 
additional hearing on spectrum reform to discuss this issue important 
to meeting the future needs of all spectrum users.
    But in regard to this hearing's topic, this nation has for too long 
lacked a nationwide interoperable public safety network, so the 
quickest and most feasible path to achieve that goal must be found. 
Let's not allow the tenth anniversary of 9/11 to pass while we are no 
closer to protecting our nation than we are now.
    Given the importance of this issue, I look forward to working with 
my colleagues in Congress to ensure public safety officials have the 
resources and necessary communications network to effectively respond 
to any future emergency events this nation faces.
    Thank you.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                         Hon. Raymond W. Kelly
    Question 1. The Wireless initiative that the President has put 
forward is a plan that is worth strong consideration. As I stated in a 
forum that I held in Missouri last year with FCC Chairman, it is 
paramount that rural and underserved areas have access to broadband. 
The President has stated that his plan would reduce the deficit by $9.6 
billion and that about $28 billion would be raised through incentive 
auctions. However, I want to get a better handle on these calculations. 
How are we determining that $28 billion would be raised?
    Answer. As you state, the President has stated that these saving 
would occur and that $28 billion would be raised in incentive auctions. 
These are his figures and I respectfully suggest that the President's 
budget experts are the most appropriate people to explain the process 
by which they arrived at these budgetary numbers.

    Question 2. There is a lot of uncertainty about how much spectrum 
would be voluntarily given up for auction--do we have assurances that 
we can actually reach this figure?
    Answer. Since LTE is a new technology and public safety 
communications are mission critical, public safety agencies including 
the NYPD are understandably reluctant to specify an exact amount of 
spectrum that they would be willing to give up at this time. However, I 
hasten to add that if public safety's needs are met by the 700 MHz 
public safety broadband network, there would be no reason, technically 
or economically, to retain large blocks of spectrum in other bands. In 
particular, public safety data networks now operating on 25 Khz 
channels would be the first to be replaced by a public safety broadband 
wireless network.

    Question 3. Conversely, I have concerns about how we would pay for 
a public safety network under the FCC's plan. The estimate is that we 
can raise $3 billion by auctioning off the D Block. I realize that this 
would be a different type of auction than what was attempted a few 
years ago but, given that that effort failed, how (do) we know we're 
going to get $3 billion?
    Answer. As you know, I am not in favor of auctioning the D Block. I 
am in favor of assigning the D Block to public safety and auctioning 
off alternative spectrum.
    The D Block auction failed for many reasons, but one of the primary 
reasons was a requirement that the D Block auction winner partner with 
public safety and build a network to public safety standards which are 
much more stringent than commercial standards, and provide service 
nationwide including in areas where there were insufficient customers 
to support the network and still provide the network owners with a 
positive return on their investment.
    Our opposition to the D Block auction and desire to have it 
allocated to public safety are driven by two basic concerns. The NYPD 
has consistently maintained that the D Block will be required to 
support the broadband needs of public safety, particularly if these 
requirements include the eventual migration of mission critical voice 
to the public safety broadband wireless network. The City of New York 
submitted a white paper to the FCC supporting this contention.\1\ The 
requirement for contiguous spectrum is important since LTE increases in 
spectrum efficiency as the channel bandwidth increases. Doubling the 
channel bandwidth more than doubles the channel capacity. This is the 
essence of broadband and is one of the reasons that it is more 
spectrally efficient than narrowband. The wider the channel bandwidth 
the more spectrally efficient LTE becomes. The D Block is the only 
available spectrum that is adjacent to the public safety broadband 700 
MHz spectrum. Furthermore, we maintain that if the D Block were to be 
auctioned to a commercial entity, the resulting network deployed would 
cause interference to the adjacent public safety 700 MHz broadband 
network, decreasing its capacity.
---------------------------------------------------------------------------
    \1\ See NYC Filing under FCC Docket 06-229 posted 02/23/2010 
entitled ``700 MHz Broadband Public Safety Applications And Spectrum 
Requirements'' available on the FCC website (FCC.gov).
---------------------------------------------------------------------------
    By auctioning alternative spectrum without the restrictions imposed 
by the previous D Block auction, we believe that the market would react 
more positively. Spectrum is a limited resource. All commercial 
wireless network providers realize this and they also realize that 
demand for broadband wireless service will increase over time. Since 
the D Block auction, Long Term Evolution (LTE) has become the 
technology of choice among commercial wireless providers worldwide, 
thus reducing technology risk.
    Long Term Evolution (LTE) is a very spectrally efficient 
technology. It approaches the theoretical limit. As more spectrum is 
auctioned, less remains; particularly in the frequency bands preferred 
by commercial wireless network operators. The scarcity of appropriate 
spectrum coupled with the reduced technology risk, the removal of 
previous auction restrictions and the anticipated accelerated demand 
for wireless broadband services are all factors that will combine to 
increase the commercial value of the remaining spectrum on the open 
market.

    Question 4. If we donate more spectrum to public safety agencies, 
can you give me any assurances that interoperability between different 
jurisdictions would work? And that you would have economies of scale to 
get good technology at good cost?
    Answer. Interoperability has been elusive since the early days of 
public safety radio. In the early years, the primary impediment to 
interoperability was that public safety agencies operated on different 
frequency bands. Later, digital systems were introduced. Although these 
systems provided many features and benefits, they also introduced an 
additional obstacle to interoperability; the digital systems were 
incompatible since they were developed by companies in competition with 
each other. Although APCO has strived to resolves some of these issues, 
the fact remains that many public safety agencies lack the ability to 
communicate with each other directly.
    One of the primary benefits of the public safety broadband wireless 
network will be native interoperability, that is, the ability to 
communicate directly without the aid of intermediary devices such as 
gateways or cross band repeaters. The 700 MHz public safety broadband 
wireless network will go a long way to solving the interoperability 
dilemma, by adapting a common air interface (LTE) and a common 
frequency band (700 MHz).
    Since commercial wireless networks will also use LTE technology, 
device costs will decrease. Public safety will benefit from research 
and development funded by commercial interests. Ultimately, when the 
vision of a public safety wireless broadband network supporting video, 
voice and data is realized, public safety will be able to satisfy its 
wireless requirements using a single network. One of the major cost 
factors in the current pubic safety radio environment is the high cost 
of proprietary subscriber units manufactured specifically for public 
safety. The FCC's Public Safety and Homeland Security Bureau has found 
that, ``while a-state-of-the-art consumer cellular device typically 
costs a few hundred dollars, a typical land mobile radio for pubic 
safety communications may cost as much as $5,000 . . . Commission staff 
expect that leveraging the commercial mass market could reduce costs 
for public safety devices substantially . . .'' as noted by FCC 
Chairman Genachowski in his letter to the Honorable Henry A. Waxman, 
dated July 20, 2010.

    Question 5. If the spectrum is auctioned off, the non-profitable 
public safety share of this deal could slip as commercial demand grows. 
How do we ensure that private entities will ensure that the needs of 
public safety are met?
    Answer. To be clear, I am not in favor of auctioning the D Block. 
As previously discussed, The D Block is the only available spectrum 
that is adjacent to the public safety broadband 700 MHz spectrum 
allocation. Public safety requires a dedicated broadband wireless 
network of sufficient capacity to meet its current and future 
communications needs. Nevertheless, we are not opposed to partnering 
with commercial networks to add capacity for non mission critical 
connectivity, provided that these networks meet public safety 
requirements. We would also advocate partnering with commercial 
wireless networks to share radio sites and backhaul facilities as a 
means of reducing costs and expediting network deployment.

    Question 6. There is a lot of discussion about up-front costs of 
maintaining a public safety network but not a lot about ongoing 
operating costs. How much is this going to cost in 10 years? Or in 20 
years? How will that be paid for?
    Answer. The FCC estimates expenses that constructing a public 
safety network through partnerships with commercial providers will cost 
approximately $6.3 billion over 10 years. Adding in operating costs 
bring the total to $12-16 billion over 10 years. The FCC also estimates 
that constructing a stand-alone public safety network would cost 
approximately $16 billion over 10 years and that adding in operating 
expenses would bring the total to approximately $34.4 billion over 10 
years. It is impossible for me at this time to project costs twenty 
years into the future.
    We hope that the federal government will assist state and local 
government in paying for the construction of the network and for 
ongoing network costs. The federal government should consider 
auctioning alternative spectrum, reducing network costs by leveraging 
existing public safety infrastructure and entering into partnership 
agreements with critical infrastructure entities such as electric and 
natural gas utilities. To some extent however, the users of the network 
may be required to help to pay for network operating costs. To that 
end, our goal should be to maximize the number of users on the proposed 
700 MHz public safety wireless broadband network without overloading 
the network, thereby reducing the cost per user while ensuring network 
access for first responders. Costs can be further reduced by sharing 
sites and backhaul with commercial entities. In areas where the number 
of public safety users is small, we should consider allowing critical 
infrastructure users onto the network to help mitigate the cost to 
public safety. This, however, would likely require Congressional 
legislative action. In the longer term, migrating legacy public safety 
mission critical voice and data to the 700 MHz nationwide broadband 
public safety wireless network can further reduce costs by eliminating 
duplicative services and utilizing lower cost non proprietary user 
devices.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                         Hon. Raymond W. Kelly
    Question 1. Beginning with the Radio Act of 1927 and continuing 
with the Communications Act of 1934, the federal government began 
defining the public airwaves, or radio spectrum, as a resource that 
must be used in the public interest and, more specifically, ``for the 
purpose of national defense'' and ``for the purpose of promoting safety 
of life and property through the use wire and radio communications.'' 
Since 1927, local, county, state and regional public safety 
organizations across the nation have built, maintained and updated 
their individual communications facilities. To meet those 
communications needs, it is my understanding that public safety 
entities utilize approximately 104 MHz of spectrum--including 24 MHz of 
public safety spectrum in the 700 MHz band for both broadband and 
narrowband services. Can you elaborate on the existing spectrum 
utilized by public safety, such as what frequency bands are used, how 
much spectrum in each band is used and what communications services are 
supported in those bands?
    Answer. Public safety uses frequencies in the following bands: Very 
High Frequency (VHF), Ultra High Frequency (UHF) and Super High 
Frequency (SHF). The VHF land mobile frequency bands are 30 MHz-50 MHz 
and 150 MHz-174 MHz. Within these allocations, public safety channels 
are interspersed with commercial channels throughout the band on a non-
exclusive basis.
    In the UHF band, public safety operates in the following sub-bands: 
450 MHz-470MHz; 470 MHz-512 MHz; 700 MHz and 800 MHz. Within both the 
450 MHz-470 MHz and 470 MHz-512 MHz sub-bands, public safety channels 
are interspersed with commercial channels. Within the 470 MHz-512 MHz 
sub-band land mobile radio users, including both public safety and 
commercial licensees, share the band with television broadcasters based 
upon area of operation. Specifically, in the largest urban areas, a 
maximum of three television channels, a total of 18 MHz, may be 
allocated to land mobile radio. This includes both public safety and 
commercial licensees.
    Within the 700 MHz UHF sub-band, public safety is allocated 24 MHz 
of spectrum divided into narrowband and broadband channel assignments. 
Within the 800 MHz UHF sub-band, public safety has exclusive use of 6 
MHz of spectrum and shares the 806 MHz-860 MHz sub-band with commercial 
licensees. In the SHF band, public safety is assigned 50 MHz of 
spectrum for broadband applications (4940 MHz-4990 MHz).
    All of the public safety frequency assignments are narrowband with 
the exception of the 700 MHz broadband channels and the 4.9 GHz 
channels, which are also broadband. The narrowband frequency 
allocations primarily support mission critical voice operations, 
although some of these channels are now used for data. However, data 
rates on these channels are typically limited to 19.2 kbps.
    As you point out, public safety is currently assigned over 100 MHz 
of spectrum. However, much of this spectrum is not available 
nationwide. Furthermore, public safety frequency allocations are 
scattered throughout the RF spectrum on many disparate frequency bands, 
which impedes interoperability. 50 MHz of the public safety spectrum 
you reference is in the 4.9 GHz band. This frequency has very poor 
propagation characteristics. It is used primarily for incident scene 
broadband data applications and limited local surveillance video. The 
poor propagation characteristics of this band make any wide area 
network deployment cost prohibitive.

    Question 2. What services, if any, will migrate to the new wireless 
broadband network? How many first responders in the field are expected 
to be supported by this wireless network?
    Answer. The first services likely to migrate to the new wireless 
broadband network are data services. Currently, many public safety 
agencies use narrowband (25 kHz) channels for mission critical voice as 
well as low speed (19.2 kbps) data. With the deployment of the new 
public safety wireless broadband network, data-only services currently 
using 25 kHz channels, such as digital dispatch, could be migrated to 
the new public safety wireless broadband network relatively easily and 
quickly. In fact, it would be prudent to make this transition sooner 
rather than later since Long Term Evolution (LTE) will support much 
greater data rates and is spectrally more efficient than utilizing 25 
kHz bandwidth channels for data, as these channels were intended 
primarily for voice communications and were used for data because they 
were the only channels available at the time. In the longer term, the 
NYPD believes that public safety mission critical voice can also be 
migrated to the new public safety wireless broadband network.
    The limitation on how many first responders in the field can be 
supported simultaneously at a given location (per cell, or per cell 
sector) is a question of user density. Doubling the channel bandwidth 
more than doubles the channel capacity. This is the essence of 
broadband and is one of the reasons it is more spectrally efficient. In 
fact, the wider the channel the more spectrally efficient LTE becomes.

    Question 3. If there are radio-based services that will migrate to 
the wireless broadband network or aren't required anymore due to the 
new enhanced services that will be available on the wireless broadband 
network, would public safety work with the Commission to develop a 
transition plan to relinquish underutilized spectrum over a certain 
period of time?
    Answer. The NYPD would be willing to work with the Commission on 
this issue provided that sufficient broadband spectrum is allocated to 
public safety, and a comprehensive migration plan was developed.

    Question 4. The FCC estimates expenses for its plan of constructing 
a public safety network through partnerships with commercial providers 
and infrastructure will total approximately $6.3 billion over 10 years. 
Adding in operating expenses would bring the approximate total to $12-
16 billion over 10 years. The FCC also estimated that constructing a 
stand-alone public safety network would require approximately $16 
billion over 10 years and that adding in operating expenses would bring 
the total to approximately $34.4 billion over 10 years. A Verizon study 
for the Southern Governor's Association back in 2007, suggested that a 
network would cost $61 billion over 10 years for construction and 
maintenance.
    If the D Block were directly allocated to public safety, would 
public safety look to build its own network, utilize existing 
commercial infrastructure, or a hybrid, or both? Would it be one 
nationwide network or a compilation of regional/state networks, or 
virtual networks over existing carrier's networks?
    Answer. These issues are the subject of ongoing discussions among 
the various stakeholders. No final decision has been made at this time. 
The NYPD is not opposed to partnering with commercial wireless networks 
to share radio sites and backhaul facilities as a means of reducing 
costs and expediting network deployment, nor would we be opposed to 
partnering with commercial networks to extend coverage into areas not 
yet covered by the public safety broadband wireless network.

    Question 5. Who would maintain the network--would it be 
centralized, regional or state operated? How would new users be 
authenticated and granted access to use the network? Also how many 
additional personnel would be needed to maintain it on a day to day 
basis?
    Answer. These issues are the subject of ongoing discussions among 
the various stakeholders. No final decision has been made at this time.

    Question 6. When will there be a greater and more detailed 
discussion on planning and governance issues related to the broadband 
wireless network? Are these issues critical to addressing 
interoperability as well as overall design of the network and 
subsequent costs?
    Answer. Planning and governance are critical issues. Some of this 
work is already underway; discussions are ongoing within the public 
safety community, the Obama administration, federal government agencies 
and industry experts regarding these very issues. Preliminary public 
safety requirements are defined by the NPSTC Statement of Requirements 
document issued July 2009. The National Institute of Standards and 
Technology (NIST) is engaged with the waiver recipients, the Public 
Safety Spectrum Trust (PSST) numerous LTE vendors and other 
stakeholders to further define public safety's requirements. The 
optimal public safety network design is a topic being actively 
discussed by public safety stakeholders, industry experts and the FCC.

    Question 7. The 9/11 Commission report found that ``the inability 
to communicate was a critical element'' at each of the ``crash sites 
where multiple agencies and multiple jurisdictions responded.'' Even 
with the lack of interoperability clearly highlighted, efforts to 
improve this significant problem have fallen short and at best have 
only been incremental.
    To remedy this problem, the FCC established the Emergency Response 
Interoperability Center (ERIC) to ensure that the applications, 
devices, and networks that public safety groups utilize all work 
together, so that first responders nationwide can communicate with each 
other seamlessly. ERIC is supposed to hold its first meeting very soon.
    The National Broadband Plan noted that past efforts to create a 
public safety narrowband network failed and that many public safety 
radio systems lack basic interoperability. It also found that most 
jurisdictions that have improved their systems still only have an 
``intermediate'' level of interoperability at best--not the advanced 
level of interoperability that is required for truly seamless 
communications in the event of a major emergency. Should those with 
industry expertise in designing and building nationwide networks have a 
greater voice in the development of interoperable systems?
    Answer. The failures in communications that you describe above are 
the result of disparate frequency assignments and the lack of a common 
air interface. The migration of public safety communications to a 
single frequency band and a common wireless platform over time are key 
elements in providing native interoperability between public safety 
agencies nationwide. The selection of LTE technology by the FCC and 
public safety is a first step in achieving this goal.
    Industry experts are currently engaged in preliminary discussions 
related to the design of the public safety wireless broadband network. 
The NIST Public Safety Communications Research Program (PSCR) is 
overseeing the deployment of two test LTE networks, one in a radio 
quiet zone at Table Mountain, Colorado just north of the NIST facility 
in Boulder and one in Washington, D.C. The results of these test 
networks coupled with ongoing dialog between public safety, industry 
experts and federal officials will further define the network 
architecture.

    Question 8. Wouldn't we more properly address this if public safety 
outlined the operational requirements and services that needed to be 
provided by the network and then private sector experts develop the 
standards and network design to meet those needs?
    Answer. Much of this work is already underway. The National 
Institute of Standards and Technology (NIST) is engaged with the waiver 
recipients, numerous LTE vendors and other stakeholders to further 
define public safety's requirements. The optimal public safety network 
design is a topic being actively discussed by public safety 
stakeholders, industry experts and federal agency officials. The choice 
of LTE as the wireless transport technology by the FCC in consultation 
with public safety was an encouraging first step in this process.

    Question 9. Last year, the FCC granted more than 20 waivers to 
public safety entities to begin building out wireless broadband 
networks using the existing 10 MHz that is already assigned to public 
safety in the 700 MHz band.
    Public safety officials have noted that these waiver build-outs 
will provide data important in the deployment of the proposed national 
network. A New York public safety official was quoted as saying ``We 
have always made the argument that granting these waivers will further 
the ability to understand what it is that we want to build and how to 
build it.'' How can public safety say it definitely needs the 
additional 10 MHz of spectrum from the D Block if these waivers are 
being used for determining what to build and how to build it?
    Answer. Granting the waivers set a process in motion that engaged 
industry experts and federal government agencies to more clearly 
articulate the minimum network requirements. The waivers provided an 
incentive for equipment manufactures to become involved in two test 
networks sponsored by NIST. The NYPD has never doubted that the D Block 
will be required to support the broadband needs of public safety, 
particularly if these requirements include the eventual migration of 
mission critical voice to the public safety broadband wireless network. 
The City of New York submitted a white paper to the FCC supporting this 
contention.\2\
---------------------------------------------------------------------------
    \2\ See NYC Filing under FCC Docket 06-229 posted 02/23/2010 
entitled ``700 MHz Broadband Public Safety Applications And Spectrum 
Requirements'' available on the FCC website (FCC.gov).
---------------------------------------------------------------------------
    The same forces driving commercial network operators to seek 
additional spectrum will drive public safety. As wireless broadband 
capabilities become available commercially, the demand for these 
features will increase. Public safety officials will seek ways to 
tailor these capabilities to meet their mission requirements. The 
waivers are designed to allow early builders to deploy public safety 
broadband wireless networks in advance of the planned nationwide 
network. Long Term Evolution (LTE) provides a suite of standards to 
which the network will be built. Public Safety national organizations, 
such NPSTC in consultation with federal agencies such as the FCC and 
NIST will establish minimum network requirements, not the waiver 
recipients.

    Question 10. The FCC and others have suggested giving public safety 
the option to use 700 MHz narrowband spectrum for broadband in order to 
provide additional broadband capacity. Is this feasible? If not, why?
    Answer. The 700 MHz public safety narrowband spectrum will continue 
to be required for off network tactical (unit-to-unit) voice 
communications. In addition, many public safety entities have just 
recently deployed, or are in the process of deploying, P25 radio 
systems on the 700 MHz narrowband channels and expect an appropriate 
return on their investment. Narrowband voice networks will continue be 
needed until mission critical voice over LTE becomes a reality that is 
accepted by the public safety community as a viable alternative to 
existing public safety land mobile radio networks.
    Wireless networks traditionally are built from urban cores and 
extended outward over time to less populated areas. Public safety 
agencies generally, and those in rural and sparsely populated areas in 
particular, must be given sufficient time to transition from existing 
legacy narrowband radio networks to the proposed nationwide public 
safety wireless broadband network. The transition will not be quick nor 
will it be easy. One of the goals of the National Broadband Plan is 
that at the end of this transition period public safety will have a 
reliable wireless broadband nationwide network that supports video, 
voice and data with native interoperability.

    Question 11. It is my understanding that there are several federal 
departments and agencies involved with public safety communications--
including the FCC, Department of Commerce, Department of Homeland 
Security, and the Department of Justice. I'm concerned there isn't one 
agency responsible and with all the agencies involved it presents 
challenges to making progress and proper planning.
    In addition to this bureaucracy, I am concerned about the funding 
challenges that have existed and will likely continue to exist with 
public safety interoperability. It is my understanding that more than 
$7 billion of taxpayer money has been spent over the past seven years 
in federal grants without proper planning and coordination. As a 
result, only incremental improvements have been made--many experts 
state it may be several more years before it is completely resolved. 
This includes Public Safety Interoperability Communications (PSIC) 
grant program and about $4.3 billion DHS has spent to improve 
interoperability.
    My concern is that we are hastily providing resources to public 
safety without proper planning to ensure those assets, whether it is 
funding or spectrum, are properly utilized. What can we do differently 
this time to ensure we achieve the goals necessary for public safety to 
sufficiently respond and communicate in emergencies and ultimately 
protect our Nation's citizens but upholding our fiscal responsibilities 
to taxpayers to ensure their hard earned money is widely used and 
responsibly?
    Answer. The lack of radio interoperability among public safety 
agencies today is largely a result of past mistakes. The two salient 
obstacles to seamless interoperability are: short-sighted public safety 
land mobile radio frequency allocations across multiple frequency 
bands, and a failure to agree on a single air interface. Prior to the 
advent of digital land mobile radio communications, the air interface 
was simply analog. However, beginning in the 1970s, when trunked radio 
systems were introduced, the air interface quickly became an issue. 
Although the voice channels in these early trunked radio systems were 
analog, the control channels were not and competing vendors developed 
their own proprietary systems. The result was that there were now two 
barriers to interoperability, disparate frequency assignments and non-
compatible air interfaces. APCO Project 25 is an attempt to solve one 
of these problems, the non-compatible air interface. However, it does 
not solve the problem of disparate frequency assignments. The NYPD is 
aware that there are numerous external devices available that patch 
channels from different frequency bands together to enable basic voice 
interoperability during an emergency; we have several of them. However, 
these devices sacrifice spectrum efficiency in order to achieve their 
goal. Furthermore, they are expensive and often cumbersome to set up 
during an emergency. Public safety would be served best by migrating 
over time to a broadband network on a single frequency band using a 
common air interface that provides native interoperability without 
relying on external devices. Consolidating public safety communications 
onto a contiguous spectrum of sufficient bandwidth and adapting a 
global standard air interface are key elements to controlling future 
costs and ensuring native interoperability.

    Question 12. If the D Block were directly allocated to public 
safety then it would utilize 34 MHz of spectrum as its primary spectrum 
for both narrowband and broadband communications. While this wouldn't 
necessarily present a problem in the event of a natural disaster, there 
is a concern about over reliance on this band during a disaster or 
terrorist attack.
    If public safety principally relies on a relative narrow band of 
spectrum, then a coordinated attack could disrupt, or worse cripple, 
public safety communications through the use of high-power wireless 
jammers. For example, a recent University of Pennsylvania report 
highlighted the susceptibility of the P25 System to active traffic 
analysis and selective jamming attacks.
    Is this a serious concern that needs to be addressed? Wouldn't the 
public safety network be more resilient by utilizing the existing 
public safety spectrum in 400 MHz, 800 MHz and 4.9 GHz by using 
technologies such as dynamic spectrum access, cognitive radio and 
spectrum aggregation as well as just greater interoperability with 
commercial systems, which operate in various bands?
    Answer. Broadband networks are inherently more resistant to 
frequency jamming than narrowband networks. LTE is much more 
technically advanced than Project 25. LTE utilizes thousands of sub-
carriers. The LTE network constantly monitors the RF channel for 
interference and schedules transmissions accordingly, choosing sub-
carriers that are free from interference while avoiding those where 
interference exists, adjusting power levels accordingly to ensure the 
transmission will be successfully received.
    The University of Pennsylvania study points out the ability for an 
adversary to monitor Project 25 conversations and determine the 
approximate location of the users. In addition, it illustrates the 
ability for an adversary to use this information to selectively jam 
such conversations. The vast majority of public safety radio networks 
in use today are subject to vulnerabilities similar to those described 
in the University of Pennsylvania report. Most public safety radio 
networks are unencrypted narrowband networks that are easy to monitor 
and are vulnerable to jamming. Broadband networks are far more 
difficult to jam than narrowband networks. The vulnerability of 
narrowband networks to monitoring and jamming is one of the reasons 
that the NYPD advocates the eventual migration of public safety radio 
communications (including mission critical voice) to 700 MHz LTE.
    Spectrum aggregation generally refers to aggregating channels 
within the same frequency band, since aggregating channels from 
disparate bands results in different propagation patterns. Dual or 
triple band user devices are either extremely expensive or they 
compromise performance specifications to meet size constraints, or 
both. The most cost effective high performance user devices are single 
band devices.

    Question 13. What impact would greater interoperability with 
commercial systems across the entire 700 MHz band have upon the costs 
and time to market of providing mobile broadband capabilities and end 
user devices for first responders?
    Answer. One of the preliminary requirements of the public safety 
broadband wireless network is interoperability with commercial systems. 
Mobile broadband capability is available to first responders today in 
many jurisdictions if they choose to use the commercial networks; 
however, mission critical communications require networks built to 
public safety standards. Public safety requires its own network to 
ensure adequate network capacity for first responders and to ensure 
that the network infrastructure meets public safety standards for 
reliability and availability. Nevertheless, we are not opposed to 
partnering with commercial networks provided that they meet public 
safety requirements, particularly during the early stages of network 
deployment as a means to extend coverage into areas not yet covered by 
the public safety broadband wireless network.
    We would also advocate partnering with commercial wireless networks 
to share radio sites and backhaul facilities as a means of reducing 
costs and expediting network deployment.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                           Hon. Jack Markell
    Question 1. The Wireless Initiative that the President has put 
forward is a plan that is worth strong consideration. As I stated in a 
forum that I held in Missouri last year with the FCC Chairman, it is 
paramount that rural and unserved areas have access to broadband. The 
President has stated that his plan would reduce the deficit by $9.6 
billion and that about $28 billion would be raised through incentive 
auctions. However, I want to get a better handle on these calculations. 
How are we determining that $28 billion would be raised?
    Answer. The $28 billion revenue estimate was prepared by the White 
House. Questions regarding the analysis used to reach this number would 
best be directed to White House staff.

    Question 2. There is a lot of uncertainty about how much spectrum 
would be voluntarily given up for auction--do we have assurances that 
we can actually reach this figure?
    Answer. The President's Wireless Initiative and the Federal 
Communications Commission's (FCC) National Broadband Plan highlight the 
possibility of not only improving the efficient use of spectrum but 
also raising revenue to fund important communications initiatives 
through the use of incentive auctions. By sharing a portion of auction 
proceeds with existing spectrum license holders, the FCC believes 
significant portions of spectrum may be voluntarily freed up for new 
purposes. The FCC may be able to provide greater detail regarding how 
much spectrum is suitable for auction.

    Question 3. Conversely, I have concerns about how we would pay for 
a public safety network under the FCC's plan. The estimate is that we 
can raise $3 billion by auctioning off the D Block. I realize that this 
would be a different type of auction than what was attempted a few 
years ago, but how do we know we're going to get $3 billion?
    Answer. The $3 billion estimate was prepared by the FCC. Questions 
regarding this analysis would best be directed to them.

    Question 4. If we donate more spectrum to public safety agencies, 
can you give me any assurance that interoperability between different 
jurisdictions would work? And that you would have economies of scale to 
get good technology at a good cost?
    Answer. One of the reasons public safety agencies from different 
jurisdictions lack interoperability is because they operate on 
different bands of spectrum that have been assigned over the years by 
the FCC. Without a sufficient section of spectrum in the same bandwidth 
that can accommodate public safety users, true interoperability will be 
very costly and complex. This is why reallocation of the D Block is so 
important. An additional 10 MHz of spectrum in the 700 MHz range will 
provide the opportunity to consolidate public safety communications on 
a single network as it is developed and deployed, as opposed to our 
current communications capabilities that have been patched together 
over the years to achieve cross-jurisdictional connectivity.
    When combined with the existing 10 MHz of public safety spectrum, 
the D Block would allow greater flexibility for state and local 
governments to develop innovative means to fund the deployment and 
maintenance of the network. With 20 MHz instead of only 10, it may be 
possible in many areas to allow other government services such as 
transportation officials to utilize the network or to engage in public-
private partnerships to reduce costs. Furthermore, the additional 
spectrum would allow more users on the network, which would increase 
demand for devices and further reduce costs through economies of scale.

    Question 5. If the spectrum is auctioned off, the non-profitable 
public safety partnership of this deal could slip as commercial demand 
grows. How do we ensure that private entities will ensure that the 
needs of public safety are met?
    Answer. In order to ensure that public safety's needs are met, the 
network must be dedicated for public safety and cannot be a shared 
network with commercial users. Public safety control of the network 
will ensure it is designed and built to mission-critical standards. It 
will also remove uncertainty regarding when and how first responders 
will be granted priority access to the network, which is a significant 
cause for concern in the FCC's proposal to have public safety users 
share the network with commercial customers.

    Question 6. There is a lot of discussion about upfront costs of 
maintaining a public safety network but not a lot about ongoing 
operating costs. How much is this going to cost in 10 years? Or in 20 
years? How will that be paid for?
    Answer. For detailed information regarding the costs to build the 
network, please refer to the analyses conducted by the White House and 
the FCC. These analyses propose several different mechanisms to fund 
network construction and maintenance, including through the proceeds 
from incentive auctions.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                           Hon. Jack Markell
    Question 1. The 9/11 Commission report found that ``the inability 
to communicate was a critical element'' at each of the ``crash sites, 
where multiple agencies and multiple jurisdictions responded.'' Even 
with the lack of interoperability clearly highlighted, efforts to 
improve this significant problem have fallen short and at best have 
only been incremental.
    To remedy this problem, the FCC established the Emergency Response 
Interoperability Center (ERIC) to ensure that the applications, 
devices, and networks that public safety groups utilize all work 
together, so that first responders nationwide can communicate with one 
another seamlessly. ERIC is supposed to hold its first meeting very 
soon.
    The National Broadband Plan noted that past efforts to create a 
public safety narrowband interoperable voice network have failed and 
that many public safety radio systems lack basic interoperability. It 
also found most jurisdictions that have improved their systems still 
only have an ``intermediate'' level of interoperability at best--not 
the advanced level of interoperability that is required for truly 
seamless communications in the event of a major emergency. Should those 
with industry expertise in designing and building nationwide networks 
have a greater voice in the development of interoperable systems?
    Answer. To be successful, those with industry expertise must work 
closely with public safety officials to ensure the network is 
interoperable. While industry expertise is important, industry experts 
may lack a full understanding of public safety requirements and how 
communications capabilities may be used in the field. This public 
safety field expertise is critical to ensure the network is designed 
and built to meet the needs of public safety.

    Question 2. Wouldn't we more properly address this if public safety 
outlined the operational requirements and services that needed to be 
provided by the network and then private sector experts developed the 
standards and network design to meet those needs?
    Answer. To ensure the network is successful, public safety 
officials and industry experts should work together to design and 
implement the network. These discussions are important to ensure that 
all parties share the same understanding of what is feasible with the 
technology as well as what will be the required and desired 
capabilities of the network.

    Question 3. Last year, the FCC granted more than 20 waivers to 
public safety entities to begin building out wireless broadband 
networks using the existing 10 megahertz of spectrum that is already 
assigned to public safety in the 700 MHz band.
    Public safety officials have noted that these waiver build-outs 
will provide data important in the deployment of the proposed national 
network. A New York public safety official was quoted as saying ``We 
have always made the argument that granting these waivers will further 
the ability to understand what it is that we want to build and how we 
want to build it.''
    How can public safety say it definitely needs the additional 10 
megahertz of spectrum from the D Block if these waivers are being used 
for determining what to build and how to build it?
    Answer. Current research shows that with over 55,000 public safety 
jurisdictions in existence nationwide, reallocation of the D Block to 
form a contiguous band of 20 MHz of spectrum will be necessary to 
ensure that all jurisdictions will be able to utilize the network and 
gain access to the kinds of video and data services that many Americans 
currently enjoy. The waivers to begin construction on the existing 10 
MHz of spectrum are important to test the new technology and ensure 
that it will meet public safety's needs as the network is further 
developed.

    Question 4. The FCC and others have suggested giving public safety 
the option to use 700 MHz narrowband spectrum for broadband in order to 
provide additional broadband capacity. Is this feasible? If not, why?
    Answer. The FCC's suggestion to use narrowband spectrum for 
broadband communications is not technologically feasible at this time. 
The 700 MHz narrowband spectrum is being used for interoperable voice 
communications that are critically important to our Nation's first 
responders. The flexible use of narrowband spectrum for broadband 
services could produce interference with current radio communications 
and poses too great a risk to the safety and well-being of citizens and 
first responders. While there may be potential for migration of 
existing narrowband systems to broadband technologies in the future, 
there is currently no guarantee that both can be supported at the same 
time on the same network.

    Question 5. It is my understanding that there are several federal 
departments and agencies involved with public safety communications--
including the FCC, Department of Commerce, Department of Homeland 
Security, and the Department of Justice. I am concerned there isn't one 
agency responsible and that with all the agencies involved it presents 
challenges to making progress and proper planning.
    In addition to this bureaucracy, I am concerned about the funding 
challenges that have existed and will likely continue to exist with 
public safety interoperability. It is my understanding that more than 
$7 billion of taxpayer money has been spent over the past 7 years in 
federal grants without proper planning and coordination. And as a 
result, only incremental improvements have been made--many experts 
state it may be several more years before it is completely resolved. 
This includes the Public Safety Interoperability Communications (PSIC) 
grant program and about $4.3 billion DHS has spent to improve 
interoperability.
    My concern is that we are hastily providing resources to public 
safety without proper planning to ensure those assets, whether it is 
funding or spectrum, are properly utilized. What can we do differently 
this time to ensure we achieve the goals necessary for public safety to 
sufficiently respond and communicate in emergencies and ultimately 
protect our nation's citizens but upholding our fiscal responsibilities 
to taxpayers to ensure their hard-earned money is used wisely and 
responsibly?
    Answer. It is important to note that the reallocation of the D 
Block is time-sensitive and must be a top priority. The FCC is under 
legal obligation to auction the D Block to commercial providers unless 
Congress removes this requirement. Once an auction takes place, the 
spectrum will be gone and the nation will have missed perhaps its 
greatest opportunity in decades to improve the efficiency and cost 
effectiveness of public safety communications.
    Once sufficient spectrum is allocated for the network, establishing 
a governance structure for the development and maintenance of the 
system will be necessary. Beginning with the Public Safety 
Interoperable Communications (PSIC) grant program, Congress required 
that state and local officials work together to create and implement 
communications plans to guide investments and measure progress in 
achieving interoperability. These plans, as well as the National 
Emergency Communications Plan, have improved governance and helped 
ensure coordination necessary for the effective use of taxpayer funds.
    These plans should be leveraged in the development of the 
nationwide broadband network for public safety. Doing so will ensure 
that various Federal, state and local agencies work together and avoid 
duplication of effort. By including all appropriate agencies, it will 
also ensure that the network ultimately meets various agencies' mission 
requirements and will help reduce spending on multiple communications 
systems.

    Question 6. If the D Block were directly allocated to public safety 
then it would utilize 34 MHz of spectrum as its primary spectrum for 
both narrowband and broadband communications. While this wouldn't 
necessarily present a problem in the event of a natural disaster, there 
is concern about possible overreliance on this band during a disaster 
or terrorist attack.
    If public safety principally relies on a relatively narrow range of 
spectrum then a coordinated attack could disrupt, or worse cripple, 
public safety communications through the use of high-power wireless 
jammers. For example, a recent University of Pennsylvania report 
highlighted the susceptibility of the P25 System to active traffic 
analysis and selective jamming attacks.\1\
---------------------------------------------------------------------------
    \1\ Sandy Clark and others, Security Weaknesses in the APCO Project 
25 Two-Way Radio System, CIS Technical Report MS-CIS-10-34, University 
of Pennsylvania, November 18, 2010.
---------------------------------------------------------------------------
    Is this a serious concern that needs to be addressed? Wouldn't the 
public safety network be more resilient by utilizing the existing 700 
MHz assignment with existing public safety spectrum in 400 MHz, 800 
MHz, and 4.9 GHz by using technologies such as dynamic spectrum access, 
cognitive radio, and spectrum aggregation? As well as just greater 
interoperability with commercial systems, which operate in various 
bands?
    Answer. Governors and our public safety officials share your 
concerns regarding network security and reliability. As the network is 
developed, it must be ``hardened'' against attack and include 
redundancies to ensure the ability to communicate during an emergency. 
Technologies such as dynamic spectrum access and spectrum aggregation 
are still considered developing technologies and are therefore 
unreliable in the event of disaster. In addition, some of these 
technologies, like dynamic spectrum access, require additional software 
for interoperability, which would increase costs.
    It should be noted that the reason the 700 MHz band is so valuable 
is because of its ability to reach users through buildings, concrete 
and even underground. This is a characteristic of the 700 MHz band that 
would prove invaluable to the public safety network. Additionally, 
spectrum in other bands will still be required for some time for voice 
communications until the LTE technology has been proven capable of 
reliably supporting first responder voice communications.

    Question 7. What impact would greater interoperability with 
commercial systems across the entire 700 MHz band have on the costs and 
time to market of providing mobile broadband capabilities and end users 
devices for first responders?
    Answer. While greater interoperability with commercial systems 
might ultimately be beneficial, it cannot be a substitute for 
reallocation of the D Block to public safety. Public safety must have a 
dedicated 20 MHz of spectrum for a nationwide network in order to 
ensure public safety's critical requirements are met. By their nature, 
commercial systems must serve their customers and would have little 
incentive to prioritize first responder communications over those of 
their customers during an emergency.
    Furthermore, sharing commercial systems could be dangerous. In the 
event of a bomb scare, for instance, law enforcement may need to shut 
down wireless communications within a specified area. If public safety 
uses those same networks to communicate, this would mean disabling 
critical first responder communications, which is unacceptable.

    Question 8. In your opening testimony you stated ``almost 10 years 
after the terrorist attacks of September 11th and despite a great deal 
of national attention to first responders' communications needs, we 
continue to lack a nationwide network that can provide these 
capabilities to first responders.'' However, a set of standards known 
as Project 25 (P25) was initiated back in 1989 by public safety 
agencies and manufacturers to ensure radio interoperability with 
emergency communication systems but to date only a portion of the 
standard set has been developed. It is also my understanding that there 
has been only one single demonstration of interoperability and that was 
between Motorola and Harris land mobile radio handsets.
    In your opinion, what have been the key reasons 21 years later we 
still don't have nationwide radio interoperability? How will public 
safety approach this issue with broadband so as not to repeat the same 
mistakes? My concern about this is that the European standard (TETRA) 
was successfully completed in only a few years and its handsets are 
significantly cheaper than P25 devices.
    Answer. A key reason the nation lacks true interoperability is the 
manner in which public safety radio communications have developed over 
the decades. Over time, public safety users have been allocated small 
segments of spectrum in different frequency bands, none of which can 
communicate directly with each other and none of which were coordinated 
as they were developed across multiple jurisdictions. Without a single 
contiguous section of spectrum to accommodate all public safety users, 
achieving interoperable voice communications has often required first 
responders to carry multiple radios or use gateway systems to patch 
together different radio networks. The reallocation of the D Block to 
public safety can help avoid repeating these mistakes as we move to 
broadband. In addition, there has been significant progress in 
establishing effective governance structures to coordinate the 
development of communications systems that will greatly improve the 
efficiency and effectiveness of the broadband network's deployment.

    Question 9. Is the P25 standard based on open standards? How many 
companies are involved in the development of P25 equipment and devices? 
How does this affect the cost of P25 equipment?
    Answer. For questions regarding P25 standards, please refer to the 
Office of Emergency Communications at the Department of Homeland 
Security.

    Question 10. In your testimony you mention Congress can ensure that 
public safety controls the design and construction of network 
facilities sufficient to meet their exacting standards of performance 
by directly allocating the D Block and providing funding mechanisms. 
You also mention that no commercial operator builds to meet those same 
standards. Can you elaborate on what standards you are referring to? 
Are they codified somewhere and how were these standards developed?
    Answer. The standards I was referring to are the ``mission 
critical'' requirements of first responders and are the standards to 
which public safety radio communications systems are built. These 
requirements include more rigorous features for safety and redundancy 
and do not tolerate dropped calls as occur on systems built for 
commercial purposes.

    Question 11. How much experience does public safety have in general 
in designing and building wireless broadband networks? If that 
experience is limited, then is public safety actually capable of 
managing a new, complex technology such as LTE (Long Term Evolution)? 
If not, who should? Should there be a greater group of industry parties 
involved in the standards and technology development--wouldn't that 
help reduce costs?
    Answer. Public safety officials have been designing and building 
communications systems for years. LTE is a new technology that is just 
now being tested in both the commercial and public sectors. To ensure 
this technology is developed to include public safety requirements, 
public safety must have a seat at the table and must be a key player in 
efforts to design and build a nationwide broadband network. Without 
public safety leading efforts to design the network, it would likely 
fail to meet the somewhat unique and rigorous requirements of our 
Nation's law enforcement officers, firefighters and emergency medical 
service providers.

    Question 12. You also mention state and local budget strains and 
the importance of improving the efficiency and cost effectiveness of 
critical public services. Isn't the lack of uniform standards 
contributing to the excessive cost in public safety communications?
    Answer. Public safety communications are costly today in part 
because they lack interoperability. As discussed above, the disparate 
segments of spectrum that have been allocated to public safety over the 
years has led to the development of multiple communications systems 
that cannot talk to each other. Achieving interoperability has required 
first responders to often carry two, three or even four different 
radios to communicate across jurisdictions. This increases equipment 
costs and also requires additional personnel costs to maintain these 
systems. By devoting resources to one network, we can greatly reduce 
the costs incurred at the local, state and federal level.

    Question 13. Wouldn't it be more cost effective if public safety 
utilized one network for both voice and data communications?
    Answer. While it might be more cost-effective in the future, 
unfortunately the technology doesn't allow flexible use without risk at 
this time. While Governors and their public safety officials support 
the eventual migration of both voice and data to one system, we must 
ensure that the network will be able to support both before we fully 
devote ourselves to that premise.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                         Chief Al H. Gillespie
    Question 1. The Wireless Initiative that the President has put 
forward is a plan that is worth strong consideration. As I stated in a 
forum that I held in Missouri last year with the FCC Chairman, it is 
paramount that rural and unserved areas have access to broadband. The 
President has stated that his plan would reduce the deficit by $9.6 
billion and that about $28 billion would be raised through incentive 
auctions. However, I want to get a better handle on these calculations. 
How are we determining that $28 billion would be raised?
    Answer. First it's important to understand that S. 28 does not rely 
solely on incentive based auctions. Like its predecessor, S. 3756, as 
well as Senator Lieberman and McCain's legislation, S. 3625, it 
includes spectrum proceeds from other auctions as well. This language 
was also part of the House Bipartisan Commerce Committee Discussion 
Draft that was circulated last year. It is our understanding that 
commercial carriers and industry experts provided the estimate on the 
amount of money the incentive auctions will raise. Public safety is not 
in a position to agree or disagree with the projections. We believe 
that as Congress and the administration work together to clear 
additional spectrum, there is sufficient spectrum to auction in order 
to pay for the build out and maintenance of the public safety broadband 
network while allocating the D Block to public safety. Furthermore, a 
recent study by the Phoenix Center clearly establishes that the 
allocation of D Block to public safety will realize greater deficit 
reduction and $3.4 billion more in value than its commercial auction.

    Question 2. There is a lot of uncertainty about how much spectrum 
would be voluntarily given up for auction--do we have assurances that 
we can actually reach this figure?
    Answer. We agree there is a lot of uncertainty, but again there are 
also a lot of other spectrum bands that can be repurposed for 
commercial services. We understand that in order to free up additional 
spectrum, Congress must start somewhere, and the FCC and the Obama 
Administration join with Chairman Rockefeller and others to include 
incentive based auctions as part of that equation. When Congress passed 
legislation that established the hard date for the DTV transition, 
there was no certainty that the auction would raise the $12 billion 
that was required by law, however, the auction raised nearly $20 
billion, $8 billion more than estimated. And that was without the D 
Block, which was originally calculated within the $12 billion estimate. 
Therefore, it is not unreasonable to believe that the current 
projections will meet or even exceed current estimations as projected 
in the President's plan.

    Question 3. Conversely, I have concerns about how we would pay for 
a public safety network under the FCC's plan. The estimate is that we 
can raise $3 billion by auctioning off the D Block. I realize that this 
would be a different type of auction than what was attempted a few 
years ago but, given that that effort failed, how we know we're going 
to get $3 billion?
    Answer. The President's budget plan provides an offset of $3.2 
billion for reallocating the D Block to public safety and moving it 
away from a commercial auction. We believe that is more than what any 
auction would receive, particularly if potential bidders were 
restricted from participating and/or even limited public safety 
requirements/provisions were included in the auction rules. A good 
analysis of the questions related to D Block auction vs. allocation are 
provided in the new paper by the Phoenix Center (http://www.phoenix-
center.org/PolicyBulletin/PCPB26
Final.pdf). The Phoenix Center report makes it clear that the cost of 
not allocating D Block to public safety, and then having public safety 
have to build out two separate infrastructures in two different 
spectrum bands for their current and future broadband needs would well 
exceed any revenue derived from a potential commercial auction of D 
Block now.

    Question 4. If we donate more spectrum to public safety agencies, 
can you give me any assurance that interoperability between different 
jurisdictions would work? And that you would have economies of scale to 
get good technology at a good cost?
    Answer. Yes, public safety is united on ensuring that the network 
is interoperable and provides seamless roaming across the country to 
first responders. While the number of public safety users on the 
network might be around 2 million, the number of devices and other 
users will exceed all predictions, which will exponentially increase 
the need for spectrum resources. Device-to-device communications will 
eventually outpace the actual number of users on the network. In 
addition, adoption of LTE technologies by the U.S. and global public 
safety communities will create a market demand that lowers cost of 
equipment, networks and applications by creating greater market demand, 
competition and innovation. Indeed, the U.S. public safety community 
adopted LTE as its standard for public safety broadband in order to 
leverage commercial technology and build out, to ride the commercial 
market, and create efficiencies, drive down costs and spur competition 
and innovation within the marketplace.

    Question 5. If the spectrum is auctioned off, the non-profitable 
public safety partnership of this deal could slip as commercial demand 
grows. How do we ensure that private entities will ensure that the 
needs of public safety are met?
    Answer. If the spectrum is auctioned, public safety will not be 
able to rely on commercial systems for mission-critical services. To 
ensure private entities meet the needs of public safety, Congress and 
the FCC will need to place considerable requirements (as they did for 
the last auction) on commercial providers to ensure systems are 
reliable, redundant, secure, and provide a higher level of priority 
access, specifically ruthless preemption, to public safety at times of 
emergency. Commercial carriers will need to give up control of their 
networks to public safety during emergencies. These conditions would 
make it impossible for commercial carriers to create a profitable 
business model to bid for the spectrum and provide mission-critical 
services to public safety. They have told us as much.

    Question 6. There is a lot of discussion about upfront costs of 
maintaining a public safety network but not a lot about ongoing 
operating costs. How much is this going to cost in 10 years? Or in 20 
years? How will that be paid for?
    Answer. FCC's National Broadband Plan states that the build-out of 
a 10-MHz broadband network will cost approximately $6 to $10 billion 
over the next 5 years. The cost of building a 20-MHz network is 
practically the same, if not less, as there are some efficiencies that 
would be gained in building out 20 MHz versus 10 MHz. The difference is 
who will pay for it. The FCC's plan requires the Federal Government to 
pay for the build-out. However, if public safety were able to leverage 
the excess network capacity, utilize existing public safety 
infrastructure when building out the network, and secure partnerships 
with other public and private industry partners, the actual cost to 
local, state, tribal and Federal Governments would be less.
    A combination of leasing excess capacity, prioritized Federal grant 
programs and revenue from other auctioned spectrum would help build and 
sustain the nationwide interoperable public safety broadband network, 
while creating a budget neutral funding model.
    There are a number of funding models to support the build-out of 
the network. While no single solution will pay for the entire network, 
a flexible program will make it possible to offset many of the costs 
associated with its construction. Some of the funding mechanisms 
include:

        1. Excess network capacity not utilized by public safety can be 
        leased out to commercial providers or other users on a 
        secondary basis. This will ensure efficient use of the 
        spectrum, while still giving local public safety agencies 
        control over who is able to use the spectrum and when they are 
        able to use it. The lease revenue of the network would offset a 
        portion of the build-out and maintenance of the network.

        2. Proceeds from other spectrum auctions are proposed to 
        finance the establishment of a grant program that will fund the 
        build-out and maintenance of the network.

        3. Current Homeland Security, Justice, Transportation and other 
        Federal grants could be authorized and prioritized by Congress 
        to assist state and local governments in building a broadband 
        network.

        4. Universal Service Funds (USF) can also be prioritized to 
        help local and state government deploy broadband networks in 
        underserved and unserved areas.

        5. A nominal monthly fee can be imposed on consumers of 
        commercial broadband services to aid local and state 
        governments in building the network.

        6. Public safety agencies can partner with private industry 
        such as utilities to share the cost of building the network.

        7. Funding will also come from state and local public safety 
        operational expenses.

    If the D Block spectrum is auctioned, then the cost of building out 
the 10-MHz of public safety broadband network will need to rely solely 
on Federal grant dollars. Given that scenario, public safety will not 
be able to leverage the excess capacity of the network in order to 
create flexible partnership and funding programs.
    The long-term strategy and vision is for public safety to migrate 
to converged IP systems that are capable of mission-critical voice, as 
well as data and video. Therefore, the long-term costs of maintaining 
traditional Land Mobile Radio networks, as well as future public safety 
broadband networks, will evolve into converged mission-critical voice 
capable broadband networks. The only unanswered question is not if, but 
when? The interim cost is the real challenge.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                         Chief Al H. Gillespie
    Question 1. Beginning with the Radio Act of 1927 and continuing 
with the Communications Act of 1934, the Federal Government began 
defining the public airwaves, or radio spectrum, as a resource that 
must be used in the public interest and, more specifically, ``for the 
purpose of the national defense'' and ``for the purpose of promoting 
safety of life and property through the use of wire and radio 
communication.'' Since 1927, local, county, state and regional public 
safety organizations across the nation have built, maintained and 
updated their individual communications facilities. To meet those 
communications needs, it is my understanding that public safety 
entities utilize approximately 100 Megahertz of spectrum--including 24 
megahertz of public safety spectrum in the 700 MHz band for both 
broadband and narrowband services. Can you elaborate on the existing 
spectrum utilized by public safety such as what frequency bands are 
used, how much spectrum in each band is used, and what communications 
services are supported in those bands?
    Answer. Today, more than ever, our nation's public safety agencies 
must have the tools they need to perform their critical tasks. 
Appropriate radio spectrum is at or near the top of the list of those 
essential tools. The lack of sufficient radio spectrum for public 
safety has several significant consequences including channel 
congestion, overloading of systems, and lack of capacity. The lack of 
spectrum during incidents.
    Current allocation of public safety spectrum is compartmentalized 
across various spectrum bands.
Public Safety Narrowband Land Mobile Radio (LMR) Spectrum
29-50 MHz
    The spectrum is non-contiguous and it is interleaved with other 
uses. Total spectrum allocation in the block is 7.2 MHz.

------------------------------------------------------------------------
         Frequencies                    Amount of Spectrum (MHz)
------------------------------------------------------------------------
30.98-31.98                    1
33.02-33.98                    0.96
35.02, 35.64, 35.68            0.06
37.02-37.42                    0.4
37.90-37.98                    0.08
39.02-39.98                    0.96
42.02-42.94                    0.92
43.64, 43.68                   0.04
44.62-46.58                    1.96
47.02-47.66                    0.64
Total                          7.2
------------------------------------------------------------------------

150-174 MHz
    The spectrum allocation is non-contiguous and it is interleaved 
with other uses. Total spectrum allocation in the block is 3.8 MHz.

------------------------------------------------------------------------
         Frequencies                    Amount of Spectrum (MHz)
------------------------------------------------------------------------
150.7750-150.8050              0.03
150.9950-151.4975              0.5025
152.0075                       0.02
153.7400-154.47875             0.73875
154.6500-156.2400              1.59
157.45                         0.02
158.7225-159.4725              0.75
163.25                         0.01125
166.25                         0.01125
170.15                         0.01125
170.425                        0.006
170.475                        0.006
170.575                        0.006
171.425                        0.006
171.475                        0.006
171.575                        0.006
172.225                        0.006
172.275                        0.006
172.375                        0.006
173.075                        0.006
173.20375                      0.006
173.21                         0.006
173.2375                       0.006
173.2625                       0.006
173.2875                       0.006
173.3125                       0.006
173.3375                       0.006
173.3625                       0.006
173.39                         0.006
173.39625                      0.006
Total                          3.805
------------------------------------------------------------------------

450-470 MHz
    The spectrum allocation is non-contiguous and it is interleaved 
with other uses. Total spectrum allocation is 3.7 MHz.

------------------------------------------------------------------------
         Frequencies                    Amount of Spectrum (MHz)
------------------------------------------------------------------------
453.0125-453.99375             0.98125
458.0125-458.99375             0.98125
460.0125-460.64375             0.63125
465.0125-460.64375             0.63125
462.9375-463.19375             0.25625
467.9375-463.19375             0.25625
Total                          3.7375
------------------------------------------------------------------------

470-512 MHz
    The spectrum allocation is made up of 6 MHz contiguous and is 
interleaved with other uses. Total spectrum allocation varies by 
geographic area from 6 MHz to 18 MHz.

----------------------------------------------------------------------------------------------------------------
   16 MHz Spectrum Block          Number of Licenses Issued                      Major Metro Areas
----------------------------------------------------------------------------------------------------------------
470 to 476                  1,133 public safety licenses          Boston, Chicago, Miami, Los Angeles, New York
                                                                   City, Cleveland, Pittsburgh
476 to 482                  376 public safety licenses            Chicago, Detroit, New York City, Cleveland
482 to 488                  1,133 public safety licenses          San Francisco, Los Angeles, Detroit, Boston,
                                                                   Dallas/Fort Worth, New York City
488 to 494                  140 public safety licenses            San Francisco, Houston, Washington, D.C.
494 to 500                  41 public safety licenses             Washington, D.C., Pittsburgh
500 to 506                  278 public safety licenses            Philadelphia, Southern NJ, Northeastern NJ,
                                                                   Nassau County, NY
506 to 512                  171 public safety licenses            Los Angeles, Philadelphia, Southern NJ
----------------------------------------------------------------------------------------------------------------

768-775/798-805
    The spectrum allocation is contiguous. Total spectrum allocation is 
14 MHz.
806-809/851-854 MHz
    The spectrum allocation is contiguous. Total spectrum allocation is 
6 MHz.
809-815/854-860 MHz
    The spectrum allocation is non-contiguous and it is interleaved 
with other uses. The total spectrum allocation is 3.5 MHz.
Wide Area Broadband
763-768/793-798
    The spectrum allocation is contiguous. Total spectrum allocation is 
10 MHz.
Hot Spot and Microwave Broadband
4940-4990 GHz
    The spectrum allocation is contiguous. Total spectrum allocation is 
50 MHz.

    Question 2. Progress has clearly been made in the assignment of or 
availability of spectrum for public safety addressed directly to the 
issue of interoperability. However, within each spectrum there are a 
multitude of issues that affect licensing, coverage, operability, and 
interoperability. What services, if any, will migrate to the new 
wireless broadband network? How many first responders in the field are 
expected to be supported by this wireless broadband network?
    Answer. The initial services that will migrate to broadband 
networks are data and video. Eventually, when voice over LTE equipment 
is available, which can provide the same level of mission-critical 
voice services as existing LMR systems, then we expect public safety 
systems to begin migrating their LMR systems to the wireless broadband 
network. The goal will be to support every first responder and those 
who provide support and logistical services to first responders.
    The number of first responder users might be over two million, the 
number of equipment that might access the network could easily be over 
ten million. Industry experts believe that device-to-device or machine-
to-machine equipment and applications will quickly outpace the actual 
number of users on the network. This is especially true when you 
consider monitoring services and situational awareness applications.

    Question 3. If there are radio-based services that will migrate to 
the wireless broadband network or aren't required anymore due to the 
new enhanced services that will be possible on the wireless broadband 
network would public safety work with the Commission to develop a 
transition plan to relinquish underutilized spectrum over a certain 
period of time?
    Answer. Yes, if the migration of LMR systems to broadband networks 
would increase efficiency, improve interoperability and reduce cost for 
the agencies. Agencies that migrate their systems to broadband networks 
should release their licenses in the lower bands as currently required 
of the existing RPC process.

    Question 4. The FCC estimates expenses for its plan of constructing 
a public safety network through partnerships with commercial providers 
and infrastructure will total approximately $6.3 billion over 10 years. 
Adding in operating expenses would bring the approximate total to $12-
16 billion over 10 years. The FCC also estimated that constructing a 
stand-alone public safety network would require approximately $16 
billion over 10 years and that adding in operating expenses would bring 
the total to approximately $34.4 billion over 10 years. A Verizon study 
for the Southern Governors Association back in 2007, suggested that a 
network would cost $61 billion over 10 years for both construction and 
maintenance.
    If the D Block were directly allocated to public safety, would 
public safety look to build its own network, utilize existing 
commercial infrastructure, or a hybrid of both? Would it be one 
nationwide network or a compilation of regional/state networks, or 
virtual networks over existing carriers' networks?
    Answer. Public safety strongly believes that it needs to work 
together with multiple public and private partners to build the 
nationwide broadband network. We will utilize existing public safety, 
commercial, and private infrastructure to build out the network. 
Commercial carriers will play a big role in helping to build out the 
nationwide network, and they will be critical partners to public 
safety.
    This will reduce cost and create efficiencies. The nationwide 
network architecture will allow local, regional and statewide systems 
to be built to a national standard that ensures nationwide roaming and 
interoperability.

    Question 5. Who would maintain the network--would it be 
centralized, regional, or state operated? How would new users be 
authenticated and granted access to use the network? Also, how many 
additional personnel would be needed to maintain it on a day-to-day 
basis?
    Answer. Like any other network, there will be multiple levels for 
network maintenance. This function could vary from a localized (single 
tower maintenance) to a regional core that is maintained by a 
commercial or industry partner.
    At this time, we do not have information on the number of personnel 
that would be needed to maintain the network, but we are confident that 
building out and maintaining such a network will create thousands of 
new and sustainable high paying professional jobs.

    Question 6. When will there be a greater and more detailed 
discussion on planning and governance issues related to the broadband 
wireless network? Are these issues critical to addressing 
interoperability as well as overall design of the network and 
subsequent costs?
    Answer. Yes, this discussion is underway within the Administration 
and within public safety. The current governance will most likely need 
to change, however, the change should not undo the great work that has 
already been done by public safety.

    Question 7. The 9/11 Commission report found that ``the inability 
to communicate was a critical element'' at each of the ``crash sites, 
where multiple agencies and multiple jurisdictions responded.'' Even 
with the lack of interoperability clearly highlighted, efforts to 
improve this significant problem have fallen short and at best have 
only been incremental.
    To remedy this problem, the FCC established the Emergency Response 
Interoperability Center (ERIC) to ensure that the applications, 
devices, and networks that public safety groups utilize all work 
together, so that first responders nationwide can communicate with one 
another seamlessly. ERIC is supposed to hold its first meeting very 
soon.
    The National Broadband Plan noted that past efforts to create a 
public safety narrowband interoperable voice network have failed and 
that many public safety radio systems lack basic interoperability. It 
also found most jurisdictions that have improved their systems still 
only have an ``intermediate'' level of interoperability at best--not 
the advanced level of interoperability that is required for truly 
seamless communications in the event of a major emergency. Should those 
with industry expertise in designing and building nationwide networks 
have a greater voice in the development of interoperable systems?
    Answer. We strongly rely on industry experts to inform us on how to 
build out the nationwide network; however, we must ensure that the 
network is designed and built to meet the needs of first responders and 
public safety. In other words, while we will strive to ensure industry 
experts have a greater voice in the development of the interoperable 
systems, we must recognize that the voice of public safety users must 
be primary.

    Question 8. Wouldn't we more properly address this if public safety 
outlined the operational requirements and services that needed to be 
provided by the network and then private sector experts develop the 
standards and network design to meet those needs?
    Answer. That is what we tried to do with the Project 25 standards, 
but after 25 years, we are still struggling to develop standards and 
network design to meet public safety needs. That is why public safety 
endorsed LTE standards, and now we are working with the Public Safety 
Communications Research program (PSCR), to ensure public safety 
requirements are considered in the IEEE standards setting process.

    Question 9. Last year, the FCC granted more than 20 waivers to 
public safety entities to begin building out wireless broadband 
networks using the existing 10 megahertz of spectrum that is already 
assigned to public safety in the 700 MHz band.
    Public safety officials have noted that these waiver build-outs 
will provide data important in the deployment of the proposed national 
network. A New York public safety official was quoted as saying ``We 
have always made the argument that granting these waivers will further 
the ability to understand what it is that we want to build and how we 
want to build it.'' How can public safety say it definitely needs the 
additional 10 megahertz of spectrum from the D Block if these waivers 
are being used for determining what to build and how to build it?
    Answer. It is public safety's industry partners that are saying we 
definitely need an additional 10 MHz of spectrum. These industry 
partners are the ones that are building out the systems for the waiver 
entities, and they are the ones that are determining that 10 MHz 
systems built today will not meet the future needs of public safety.

    Question 10. The FCC and others have suggested giving public safety 
the option to use 700 MHz narrowband spectrum for broadband in order to 
provide additional broadband capacity. Is this feasible? If not, why?
    Answer. No. FCC's recent NOI clearly shows that network flexibility 
is not going to be possible because of the potential interference it 
will cause to existing narrowband systems and future broadband systems. 
Industry experts have refuted this notion and have provided a clear 
argument as to why this will not work.

    Question 11. It is my understanding that there are several federal 
departments and agencies involved with public safety communications--
including the FCC, Department of Commerce, Department of Homeland 
Security, and the Department of Justice. I am concerned there isn't one 
agency responsible and that with all the agencies involved it presents 
challenges to making progress and proper planning.
    In addition to this bureaucracy, I am concerned about the funding 
challenges that have existed and will likely continue to exist with 
public safety interoperability. It is my understanding that more than 
$7 billion of taxpayer money has been spent over the past 7 years in 
Federal grants without proper planning and coordination. And as a 
result, only incremental improvements have been made--many experts 
state it may be several more years before it is completely resolved. 
This includes the Public Safety Interoperability Communications (PSIC) 
grant program and about $4.3 billion DHS has spent to improve 
interoperability.
    My concern is that we are hastily providing resources to public 
safety without proper planning to ensure those assets, whether it is 
funding or spectrum, are properly utilized. What can we do differently 
this time to ensure we achieve the goals necessary for public safety to 
sufficiently respond and communicate in emergencies and ultimately 
protect our Nation's citizens but upholding our fiscal responsibilities 
to taxpayers to ensure their hard-earned money is used wisely and 
responsibly?
    Answer. More and better planning and learning lessons from prior 
failures.
    Public safety shares these concerns and we would like to work with 
you to find the solution to that will provide proper oversight and 
accountability to ensure efficiency and maximum utilization of all the 
resources.

    Question 12. If the D Block were directly allocated to public 
safety then it would utilize 34 MHz of spectrum as its primary spectrum 
for both narrowband and broadband communications. While this wouldn't 
necessarily present a problem in the event of a natural disaster, there 
is concern about possible over reliance on this band during a disaster 
or terrorist attack.
    If public safety principally relies on a relatively narrow range of 
spectrum then a coordinated attack could disrupt, or worse cripple, 
public safety communications through the use of high-power wireless 
jammers. For example, a recent University of Pennsylvania report 
highlighted the susceptibility of the P25 System to active traffic 
analysis and selective jamming attacks.\1\ Is this a serious concern 
that needs to be addressed? Wouldn't the public safety network be more 
resilient by utilizing the existing 700 MHz assignment with existing 
public safety spectrum in 400 MHz, 800 MHz, and 4.9 GHz by using 
technologies such as dynamic spectrum access, cognitive radio, and 
spectrum aggregation? As well as just greater interoperability with 
commercial systems, which operate in various bands?
---------------------------------------------------------------------------
    \1\ Sandy Clark and others, Security Weaknesses in the APCO Project 
25 Two-Way Radio System, CIS Technical Report MS-CIS-10-34, University 
of Pennsylvania, November 18, 2010.
---------------------------------------------------------------------------
    Answer. Jamming, regardless of what spectrum band public safety 
operates on, is a serious concern. However, a jammer can be used to 
cripple networks on multiple bands and brute force jamming does not 
distinguish between public safety spectrum and commercial spectrum. If 
a jammer is being used to block a public safety network, then most 
likely it will also cripple a commercial network, as well. In order to 
utilize multiple spectrum bands, in any given area, you will need to 
build out a network on all the spectrum bands, which will increase the 
cost of the network astronomically. It is not economically feasible or 
efficient utilization of spectrum resources to build a 700 MHz, 400 
MHz, 800 MHz, and 4.9 GHz network.

    Question 13. What impact would greater interoperability with 
commercial systems across the entire 700 MHz band have on the costs and 
time to market of providing mobile broadband capabilities and end users 
devices for first responders?
    Answer. Commercial services providers can answer this question 
better than public safety, but it is our understanding the technology 
is currently not available. We are very interested in having the 
ability to roam across the entire 700 MHz band and would like to see 
this technology come to fruition as soon as possible.

    Question 14. In your testimony you stress that the wireless 
broadband network must be mission critical at the outset. You also 
state, in the beginning, the system will only be able to handle data 
and video, and that mission critical voice is years away--some have 
even indicated that it is decades away.
    This is somewhat confusing because innovation and technological 
advancement in wireless and broadband are measured in months. Also, the 
Long-Term-Evolution standard includes ``voice over LTE'' capabilities, 
which will promote scale, reduce complexity, and implement roaming--all 
issues critical to public safety. Also, Verizon Wireless announced that 
it had successfully made the world's first voice over LTE call over its 
commercial network yesterday morning. So there is rapid advancement in 
this space. How did you come to this assessment that mission critical 
voice is ``years away?'' How soon would you prefer to have mission 
critical voice supported by the LTE-based broadband wireless network?
    Answer. Our preference is to have a mission-critical voice system 
supported by the LTE broadband network today; however, it is not there 
yet. The technology must be proven, reliable and available to public 
safety at a reasonable cost. It is our understanding that the IEEE 
standards process has not even begun considering such standards, and if 
and when they are ready to do so, it could take years to finalize the 
mission critical voice standard. The technology also needs to allow for 
peer to peer and one to many communications without the need to go 
through the network (e.g., the talk around or simplex mode).
    We are encouraged that the administration budget provides 
considerable funding for research and development (R&D) for LTE mission 
critical voice equipment. We hope this will considerably shorten the 
length of time it will take to have the mission-critical voice system 
on the LTE network.

    Question 15. You also mention that it has to be affordable. Are the 
current narrowband land mobile radios affordable? If not--why not?
    Answer. No, current LMR systems are expensive, but there is no 
alternative. There are a number of reasons why LMR systems cost as much 
as they do. First and foremost, the radios need to be reliable and 
sturdy. They need to be able to work under extreme conditions, and they 
need to be durable enough to operate after being severely damaged. 
Second, most radios operate only one band. This makes LMR systems 
unique to each agency and jurisdiction and limits competitions and 
variety. Third, many LMR systems are proprietary. In order to operate a 
radio on the network, you have to buy the radio from the network 
manufacturer. This limits completion and interoperability. Fourth, the 
public safety market is a specialty market. Only very few other public 
or private entities have the same needs as those of public safety. This 
limits the number of companies that are willing to invest in developing 
products that will meet public safety's needs.

    Question 16. Wouldn't the long-term operation of two separate 
networks--one for voice and one for data--be more expensive than 
operating one converged network that carries voice, video, and data and 
also compound interoperability issues due to the required 
interconnectivity necessary between narrowband and broadband systems?
    Answer. Yes, absolutely, and that is why we do not intend to 
operate two separate systems unless there is no other choice. Having a 
single system that does everything you need at a lower cost is 
preferable and desirable. However, until we have a system that can do 
that, we need to operate two systems on a parallel track. When public 
safety is ready to switch tracks, we will.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                            Joseph L. Hanna
    Question 1. The Wireless Initiative that the President has put 
forward is a plan that is worth strong consideration. As I stated in a 
forum that I held in Missouri last year with the FCC Chairman, it is 
paramount that rural and unserved areas have access to broadband.
    The President has stated that his plan would reduce the deficit by 
$9.6 billion and that about $28 billion would be raised through 
incentive auctions. However, I want to get a better handle on these 
calculations. How are we determining that $28 billion would be raised?
    Answer. Not being an expert in the auction arena, I have no 
personal knowledge as to the amount of funds that may result from a 
potential auction. The professional literature and information 
discussed in public forums indicates that spectrum is indeed a premium 
commodity and commercial carriers are willing to pay considerable sums 
for spectrum. The last round of auctions certainly paved the way for 
future auctions to generate considerable amounts of funds for the 
Treasury. Dependent on the conditions, or lack thereof, on the D Block 
specifically, valuations are hard to predict. As all spectrum in the 
700 MHz band is considered beachfront property, an unencumbered D Block 
will bring a premium price. Based on information in the trade press, 
AT&T is currently negotiating with Qualcomm to acquire an unpaired 6 
MHz block of spectrum in the 700 MHz band for a reported $2 billion.
    When looking at a projected $28 billion auction proceed, however, 
one must also consider that the bulk of proposed spectrum to be 
auctioned would come from an incentive-based broadcast pool. Based on 
the theory behind incentive auctions, a considerable portion of the 
proceeds of the auction would be returned to the carriers (thus 
``incentive''). Additionally, funds from the auction would also be 
required to relocate broadcasters who elected to not auction their 
spectrum in the same band to provide for a clear band. Thus $28 billion 
does not equal $28 billion to the U.S. Treasury.

    Question 2. There is a lot of uncertainty about how much spectrum 
would be voluntarily given up for auction. Do we have assurances that 
we can actually reach this figure?
    Answer. I have no expertise regarding the probability of the amount 
of spectrum that might be put up for auction.

    Question 3. I have concerns about how we would pay for a public 
safety network under the FCC's plan. The estimate is that we can raise 
$3 billion by auctioning off the D Block. I realize that this would be 
a different type of auction than what was attempted a few years ago 
but, given that that effort failed, how we know we're going to get $3 
billion?
    Answer. The amount of funds that would result from the D Block will 
clearly be insufficient to pay for the proposed public safety broadband 
network. It is my understanding that the funding from for this network 
would come from the large auction pool. The larger question is whether 
the Congress is willing and able to forego the funds that have already 
been scored by the Congress for the D Block. If the D Block is not 
auctioned, that will require the expenditure of future auctions to make 
up for this loss.

    Question 4. If we donate more spectrum to public safety agencies, 
can you give me any assurance that interoperability between different 
jurisdictions would work? And that you would have economies of scale to 
get good technology at a good cost?
    Answer. Public safety interoperability can indeed be assured if 
there is a governance and implementation model that is defined at the 
outset. Unfortunately, no such structure has yet been defined. There is 
currently (as of this past week) some disagreement within public safety 
writ large regarding the governance and nature of the proposed public 
safety broadband network. One element is currently calling for a single 
national network design, with another faction suggesting that failure 
to provide local control over networks will be unacceptable. If a 
public safety network is built with a nationwide plan that covers urban 
and rural areas equally and provides for a common, centralized 
governance structure, interoperability can indeed be achieved, just as 
is done in the commercial world.
    Regarding economies of scale, a dedicated public network operating 
solely within the current public safety broadband block and the D Block 
(thus, Band Class 14) will significantly restrict any realistic notion 
of economies of scale. At final buildout, the proposed public safety 
network will cover and estimated 2.5-3 million users. According to 
today's press reports, APPLE sold an estimated 5 million IPad2 devices 
in one week. Samsung reported selling 60 million units of a single 
device this past year. Not only will public safety be plagued with low 
volume, but specifications for ruggedized devices will compound design 
issues. Without access to commercial bands, public safety will be 
guaranteed low volume, high cost devices.

    Question 5. If the spectrum is auctioned off, the non-profitable 
public safety partnership of this deal could slip as commercial demand 
grows. How do we ensure that private entities will ensure that the 
needs of public safety are met?
    Answer. If the D Block remains in the auction pool as required by 
current law, the FCC clearly has the ability to mandate conditions or 
restrictions on that spectrum. Thus, a winner of the D Block could be 
mandated to provide public safety with access to the band on a priority 
basis. Less clear, although desirable from my perspective, is whether 
the Commission has the authority ex post facto to require similar 
access in carriers in the 700 MHz band who have already acquired 
spectrum in previous auctions.

    Question 6. There is a lot of discussion about up-front costs of 
maintaining a public safety network but not a lot about ongoing 
operating costs. How much is this going to cost in 10 years? Or in 20 
years? How will that be paid for?
    Answer. The rule of thumb across most wireless networks runs 
approximately 10 percent of the cost to build a system. Most of the 
bills introduced in both the House and Senate appear to propose a 
maintenance fund that would cover some of these costs, but I would 
suggest that public safety should be prepared to cover these costs on 
an ongoing basis. Currently, a substantial number of public safety 
entities either build non-interoperable broadband systems or, more 
commonly, pay for commercial services through major carriers. I happen 
to subscribe to a school of thought that state and local entities have 
a responsibility to pay for a portion of their services, as they do 
today. Given the magnitude of the initial build out costs for a 
national broadband network, however, exclusive use of local and state 
funds will not provide for the initial deployment of a national 
infrastructure.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Joseph L. Hanna
    Question 1. Beginning with the Radio Act of 1927 and continuing 
with the Communications Act of 1934, the Federal Government began 
defining the public airwaves, or radio spectrum, as a resource that 
must be used in the public interest and, more specifically, ``for the 
purpose of the national defense'' and ``for the purpose of promoting 
safety of life and property through the use of wire and radio 
communication.'' Since 1927, local, county, state and regional public 
safety organizations across the nation have built, maintained and 
updated their individual communications facilities. To meet those 
communications needs, it is my understanding that public safety 
entities utilize approximately 100 Megahertz of spectrum--including 24 
megahertz of public safety spectrum in the 700 MHz band for both 
broadband and narrowband services.
    Can you elaborate on the existing spectrum utilized by public 
safety such as what frequency bands are used, how much spectrum in each 
band is used, and what communications services are supported in those 
bands?
    Answer. Public safety is currently allocated 97 MHz of spectrum. 
This spectrum is spread throughout the VHF (both low band and high 
band), UHF, 700 MHz, 800 MHz, and 4.9 GHz bands. Much of the spectrum 
in the VHF and UHF bands are shared with other non-public safety radio 
services. To date, the overwhelming use of public safety spectrum has 
been limited to narrowband voice communications, with limited 
narrowband data services utilized by some public safety entities. As a 
result of waivers issued this past year by the FCC, 20 jurisdictions 
have been given approval to implement early deployments of broadband 
operations in the 700 MHz band. Due to the nature of the spectrum, 
public safety uses of the 4.9 GHz band have generally been limited to 
short range broadband operations.

    Question 2. What services, if any, will migrate to the new wireless 
broadband network? How many first responders in the field are expected 
to be supported by this wireless broadband network?
    Answer. Few existing services used by public safety will migrate 
from existing bands to the public safety broadband platform in the 700 
MHz band in the foreseeable future. An extensive array of high speed 
applications that have been outlined in numerous documents, including, 
but not limited to, document transfer, video, telemetry, and sensors, 
are not currently available on the narrowband frequencies currently 
licensed to public safety and will thus find a home in the broadband 
network. While broadband spectrum in the 4.9 GHz is allocated to public 
safety, this spectrum is limited to short range applications and is not 
suited to large area mobile applications.
    Mission critical voice communications may, at some point in the 
future, migrate to the broadband network. At this time, however, public 
safety has not yet addressed the requirements for mission critical 
voice communications over broadband. Once public safety completes such 
a set of requirements, these requirements will have to be standardized 
in the worldwide 3GPP standards process, manufacturers will have to 
ramp up for these standards, and user equipment will have to be 
designed around these standards. While mission critical voice 
capabilities appear promising, several mission critical capabilities, 
including peer-to-peer (i.e., calls that can be made from one device to 
another off network) create challenges in an architecture designed for 
network-based communications. Additional issues related to local 
command and control within dispatch centers will create challenges for 
the widespread use of mission critical voice over broadband services.
    A number of jurisdictions have deployed proprietary mobile 
broadband networks on a jurisdiction-by-jurisdiction basis. The 
fragmented and proprietary nature of these deployments do not allow for 
interoperability outside the jurisdiction. Jurisdictions who have 
deployed these systems have done so at considerable costs, but out of 
necessity due to the lack of a nationwide public safety network.
    According to most studies, first responders, if defined as police, 
fire, and emergency medical personnel, can load a national network with 
2.5-3 million users. The number of devices may ultimately exceed that 
number, as sensors and fixed equipment could add to that total. That 
said, it will take a number of years before a nationwide network will 
be completed, with a resulting level of system loading considerably 
lower than the 2.5-3 million users in the early years of deployment. 
Additionally, the low number of potential users (low in comparison to 
the several hundred million commercial customers served by commercial 
carriers), will significantly impact the number of devices made 
available to the public safety community in the early years of the 
network.

    Question 3. If there are radio-based services that will migrate to 
the wireless broadband network or aren't required anymore due to the 
new enhanced services that will be possible on the wireless broadband 
network, would public safety work with the Commission to develop a 
transition plan to relinquish underutilized spectrum over a certain 
period of time?
    Answer. While several legislative proposals currently being 
considered in both the House and Senate have proposed spectrum give 
backs once a national broadband network is deployed in the 700 MHz 
band, I would argue that such give backs come with substantial 
drawbacks. First, the spectrum used for narrowband voice operations in 
the 150 MHz and 400-512MHz are generally scattered and interleaved with 
other radio services, including, but not limited to, amateur radio 
services and the business, industrial and transportation categories. 
Clearing of only the public safety channels will not provide any clear 
blocks of spectrum suitable for future auctions.
    Additionally, all current public safety users operating in spectrum 
below 512 MHz have either completed or are in the process of narrow 
banding their land mobile radio systems to comply with a FCC mandate 
for narrow band operations by January 1, 2013. Hundreds of millions of 
dollars, all funded by the licensees, have been, or are being, spent to 
meet this mandate. Any forced migration from these narrow banded 
systems will substantially impact the return on investment for this 
migration.
    More significantly, lower frequency bands in the 150 and 400-512 
MHz have excellent propagation characteristics for suburban and rural 
areas, as well as excellent in building penetration in urban 
environments. As noted above, almost all users of these frequency pools 
have either just completed, or are in the process, of spending hundreds 
of millions of dollars to meet an FCC mandate to narrowband these 
frequencies. Additionally, the cost to replace these systems with 700 
or 800 MHz channels will be many times higher than the spectrum 
currently in use, as 700 and 800 MHz systems require far more radio 
sites than required for lower-band systems. Rural users (e.g., Western 
Texas, Arizona, North Dakota, Nevada and most of the western United 
States) would face massive costs to replace existing lower band systems 
with 700-800 MHz systems. No such transition from lower band systems to 
700-800 MHz systems could be contemplated without massive expenditures 
in the billions of dollars range coming from the Federal Government, 
thus offsetting any potential future auction proceeds from reclaimed 
spectrum.
    If relinquishing spectrum in the lower bands is the price for 
reallocation of the D Block to public safety, it is my strong opinion 
that this cost is both harmful to the vast majority of public safety 
entities, is a poor return on investment, and sacrifices the financial 
investments and best-use of spectrum for far too many public safety 
entities. During a recent meeting (February 28-March 1, 2011) of the 
National Public Safety Telecommunications Council, its Governing Board 
passed a resolution citing its opposition to the giveback of spectrum 
below 512 MHz in recognition of the adverse impact on public safety and 
other users in the band.

    Question 4. The FCC estimates expenses for its plan of constructing 
a public safety network through partnerships with commercial providers 
and infrastructure will total approximately $6.3 billion over 10 years. 
Adding in operating expenses would bring the approximate total to $12-
16 billion over 10 years. The FCC also estimated that constructing a 
stand-alone public safety network would require approximately $16 
billion over 10 years and that adding in operating expenses would bring 
the total to approximately $34.4 billion over 10 years. A Verizon study 
for the Southern Governors Association back in 2007, suggested that a 
network would cost $61 billion over 10 years for both construction and 
maintenance. If the D Block were directly allocated to public safety, 
would public safety look to build its own network, utilize existing 
commercial infrastructure, or a hybrid of both? Would it be one 
nationwide network or a compilation of regional/state networks, or 
virtual networks over existing carriers' networks?
    Answer. While many within public safety have advocated a network 
controlled and operated by public safety, I will argue that broadband 
networks should be build and operated by companies or commercial 
operators who do this on a daily basis. In the current public safety 
governance structures (Public Safety Spectrum Trust, National Public 
Safety Telecommunications Council, APCO, etc.), there is no indication 
of any expertise in the design, operation, or maintenance of highly 
sophisticated broadband networks. This is not to say that public safety 
should not have a strong voice in the design of functional 
requirements, procurement and governance of such a network.
    Unfortunately, public safety has a relative poor record in 
designing, building, or managing large scale telecommunications 
networks beyond the local level. Project 25, for example, has been in 
existence for over 20 years, yet still has a significant number of 
standards yet to be completed. The national record is replete with 
documentation regarding the lack of interoperability between existing 
P-25 systems in spite of the billions of dollars that have been spent 
on these systems to date.
    Ten years following FCC requirements for wireless carriers to 
deliver location and subscriber information to public safety answer 
points for persons placing 9-1-1 calls, a significant number of SAPS 
throughout the United States have yet to upgrade their internal systems 
to accommodate receipt of location/subscriber identification data.
    In terms of network design, i.e., a single national network or a 
network of networks, is currently being debated within the public 
safety community. During sessions at the International Wireless 
Conference and Exposition in Las Vegas during the week of March 7-11, 
2011, there was considerable dialog that demonstrated that this issue 
clearly has no definitive agreement within public safety writ large. I 
would suggest that any hope of delivering true nationwide 
interoperability, as well as fundamental operability within a 
substantial part of the United States (particularly in rural areas) 
will only be accomplished through the deployment of a single nationwide 
network. As long as local jurisdictions demand control over their 
portion of a network, the silo mentality that has prevented 
interoperability in the land mobile radio environment to date will 
simply be perpetuated.
    Last, it is hard to imagine any network design that does not take 
advantage of the commercial deployments throughout the United States. 
Technology in place today allows for the co-location of various users, 
either through site sharing or virtual division of common equipment. 
Failure to follow this path guarantees poor use of valuable Federal 
funds.

    Question 5. Who would maintain the network--would it be 
centralized, regional, or state operated? How would new users be 
authenticated and granted access to use the network? Also, how many 
additional personnel would be needed to maintain it on a day-to-day 
basis?
    Answer. Until such time as a governance model can be defined and 
made operational, this question will remain challenging. To date, the 
National Public Safety Telecommunications Council has advocated a 
centralized model of governance. Without a strong, centralized model, I 
would argue, as noted above, that the fundamental issues of 
interoperability, maintenance, refresh, and other essential 
requirements of a true, nationwide effort, will be made considerably 
more difficult.
    There should be no mistake that additional personnel will be 
required to administer, operate, and manage a national broadband 
network. The underlying question is whether public safety is best 
equipped to perform administration, operation, maintenance of this 
network, or whether this task is best left to experienced network 
operators (existing or new), with public safety's role better focused 
on the policies related to the use of this network.

    Question 6. When will there be a greater and more detailed 
discussion on planning and governance issues related to the broadband 
wireless network? Are these issues critical to addressing 
interoperability as well as overall design of the network and 
subsequent costs?
    Answer. Following the Senate Commerce hearing on this topic on 
February 16, 2011, the topic of governance has become a central topic 
of conversation. It is somewhat regretful that a number of public 
safety leaders still argue that legislation providing spectrum 
reallocation and funding should precede the final determination of a 
governance structure. Sadly, however, there is no consensus within 
public safety, nor has there been any articulated plan for this 
ultimate governance structure, nor has there been any definitive 
document regarding the plans for the design, deployment, management, 
operation, or maintenance of the ultimate network. Again, without a 
governance plan in place prior to passage of legislation, we guarantee 
unwarranted and unnecessary delays in the implementation of a network 
for the Nation's first responders.
    One need look no farther than the San Francisco Bay Area to confirm 
this argument. A consortium within the San Francisco Bay area was 
granted a waiver for early deployment of a public safety broadband 
network in the 700 MHz broadband allocation. Additionally, TOP funds 
were granted for this construction. Due to internal issues within this 
regional effort, however, considerable questions have been raised 
regarding governance, authority, purchasing decisions, etc. Similar 
regional issues were faced by the National Capitol Region when 
deploying a trial broadband network several years ago. While both 
regions are to be commended for their initiative and desire to deploy 
broadband networks for their first responders, an essential lesson has 
been presented for the need of a well-defined governance model at the 
front end, not the back end, of the process.

    Question 7. The 9/11 Commission report found that ``the inability 
to communicate was a critical element'' at each of the ``crash sites, 
where multiple agencies and multiple jurisdictions responded.'' Even 
with the lack of interoperability clearly highlighted, efforts to 
improve this significant problem have fallen short and at best have 
only been incremental.
    To remedy this problem, the FCC established the Emergency Response 
Interoperability Center (ERIC) to ensure that the applications, 
devices, and networks that public safety groups utilize all work 
together, so that first responders nationwide can communicate with one 
another seamlessly. ERIC is supposed to hold its first meeting very 
soon.
    The National Broadband Plan noted that past efforts to create a 
public safety narrowband interoperable voice network have failed and 
that many public safety radio systems lack basic interoperability. It 
also found most jurisdictions that have improved their systems still 
only have an ``intermediate'' level of interoperability at best--not 
the advanced level of interoperability that is required for truly 
seamless communications in the event of a major emergency. Should those 
with industry expertise in designing and building nationwide networks 
have a greater voice in the development of interoperable systems?
    Answer. Without question, industry expertise should be an integral 
component in the design and implementation of the proposed network.

    Question 8. Wouldn't we more properly address this if public safety 
outlined the operational requirements and services that needed to be 
provided by the network and then private sector experts develop the 
standards and network design to meet those needs?
    Answer. Yes.

    Question 9. Last year, the FCC granted more than 20 waivers to 
public safety entities to begin building out wireless broadband 
networks using the existing 10 megahertz of spectrum that is already 
assigned to public safety in the 700 MHz band. Public safety officials 
have noted that these waiver build-outs will provide data important in 
the deployment of the proposed national network. A New York public 
safety official was quoted as saying ``We have always made the argument 
that granting these waivers will further the ability to understand what 
it is that we want to build and how we want to build it.'' How can 
public safety say it definitely needs the additional 10 megahertz of 
spectrum from the D Block if these waivers are being used for 
determining what to build and how to build it?
    Answer. Unfortunately, there has been no engineering analysis or 
documentation from the public safety community regarding the amount of 
spectrum that will be required.

    Question 10. The FCC and others have suggested giving public safety 
the option to use 700 MHz narrowband spectrum for broadband in order to 
provide additional broadband capacity. Is this feasible? If not, why?
    Answer. Per my testimony during the February 16 hearing, I believe 
that flexible use within the 700 MHz narrowband public safety 
allocation should include a flexible use capability. While flexible use 
is not a simple element, it can be accomplished with proper 
coordination. Without such flexible use, large jurisdictions such as 
New York City who have made public statements about their lack of 
intent to deploy any narrowband technologies in the future, we will see 
extremely valuable spectrum lie fallow for years to come. If the 
predictions for mission critical voice capabilities are realized, this 
flexible use of the narrowband channels will provide automatic access 
to 10 MHz of prime spectrum.

    Question 11. It is my understanding that there are several Federal 
departments and agencies involved with public safety communications--
including the FCC, Department of Commerce, Department of Homeland 
Security, and the Department of Justice. I am concerned there isn't one 
agency responsible and that with all the agencies involved it presents 
challenges to making progress and proper planning.
    In addition to this bureaucracy, I am concerned about the funding 
challenges that have existed and will likely continue to exist with 
public safety interoperability. It is my understanding that more than 
$7 billion of taxpayer money has been spent over the past 7 years in 
Federal grants without proper planning and coordination. And as a 
result, only incremental improvements have been made. Many experts 
state it may be several more years before it is completely resolved. 
This includes the Public Safety Interoperability Communications (PSIC) 
grant program and about $4.3 billion DHS has spent to improve 
interoperability.
    My concern is that we are hastily providing resources to public 
safety without proper planning to ensure those assets, whether it is 
funding or spectrum, are properly utilized. What can we do differently 
this time to ensure we achieve the goals necessary for public safety to 
sufficiently respond and communicate in emergencies and ultimately 
protect our Nation's citizens but upholding our fiscal responsibilities 
to taxpayers to ensure their hard-earned money is used wisely and 
responsibly?
    Answer. This question is well advised. As noted above, there is no 
doubt that America's first responders require and deserve a world-class 
broadband network. Without a well defined governance structure and 
implementation model (nationwide vs. jurisdiction based, public safety 
vs. commercial operator, etc.), there will be no way to avoid long term 
delays in implementation.
    Of equal concern, there appears to be an emerging tug of war within 
the Federal Government regarding control of the proposed public safety 
broadband network. While the FCC has provided initial guidance and 
leadership through its National Broadband Plan, the Office of the Vice 
President, Department of Justice, Department of Homeland Security, and 
the Department of Commerce/NTIA have all emerged with interests in this 
issue. Each of these entities has a valid interest and contribution to 
the effort, but the potential for fragmentation and control issues is 
increasing as time passes.
    The key is to balance the development of a firm governance model 
and implementation plan within a reasonable timeframe.

    Question 12. If the D Block were directly allocated to public 
safety then it would utilize 34 MHz of spectrum as its primary spectrum 
for both narrowband and broadband communications. While this wouldn't 
necessarily present a problem in the event of a natural disaster, there 
is concern about possible over reliance on this band during a disaster 
or terrorist attack.
    If public safety principally relies on a relatively narrow range of 
spectrum then a coordinated attack could disrupt, or worse cripple, 
public safety communications through the use of high-power wireless 
jammers. For example, a recent University of Pennsylvania report 
highlighted the susceptibility of the P25 System to active traffic 
analysis and selective jamming attacks.\1\
---------------------------------------------------------------------------
    \1\ Sandy Clark and others, Security Weaknesses in the APCO Project 
25 Two-Way Radio System, CIS Technical Report MS-CIS-10-34, University 
of Pennsylvania, November 18, 2010.
---------------------------------------------------------------------------
    Is this a serious concern that needs to be addressed? Wouldn't the 
public safety network be more resilient by utilizing the existing 700 
MHz assignment with existing public safety spectrum in 400 MHz, 800 
MHz, and 4.9 GHz by using technologies such as dynamic spectrum access, 
cognitive radio, and spectrum aggregation? As well as just greater 
interoperability with commercial systems, which operate in various 
bands?
    Answer. An underlying principle of the FCC's National Broadband 
Plan was the ability to provide a diverse path for public safety. As 
the question notes, systems operating in a single band may well be more 
prone to failure than through diverse paths. While commercial sites may 
not always be built to public safety grade standards, there are 
hundreds of thousands of commercial sites currently in play. In any 
given catastrophic situation such as Hurricane Katrina, or the more 
recent events in Japan, diverse infrastructure can only be viewed as an 
asset.

    Question 13. What impact would greater interoperability with 
commercial systems across the entire 700 MHz band have on the costs and 
time to market of providing mobile broadband capabilities and end users 
devices for first responders?
    Answer. This question creates a two sided sword for consideration. 
As noted in my initial testimony on February 16, a network dedicated 
only to public safety users is faced with the underlying issue of 
economies of scale, or the lack thereof. With a user base of less than 
3 million first responders, handset providers are challenged with 
providing specialized terminal products at price points realized in the 
commercial market. According to recent press reports, Apple sold more 
than 5 million IPad2 devices in less than a week. With no access to 
other commercial bands, whether the D Block operated by a commercial 
entity or other spectrum within the 700 MHz band, devices will 
unquestionably be limited in variety and will come at a premium price.
    This point, should, however, be tempered with the fact that making 
devices that can operate across the entire 700 MHz band will present 
engineering challenges. It is my understanding that there are no such 
devices available today. That said, if public safety is unable to build 
out a network with the speed that commercial operators have been able 
to demonstrate, failure to have access to commercial systems in the 
lower portions of the band may well preclude nationwide access to 
broadband services by first responders.

    Question 14. One of the problems that has been raised about 
auctioning off the D Block spectrum is the uncertainty surrounding 
public safety preemption and prioritization over commercial rules in a 
public-private shared broadband network and that the FCC current 
recommended rules for the D Block do not require cooperation between 
the public and private sectors. Has this been a major sticking point 
attributable to the unsuccessful attempt to auction the D Block? How 
can the FCC resolve this issue properly?
    Answer. Without question, the issue of access to, and priority 
access within, commercial systems has been a sticking point for public 
safety. Recent technical papers have demonstrated beyond any question 
that LTE technology allows for shared access and priority access 
(including the functional equivalent of preemption). The issues of 
public safety access to commercial systems and priority access within 
that access is indeed tied to FCC rules, not technical restraints. If 
the D Block is not allocated to public safety, I would continue to 
argue, as I did in my original testimony, that, as a minimum, public 
safety should be guaranteed access on a priority basis within the D 
Block. In the ideal world, commercial operators in the 700 MHz band 
would embrace a public service mindset and allow for this same priority 
access. Based on public statements of several of the Nation's largest 
carriers, however, this voluntary public service does not appear 
imminent. To the extent that the FCC's authority would allow for the 
mandatory access to networks across the 700 MHz band could be 
permitted, I would argue that this action would be in the public's 
interest.

    Question 15. If the D Block were directly allocated to public 
safety, what impact would that have on public safety's ability to take 
advantage of lower handset prices and more feature-rich equipment?
    Answer. Per my original testimony on February 16, it is my strong 
opinion, and one that has not seen a response to the contrary from any 
manufacturers, is that providing the D Block to public safety will have 
the unintended (but predictable) consequence of creating an island 
technology that will result in greatly increased pricing and limited 
availability of user equipment for first responders. While public 
safety should never expect to see ``feature rich'' handsets available 
at the pricing at levels consumers have become accustomed, devices 
created for a band class 14-only market will, without question, come at 
a premium price and in limited variety. This concept alone can 
substantially negate many of the benefits that were the cornerstone of 
the concept of a dedicated public safety broadband network. With prices 
considerably above those realized by commercial consumers, the logical 
question is whether we perpetuate a distinction between haves and have-
nots within public safety.

    Question 16. Could public safety also use other 700 MHz commercial 
systems on the same basis? Would that provide even greater coverage and 
redundancy benefits?
    Answer. While I believe that commercial systems offer a great deal 
to public safety, I will continue to argue, as I have for the past 6 
years, that public safety requires a core, dedicated infrastructure. 
Given the loading on commercial systems, it is unlikely that public 
safety will ever be able to receive guarantees of access, not to 
mention preemptive priority access, on these commercial systems. I 
strongly believe that public safety requires and deserves a dedicated 
core network that can provide the levels of access they need on a daily 
basis. That said, I equally believe that the FCC's analysis and 
recommendations within the National Broadband Plan regarding access to 
commercial networks for overflow situations during major emergencies is 
the optimum solution when considering the economics of the day and the 
demands for spectrum throughout other communities.

    Question 17. Public safety has built and operated its own 
communications systems for decades. What is public safety's track 
record on the implementation of those systems and the technology they 
use? What are the advantages of having public safety partner with 
commercial providers in the development of a 700 MHz broadband network?
    Answer. As noted above, public safety has done a relatively good 
job of building and managing voice systems within their own 
jurisdictions. It is interesting to note, however, that a considerable 
number of these entities have turned over the maintenance of these 
systems to commercial providers. That said, the record is equally harsh 
regarding public safety's inability to realize interoperability beyond 
the jurisdictional level. Interestingly, however, many of these same 
entities never blink at using nationwide, shared systems from 
commercial providers for broadband services. For many years, public 
safety users have purchased CDPD, 1XRTT, EDDO, EDGE, and HSAA/HSAA+ 
services from commercial providers. Each of these purchases utilizes 
the nationwide offerings of commercial carriers. While none of these 
commercial offerings will provide the quality of service guarantees 
that public safety needs and requires, the existing model does 
demonstrate that commercial providers and be valuable partners in the 
delivery of broadband services.

    Question 18. In addition to the direct allocation of the D Block to 
public safety, the Public Safety Spectrum and Wireless Innovation Act 
Chairman Rockefeller introduced also provides the FCC with incentive 
auction authority--allowing existing spectrum licensees to voluntarily 
relinquish their airwaves in exchange for a portion of the proceeds of 
the commercial auction of their spectrum--and primarily relies on 
incentive auction revenue to raise the funds for the construction and 
maintenance of the public safety broadband network.
    In order to raise the necessary funds, there may have to be 
significant voluntary participation by broadcasters. However, if there 
is less than expected participation then the network runs the risk of 
being underfunded.
    Is this a valid concern and how should it be addressed? Also, even 
though this is voluntary for broadcasters, if there were less than 
expected participation, could there be pressure applied to broadcasters 
to participate given the reliance on funds from incentive auctions to 
pay for the public safety network? How might we prevent this from 
happening?
    Answer. As stated in my testimony of February 16, I am not able to 
speak as an auction expert. From reading extensively on the subject, 
however, I can offer some thoughts on this question. Clearly, no person 
or entity has a crystal ball that can make valid predictions about the 
extent to which broadcasters will participate in the proposed auctions. 
Nor can anyone make a valid estimate on the value of spectrum that may 
come up for auction. The more spectrum that might appear available for 
auction, the less dollars per MHz that will be offered. The less 
spectrum that might appear, the higher the potential value of that 
spectrum. Both assumptions, however, may well be tempered by the status 
of the national economy at the time of the auction.
    Equally to be considered with any discussion on auctions is the 
amount of funds that will ultimately result from said auction. If, for 
example, an auction were to result in $30 billion of bids, the rules of 
an incentive auction would require the return of a portion of those 
funds to the entity offering up the spectrum-no (or low) incentives 
equals little spectrum being offered. Second, once the incentives were 
returned to the original licensee, additional funds would then be 
required nationwide to move incumbent carriers that did not provide 
spectrum for auction to allow for clear bands of spectrum. Needless to 
say, this will result in considerable expense. Thus, $30 billion is not 
equal to $30 billion to the treasury.

    Question 19. In your opinion, how long will it take to raise the 
necessary funds for the construction and maintenance of the public 
safety network, if the primary funding mechanism were auctions? Might 
multiple auctions need to take place and how long does it typically 
take to set up and execute a spectrum auction?
    Answer. Again, while I have no expertise in auctions, the record is 
relatively clear that the path for realization of auction proceeds is 
longer than it is short. That said, the time to begin meaningful 
construction for a public safety broadband is now, not years down the 
road.

                                  <all>

</pre></body></html>
